APPENDIX

Appendix A

®ntteb States Court of Appeals*
for tfje Jfeberal Circuit
FOX FACTORY, INC.,
Appellant
v.
SRAM, LLC,
Appellee
2018-2024, 2018-2025
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201700118, IPR2017-00472.
Decided: December 18, 2019
ErikR. PUKNYS, Finnegan, Henderson, Farabow, Gar­
rett & Dunner, LLP, Palo Alto, CA, argued for appellant.
Also represented by Arpita BHATTACHARYYA, ROBERT F.
McCauley; Joshua Goldberg, Daniel Francis
Klodowski, Washington, DC.
Richard Bennett Walsh, Jr., Lewis Rice LLC, St.
Louis, MO, argued for appellee. Also represented by
Michael Henry Durbin, Michael John Hickey.

App. la

Before PROST, Chief Judge, WALLACH and HUGHES,
Circuit Judges.
PROST, Chief Judge.
Appellant FOX Factory, Inc. (“FOX”) appeals the deci­
sions of the Patent Trial and Appeal Board (“Board”) in two
inter partes reviews (“IPRs”) of claims 1-6 and 13-19 (“the
challenged claims”) of U.S. Patent No. 9,182,027 (“the ’027
patent”). The Board found that the prior art references as­
serted by FOX disclose all the limitations of the ’027 pa­
tent’s independent claims and that a skilled artisan would
have been motivated to combine the asserted prior art. The
Board nevertheless concluded, based on its analysis of sec­
ondary considerations, that FOX had not shown that the
challenged claims would have been obvious. We have ju­
risdiction pursuant to 28 U.S.C. § 1295(a)(4)(A) (2012). For
the reasons below, we vacate and remand for further pro­
ceedings.
I

A
Bicycle chainrings are the toothed disks to which the
bicycle crankarms are attached, collectively forming the
crankset. Pedaling the crankarms rotates the chainring,
which engages with and rotates the chain. Chains can be
susceptible to disengaging from the chainring. This prob­
lem is especially prevalent with geared bicycles, which can
experience severe changes in chain tension and energy mo­
tion of the chain, particularly when riding over rough ter­
rain. Bicycles have employed extraneous structures, such
as chain guides, to improve chain retention.
SRAM, LLC (“SRAM”) owns the ’027 patent, which
generally covers an improved chainring structure that bet­
ter maintains the chain, obviating the need for extraneous
structures. For instance, the ’027 patent discloses a chain­
ring with alternating narrow and wide tooth tips, which al­
legedly improves chain retention because the narrow and

App. 2a

wide teeth better fit inside the inner arid outer chain links,
respectively. In addition, the ’027 patent discloses teeth
offset from the center of the chainring, which also purport­
edly improves chain retention by providing “better guiding
of the chain to one side of the chainring.” Appellee’s Br. 8
(quoting ’027 patent col. 6 11. 8-13).
The independent claims of the ’027 patent—claims 1,
7, 13, and 20—recite a chainring with alternating narrow
and wide tooth tips and teeth offset from the center of the
chainring. Claims 7-12 and 20-26 generally cover tooth
tips offset toward the body of the bicycle (“inboard offsets”),
and claims 1-6 and 13-19 require teeth offset away from
the body of the bicycle (“outboard offsets”). Claim 1 is rep­
resentative of the “outboard offset” independent claims:
1. A bicycle chainring for engagement with a
drivetrain, comprising:
a plurality of teeth formed about a periphery of the
chainring, the plurality of teeth including a first
group of teeth and a second group of teeth, each of
the first group of teeth wider than each of the sec­
ond group of teeth and at least some of the second
group of teeth arranged alternatingly and adja­
cently between the first group of teeth, wherein
each of the plurality of teeth includes a tooth tip;
wherein a plane bisects the chainring into an out­
board side and an inboard side opposite the out­
board side; and
wherein at least the majority of the tooth tip of at
least one of each of the first and second groups of
teeth is offset from the plane in a direction toward
the outboard side of the chainring.
’027 patent claim 1. Claim 7 is representative of the “in­
board offset” independent claims:

App. 3a

7. A bicycle chainring for engagement with a drive
chain, comprising:
a plurality of teeth formed about a periphery of the
chainring, the plurality of teeth including a first
group of teeth and a second group of teeth, each of
the first group of teeth wider than each of the sec­
ond group of teeth and at least some of the second
group of teeth arranged alternatingly and adja­
cently between the first group of teeth, wherein
each of the plurality of teeth includes a tooth tip;
wherein a plane bisects the chainring into an out­
board side and an inboard side opposite the out­
board side; and
wherein at least the majority of the tooth tip of at
least one of each of the first and second groups of
teeth is offset from the plane in a direction toward
the inboard side of the chainring.
Id. at claim 7.
The ’027 patent specification discloses additional
chainring features that are not recited by the independent
claims. Like the features claimed, each of the disclosed but
non-claimed features contribute to improving chain reten­
tion. For example, the specification discloses forwardly
protruding tip portions that “function!] to engage a chain
link earlier than a chain lacking the tip portion and pro­
vide □ better guiding of the chain.” ’027 patent col. 511. 4751; see also id. at fig.5. The specification also discloses a
“hook feature 78 . . . that may be formed on the rear flank
70 of each” tooth and “may cooperate with the tip portion
76 to provide better guiding of the chain.” Id. at col. 5 11.
52-55; see also id. at fig.5. The specification further dis­
closes “inner link-receiving recesses.” Id. at col. 511. 26-44;
see also id. at figs.5, 7. Furthermore, the ’027 patent ex­
plains that the narrow and wide teeth preferably fill at

App. 4a

least 80% of the axial distance of the corresponding space
in the chain link (“>80% gap filling”). Id. at col. 411. 19-41.
SRAM also owns U.S. Patent 9,291,250 (“the ’250 pa­
tent”), which is a continuation of the ’027 patent and in­
cludes claims reciting a chainring with alternating narrow
and wide teeth and wide teeth with >80% gap filling. ’250
patent claim 1; see also J.A. 5270, 5282. In separate IPR
proceedings, SRAM stated that this “combination of fea­
tures” claimed in the ’250 patent, “amongst several others
disclosed in the ’250 patent, leads to a chainring that will
retain a chain in even the worst conditions.” J.A. 5282-83.
SRAM also explained that the >80% gap filling feature “al­
lows the inventive chainring to better retain the chain un­
der many conditions and amounts to the ‘heart’ of the
challenged ’250 patent claims combined with the narrow
and wide tooth configuration.” J.A. 5284. SRAM further
described the >80% gap filling limitation as “critical.” J.A.
5289.
SRAM sells thirteen different versions of its “X-Sync”
chainrings. It is undisputed that twelve of the thirteen ver­
sions embody the inboard offset claims and the thirteenth
version embodies the outboard offset claims.
B
FOX filed two petitions collectively requesting inter
partes review of claims 1-26 of the ’027 patent. One peti­
tion requested inter partes review of the outboard offset
claims, and the other requested review of the inboard offset
claims. Here, we discuss the Board’s findings in IPR 201700472, which relate to the outboard offset claims. We note,
however, that the Board made similar findings in IPR
2017-00118 with respect to the inboard offset claims, in­
cluding with respect to secondary considerations. See FOX
Factory, Inc. v. SRAM, LLC, IPR2017-00118, 2018 WL
1633537, at *3-18 (P.T.A.B. Apr. 2, 2018).

App. 5a

The Board found that Japanese Utility Model No. S5642489 (“JP-Shimano”) and U.S. Patent No. 5,285,701
(“Parachinni”) together disclose every limitation of the out­
board offset independent claims and that a skilled artisan
would have been motivated to combine the references.
FOX Factory, Inc. v. SRAM, LLC, IPR2017-00472, 2018
WL 1889561, at *3-7 (P.T.A.B. Apr. 18, 2018) (J.A. 1-70)
(“Board Decision 472”). The Board determined that JPShimano discloses the claimed narrow and wide teeth, and
Parachinni discloses the claimed outboard offset. Id. at *35. The Board also found that a skilled artisan would have
been motivated to combine the references because the
skilled artisan would have recognized that the combination
of the two features would improve chain retention better
than either feature alone. Id. at *5-7.
Nevertheless, the Board determined, based on its anal­
ysis of secondary considerations, that FOX had not shown
that the challenged claims would have been obvious. Id. at
*21. SRAM submitted secondary considerations evidence
pertaining to its X-Sync products. The Board determined
that SRAM was entitled to a presumption of nexus between
the challenged outboard offset claims and secondary con­
siderations evidence pertaining to SRAM’s X-Sync prod­
ucts, subject to two limitations. Id. at *7—10.
First, the Board stated that evidence of secondary con­
siderations “specifically directed” to either an inboard or
outboard offset X-Sync product is only entitled to a pre­
sumption of nexus with the claims reciting the same type
of offset. Id. Second, the Board explained that the pre­
sumption of nexus only applies when a product is “coexten­
sive” with a patent claim. Id. at *7. The Board interpreted
the coextensiveness requirement to mean only that the
claims must broadly cover the product that is the subject of
the secondary considerations evidence. Id. at *9-10.
Through that lens, the Board explained that SRAM’s sec­
ondary considerations evidence pertaining to a specific XSync product or component (chainring, crankset, or

App. 6a

drivetrain) is only coextensive with the claims broadly cov­
ering that particular component. Id. at *10-11. For in­
stance, in the Board’s view, SRAM’s independent claims,
which cover a chainring, are only coextensive with sales or
industry praise of X-Sync chainrings, not sales or industry
praise of X-Sync cranksets or drivetrains. Id. at *11.
FOX argued that SRAM’s products are not coextensive
with the challenged claims because the products include
numerous unclaimed features. Id. at *9. The Board re­
jected this argument, reasoning that “[ujnclaimed features
do not prevent the presumption of nexus, but they may be
the basis for rebutting the presumption.” Id.
FOX also argued that, under this court’s decision in
Therasense, Inc. v. Becton, Dickinson & Co., 593 F.3d 1289
(Fed. Cir. 2010), vacated on other grounds, 374 F. App’x 35
(2010), SRAM’s products are not coextensive with the inde­
pendent claims because the X-Sync products also embody
the claims of additional patents that cover a different in­
vention than the claims of the ’027 patent. Board Decision
472, at *9. The Board also rejected this argument. The
Board reasoned that, under Therasense, presuming nexus
is only inappropriate if the products also embody one or
more claims of a prior art patent. Id. However, the Board
observed that FOX relied only on continuations of the ’027
patent.
Weighing the evidence, the Board determined that
FOX could not rebut the nexus presumption, and due to
SRAM’s “extremely strong overall showing of objective in­
dicia of non-obviousness,” FOX had not shown by a prepon­
derance of-the evidence that the challenged claims would
have been obvious. Id. at *21. FOX appealed the Board’s
obviousness determinations.
II
“We review the PTAB’s factual findings for substantial
evidence and its legal conclusions de novo.” Redline

App. 7a

Detection, LLC v. Star Envirotech, Inc., 811 F.3d 435, 449
(Fed. Cir. 2015) (citation omitted). “Substantial evidence
is something less than the weight of the evidence but more
than a mere scintilla of evidence,” meaning that “[i]t is such
relevant evidence as a reasonable mind might accept as ad­
equate to support a conclusion.” In re NuVasive, Inc., 842
F.3d 1376, 1379-80 (Fed. Cir. 2016) (internal quotation
marks and citations omitted). “If two inconsistent conclu­
sions may reasonably be drawn from the evidence in rec­
ord, the PTAB’s decision to favor one conclusion over the
other is the epitome of a decision that must be sustained
upon review for substantial evidence.” Elbit Sys. of Am.,
LLC v. Thales Visionix, Inc., 881 F.3d 1354, 1356 (Fed. Cir.
2018) (internal quotation marks, brackets, and citation
omitted). Obviousness is a legal question based on under­
lying fact findings. In re DBC, 545 F.3d 1373, 1377 (Fed.
Cir. 2008).
A
On appeal, FOX contends that the Board applied the
wrong standard for determining whether SRAM was enti­
tled to a presumption of nexus between the challenged
claims and SRAM’s evidence of secondary considerations.
We agree.
1
A patent claim is invalid “if the differences between the
claimed invention and the prior art are such that the
claimed invention as a whole would have been obvious be­
fore the effective filing date of the claimed invention to a
person having ordinary skill in the art to which the claimed
invention pertains.” 35 U.S.C. § 103 (2012).1 Obviousness

i

Congress amended § 103 when it enacted the
Leahy-Smith America Invents Act (“AIA”). Pub. L. No.
112-29, § 3(c), 125 Stat. 284, 287 (2011). Because the ’027

App. 8a

“is a question of law based on underlying findings of fact.”
In,re Gartside, 203 F.3d 1305, 1316 (Fed, Cir. 2000). Those
underlying findings of fact include: (1) “the scope and con­
tent of the prior art,” (2) “differences between the prior art
and the claims at issue,” (3) “the level of ordinary skill in
the pertinent art,” and (4) the presence of evidence of sec­
ondary considerations, such “as commercial success, long
felt but unsolved needs, failure of others,” and unexpected
results. Graham u. John Deere Co. of Kan. City, 383 U.S.
1, 17 (1966); see United States v. Adams, 383 U.S. 39, 50—
52 (1966). In assessing the prior art, the PTAB also “consider[s] whether a [skilled artisan] would have been moti­
vated to combine the prior art to achieve the claimed
invention and whether there would have been a reasonable
expectation of success in doing so.” In re Warsaw Orthope­
dic, Inc., 832 F.3d 1327,1333 (Fed. Cir. 2016) (internal quo­
tation marks, brackets, and citation omitted).
In order to accord substantial weight to secondary con­
siderations in an obviousness analysis, “the evidence of sec­
ondary considerations must have a ‘nexus’ to the claims,
i.e., there must be ‘a legally and factually sufficient connec­
tion’ between the evidence and the patented invention.”
Henny Penny Corp. v. Frymaster LLC, 938 F.3d 1324, 1332
(Fed. Cir. 2019) (quoting Demaco Corp. u. F. Von Langsdorff LicensingLtd., 851 F.2d 1387,1392 (Fed. Cir. 1988)).
“The patentee bears the burden of showing that a nexus
exists.” WMS Gaming Inc. v. Int’l Game Tech., 184 F.3d
1339, 1359 (Fed. Cir. 1999). “To determine whether the
patentee has met that burden, we consider the correspond­
ence between the objective evidence and the claim scope.”
Henny Penny, 938 F.3d at 1332.
As first recognized in Demaco Corp. v. F. Von Lang. sdorff Licensing Ltd., a patentee is entitled to a rebuttable

patent has an effective filing date after March 16, 2013, the
AIA applies. See id. § 3(n)(l), 125 Stat. at 293.

App. 9a

presumption of nexus between the asserted evidence of sec­
ondary considerations and a patent claim if the patentee
shows that the asserted evidence is tied to a specific prod­
uct and that the product “is the invention disclosed and
claimed.” 851 F.2d at 1392 (emphasis added). That is, pre­
suming nexus is appropriate “when the patentee shows
that the asserted objective evidence is tied to a specific
product and that product ‘embodies the claimed features,
and is coextensive with them.’” Polaris Indus., Inc. v. Arc­
tic Cat, Inc., 882 F.3d 1056, 1072 (Fed. Cir. 2018) (quoting
Brown & Williamson Tobacco Corp. u. Philip Morris Inc.,
229 F.3d 1120, 1130 (Fed. Cir. 2000)). Conversely, “[w]hen
the thing that is commercially successful is not coextensive
with the patented invention—for example, if the patented
invention is only a component of a commercially successful
machine or process,” the patentee is not entitled to a pre­
sumption of nexus. Demaco, 851 F.2d at 1392.
We have reaffirmed the importance of the “coextensive­
ness” requirement in subsequent opinions.
See, e.g.,
SightSound Techs., LLC u. Apple Inc., 809 F.3d 1307, 1319
(Fed. Cir. 2015) (“If a product both embodies the claimed
features and is coextensive with the claims at issue, a
nexus is presumed. In other words, a nexus exists if the
commercial success of a product is limited to the features
of the claimed invention.” (citation and quotation marks
omitted)); Therasense, 593 F.3d at 1299.2 Whether a prod­
uct is coextensive with the patented invention, and there­
fore whether a presumption of nexus is appropriate in a
given case, is a question of fact.

2 Although the panel opinion in Therasense was va­
cated by an order granting appellants’ petition for rehear­
ing en banc on the issue of inequitable conduct, 374 F.
App’x 35, the portions of Therasense addressing obvious­
ness—which are the portions we rely on in this case—were
reinstated. 649 F.3d 1276, 1276 (Fed. Cir. 2011) (enbanc).

App. 10a

A finding that a presumption of nexus is inappropriate
does not end the inquiry into secondary considerations. See
In re Huang, 100 F.3d 135, 140 (Fed. Cir. 1996). To the
contrary, the patent owner is still afforded an opportunity
to prove nexus by showing that the evidence of secondary
considerations is the “direct result of the unique character­
istics of the claimed invention.” Id.
2

The parties dispute whether the X-Sync chainrings are
coextensive with the independent claims.3 In finding that
the independent claims would not have been obvious, the
Board did not address the dependent claims in its obvious­
ness analysis. Board Decision 472, at *20. Accordingly, we
only address the Board’s application of the presumption of
nexus to the independent claims. Because no reasonable
fact finder could find otherwise, we conclude that SRAM’s
X-Sync chainrings are not coextensive with the independ­
ent claims.
The independent claims cover a chainring that includes
wide and narrow teeth and either inboard or outboard off­
set teeth. It is undisputed that the X-Sync chainrings in­
clude unclaimed features. See generally Appellant’s Br.;
Appellee’s Br. 24-25. For example, SRAM does not dispute
that its X-Sync chainrings embody the independent claim

3 Because neither party disputes the Board’s finding
that the X-Sync cranksets and drivetrains are not coexten­
sive with the independent claims, the only issue before us
is whether the X-Sync chainrings are coextensive with the
independent claims. See Appellee’s Br. 24. In any event,
because the X-Sync cranksets and drivetrains each include
an X-Sync chainring, our conclusions as to whether nexus
can be presumed between the independent claims and the
X-Sync chainrings also extend to the X-Sync cranksets and
drivetrains.

App. 11a

of a different patent—the ’250 patent—which, as explained
previously, covers a chainring with both wide and narrow
teeth and wide teeth with >80% gap filling. See J.A. 5282—
85 (Preliminary Patent Owner Response). As discussed in
more detail below, because the independent claims of the
’027 patent do not recite this >80% gap filling feature, the
independent claims are not coextensive with the X-Sync
chainrings.
To be sure, we have never held that the existence of one
or more unclaimed features, standing alone, means nexus
may not be presumed. Indeed, there is rarely a perfect cor­
respondence between the claimed invention and the prod­
uct. As we explained, the purpose of the coextensiveness
requirement is to ensure that nexus is only presumed when
the product tied to the evidence of secondary considerations
“is the invention disclosed and claimed.” Demaco, 851 F.2d
at 1392 (emphasis added). Thus, if the unclaimed features
amount to nothing more than additional insignificant fea­
tures, presuming nexus may nevertheless be appropriate.
Put differently, the degree of correspondence between
a product and a patent claim falls along a spectrum. At one
end of the spectrum lies perfect or near perfect correspond­
ence. At the other end lies no or very little correspondence,
such as where “the patented invention is only a component
of a commercially successful machine or process.” Id. Alt­
hough we do not require the patentee to prove perfect cor­
respondence to meet the coextensiveness requirement,
what we do require is that the patentee demonstrate that
the product is essentially the claimed invention. See id.
While coextensiveness is an issue of fact that should ordi­
narily be decided by the fact finder in the first instance, no
reasonable fact finder could conclude, under the proper
standard, that the X-Sync chainrings are coextensive with
the patent claims.
It is undisputed that the X-Sync chainrings include un­
claimed features that the patentee describes as “critical” to

App.12a

the product’s ability to “better retain the chain under many
conditions” and that go to the “heart” of another one of
SRMA’s patents. See J.A. 5284, 5289. In light of the pa­
tentee’s own assertions about the significance of the un­
claimed features, no reasonable fact finder could conclude
that these features are insignificant. As an initial matter,
the fact that SRAM obtained the ’250 patent covering the
combination of wide and narrow teeth and >80% gap filling
leads us to conclude that this combination of features
amounts to more than an insignificant feature not claimed
by the ’027 patent. See Therasense, 593 F.3d at 1299 (find­
ing that the patentee was not entitled to a presumption of
nexus because the product embodied at least two patented
inventions, and the burden thus remained on the patentee
to show that the product’s success was due to the invention
claimed in the patent asserted in the case). Moreover, in a
separate IPR proceeding pertaining to the ’250 patent,
SRAM touted this “combination of features” as, “amongst
several others disclosed in the ’250 patent,” one that “leads
to a chainring that will retain a chain in even the worst
conditions.” J.A. 5282-83. SRAM further described this
gap filling feature as “critical” and one that “allows the in­
ventive chainring to better retain the chain under many
conditions and amounts to the ‘heart’ of the challenged ’250
patent claims combined with the narrow and wide tooth
configuration.” J.A. 5284, 5289. A patent claim is not co­
extensive with a product that includes a “critical” un­
claimed feature that is claimed by a different patent and
that materially impacts the product’s functionality by
“lead[ing] to a chainring that will retain a chain in even the
worst conditions.” See J.A. 5282-84, 5289.
In short, because the independent claims do not include
the >80% gap filling feature, we cannot say that the X-Sync
chainrings are the invention claimed by the independent
claims. Accordingly, the Board erred in presuming nexus
between the independent claims of the ’027 patent and

App.13a

secondary considerations evidence pertaining to SRAM’s
X-Sync chainrings.
The lack of coextensiveness between the independent
claims of the ’027 patent and SRAM’s X-Sync chainrings
appears to extend far beyond the gap filling feature to ad­
ditional unclaimed features. More specifically, FOX con­
tends, and SRAM does not contest, that the X-Sync
chainrings further include the following unclaimed fea­
tures: (1) forwardly protruding tooth tips, Appellant’s Br.
22—26; see also ’027 patent col. 5 11. 45—51, fig.5; (2) hook
features on the teeth, Appellant’s Br. 22-26; see also ’027
patent col. 5 11. 52-55, fig.5; and (3) mud-clearing recesses,
Appellant’s Br. 22-26. As to the first, the ’027 patent spec­
ification explains that forwardly protruding tooth tips
“function!] to engage a chain link earlier than a chain lack­
ing the tip portion and provide!] better guiding of the
chain.” ’027 patent col. 5 11. 45-51; see also id. at fig.5. As
to the second, the ’027 patent specification explains that
such hook features “cooperate with the [forwardly protrud­
ing tips] 76 to provide better guiding of the chain.” Id. at
col. 511. 52-55; see also id. at fig.5. As to the third, SRAM’s
marketing materials explain that these recesses “get rid of
mud so the chain remains in place no matter what condi­
tions you’re up against.” J.A. 5316.4 In sum, the ’027 pa­
tent and SRAM’s marketing materials confirm that the
forwardly protruding tooth tips, hook features, and mud
clearing recesses each materially impacts the functioning

4 FOX further contends that these recesses appear to
be the same as the inner link-receiving recesses discussed
in the ’027 patent. It is unclear on this record whether
FOX’s contention is correct. If these features are different,
SRAM’s chain links further appear to include inner link­
receiving recesses. Appellant’s Br. 22—26; see also J.A. 219
(’027 patent col. 5,11. 26-44). Compare J.A. 5344 with J.A.
211-12 C027 patent figs.5, 7).

App. 14a

of a chainring. For each of these features that the Board
confirms is included in the X-Sync chainrings, nexus can
only be presumed between the X-Sync chainrings and a pa­
tent claim if the claim includes limitations relating to these
features.
3
SRAM’s counterarguments are unpersuasive. First,
SRAM argues that the existence of unclaimed features in a
commercial product is irrelevant to the question of whether
nexus can be presumed between that product and a patent
claim.5 Rather, according to both SRAM and the Board,
unclaimed features are only relevant on rebuttal,6 and the
coextensiveness requirement is met if the patent claim

5 For this position, both the Board and SRAM rely on
our decision in PPC Broadband, Inc. v. Corning Optical
Communications RF, LLC, 815 F.3d 734, 747 (Fed. Cir.
2016).
6 In addition to challenging whether the Board erred
by presuming nexus in this case, FOX also contends that
the Board imposed too high a burden on FOX to rebut the
presumption of nexus by requiring FOX to show that the
claimed invention had absolutely no relevance to SRAM’s
evidence of secondary considerations. Appellant’s Br. 5153; see, e.g., Board Decision 472, at *14 (“Petitioner fails to
direct us to where the industry praise is directed only to
the inboard-offset feature.”); id. at *15 (“Moreover, none of
the articles that include the references to the ‘tall,’ ‘hooked,’
and ‘asymmetric’ teeth purport to attribute all of the bene­
fits of the X-Sync chainring to those attributes.”); id. (“As
for the fact that some of the articles only mention wide nar­
row teeth, we do not agree with Petitioner that this estab­
lishes that the praise was only directed to the features
found in the prior art.”). Because we determine that the
Board erroneously presumed nexus, we do not reach this
issue.

App. 15a

broadly covers the product that is the subject of the evi­
dence of secondary considerations. See, e.g., Appellee’s Br.
50-56. As previously explained, we agree with both the
Board and SRAM that the mere existence of one or more
unclaimed features does not necessarily mean presuming
nexus is inappropriate. In this case, however, because
there are one or more features not claimed by the ’027 pa­
tent that materially impact the functionality of the X-Sync
products, including the >80% gap filling feature claimed in
the ’250 patent, nexus may not be presumed.
On a broader note, if we were to agree with the posi­
tions taken by both SRAM and the Board—i.e., that the coextensiveness requirement is met so long as the patent
claim broadly covers the product that is the subject of the
secondary considerations evidence, irrespective of the na­
ture of any unclaimed features—then the coextensiveness
requirement would rest entirely on minor variations in
claim drafting. For instance, suppose a patent includes
some claims specifically covering novel “brake pads” and
others directed to an “automobile” in which the body of the
claim recites little more than the novel brake pads. It is
beyond dispute that the “brake pad” claims would not be
entitled to a nexus presumption with any secondary con­
siderations evidence tied to commercially sold automobiles
containing those brake pads (e.g., commercial success or
praise of the automobiles). In SRAM and the Board’s view,
the “automobile” claims would be entitled to a nexus pre­
sumption with such secondary considerations evidence.
They reach this view even though the automobiles sold con­
tain hundreds if not thousands of different components be­
yond just the novel aspect of the claimed brake pads, and
even though only minor variations in patent claim lan­
guage (i.e., whether the word “automobile” is included in
the claims) differentiate the “brake pad” claims and the
“automobile” claims. Resting the coextensiveness inquiry
on nothing more than minor variations in patent claim

App. 16a

language would turn the inquiry into one of form over sub­
stance.
We reject SRAM’s attempt to reduce the coextensive­
ness requirement to an inquiry into whether the patent
claims broadly cover the product that is the subject of the
evidence of secondary considerations. Such an interpreta­
tion is inconsistent with Demaco’ s requirement that nexus
can only be presumed where the evidence of secondary con­
siderations is tied to a specific product that “is the inven­
tion disclosed and claimed.” Demaco, 851 F.2d at 1392
(emphasis added). Nor is such an interpretation consistent
with Demaco’s explanation that nexus cannot be presumed
where, for example, “the patented invention is only a com­
ponent of a commercially successful machine or process.”
Id. We are bound by Demaco and decline to depart from it.
Second, SRAM also argues that because the ’250 patent
is a continuation of the ’027 patent, failing to presume
nexus in this case “would result in the absurd situation
that multiple continuations on a patent would prohibit a
presumption of nexus.” Appellee’s Br. 50. SRAM continues
that “[t]his Court has recognized time and again that re­
lated patents can share a presumption of nexus.” Id. at 53.
Where a product embodies claims from two patents, a pre­
sumption of nexus can be appropriate only if the claims of
both patents generally cover the same invention. In each
of the cases SRAM cites for the proposition that the claims
of multiple patents can share a presumption of nexus with
the same product, the claims of each of the patents covered
essentially the same invention. See, e.g., WBIP, LLC v.
Kohler Co., 829 F.3d 1317, 1324-25 (Fed. Cir. 2016) (pre­
suming nexus between a product and the asserted claims
of two related patents where the patents covered essen­
tially the same invention, and the court identified a single
claim as representative of both patents); PPC Broadband,
815 F.3d at 737—39 (presuming nexus between a product
and the asserted claims of three patents where the asserted
claims of all three patents recited the same essential

App. 17a

features); Gator Tail, LLC v. Mud Buddy LLC, 618 F. App’x
992, 995, 999-1000 (Fed. Cir. 2015) (presuming nexus be­
tween a product and all of the asserted claims where “the
[related] patents essentially claim the same invention”);
Media Techs. Licensing, LLC v. Upper Deck Co., 596 F.3d
1334, 1336-39 (Fed. Cir. 2010) (unclear as to whether
nexus was presumed, and in any event the related patents
were drawn to the same invention).7 Conversely, here, the
independent claims of the ’250 patent and ’027 patent do
not cover the same invention. In particular, these patents
cover different combinations of chainring features.
In addition, although the fact that SRAM separately
sought patent protection for the combination of wide and
narrow teeth with this >80% gap filling feature is alone
probative of whether this combination of features adds up
to more than an insignificant additional feature, see Therasense, 593 F.3d at 1299, a presumption of nexus might
well be inappropriate in this case even if SRAM never
sought such patent protection. In particular, the X-Sync
products are not coextensive with the independent claims
of the ’027 patent because the products include a “critical”
unclaimed feature not covered by the independent claims
of the ’027 patent that materially impacts the product’s
functionality by “lead[ing] to a chainring that will retain a
chain in even the worst conditions.” See J.A. 5282-84,
5289. This is true regardless of whether SRAM included
these unclaimed features in other patents.

7

The additional cases on which SRAM relies do not
address the presumption of nexus at all. See Acorda Ther­
apeutics, Inc. v. Roxane Labs., Inc., 903 F.3d 1310 (Fed. Cir.
2018); Merck Sharp & Dohme Corp. u. Hospira, Inc., 874
F.3d 724, 730—31 (Fed. Cir. 2017); Transocean Offshore
Deepwater Drilling, Inc. v. Maersk Drilling USA, Inc., 699
F.3d 1340, 1354-55 (Fed. Cir. 2012); Star Sci., Inc. v. R.J.
Reynolds Tobacco Co., 655 F.3d 1364,1368 (Fed. Cir. 2011).

App. 18a

We note that the Board’s determinations in these IPR
proceedings on the ’027 patent and the IPR proceedings on
the ’250 patent highlight one reason why nexus may not be
presumed under these circumstances. Between these two
proceedings, the Board presumed nexus between the inde­
pendent claims of both patents and the secondary consid­
erations evidence submitted by SRAM, see J.A. 6458-62,
even though (a) SRAM relies on essentially the same evi­
dence of secondary considerations in both proceedings; J.A.
5455-76, 6363-88; see also J.A. 5282-84, 5289; and (b) the
’027 and ’250 patent claims cover different inventions. The
same evidence of secondary considerations cannot be pre­
sumed to be attributable to two different combinations of
features. See Therasense, 593 F.3d at 1299. In such situa­
tions, the patentee retains the burden of proving the degree
to which evidence of secondary considerations tied to a
product is attributable to a particular claimed invention.
See, e.g., WMS Gaming, 184 F.3d at 1359.
4
Because the Board erroneously presumed nexus be­
tween the evidence of secondary considerations and the in­
dependent claims, we vacate the Board’s obviousness
determination and remand for further proceedings. On re­
mand, SRAM will have the opportunity to prove nexus be­
tween the challenged independent claims and the evidence
of secondary considerations. More specifically, SRAM will
bear the burden of proving that the evidence of secondary
considerations is attributable to the claimed combination
of wide and narrow teeth with inboard or outboard offset
teeth, as opposed to, for example, prior art features in iso­
lation or unclaimed features. See, e.g., Ethicon Endo-Surgery, Inc. v. Covidien LP, 812 F.3d 1023, 1034 (Fed. Cir.
2016) (for patent claims covering a combination of prior art
features, to establish nexus, patentee must show that the
evidence of secondary considerations is attributable to “the
combination of the two prior art features . . . that is the
purportedly inventive aspect of the [challenged] patent” as

App. 19a

opposed to unclaimed features or either prior art feature in
isolation).
B
Separate from the issue of nexus, in its response to
FOX’s statement of the case, SRAM briefly contends that
we can enter judgment in favor of SRAM on an alternative
ground: that substantial evidence does not support the
Board’s conclusions that a skilled artisan would have been
motivated to combine the asserted prior art to arrive at the
independent claims. Appellee’s Br. 20-23. Notably, SRAM
does not mention this argument in its summary of the ar­
gument or argument sections of the brief. See generally
Appellant’s Br. We have previously declined to address ar­
guments that appear in the statement of facts but not the
summary of the argument or argument sections of the
brief. See Kao Corp. v. Unilever U.S., Inc., 441 F.3d 963,
973 n.4 (Fed. Cir. 2006) (declining to consider appellee’s ar­
gument that only “appear[ed] in the appellee’s briefs sec­
tions ‘Statement of the Facts’ and ‘Standard of Review,”’
but not the “statement of issues presented, nor the sum­
mary of argument, nor the argument section” of the brief);
see also SmithKline Beecham Corp. v. Apotex Corp., 439
F.3d 1312, 1319 (Fed. Cir. 2006) (“Our law is well estab­
lished that arguments not raised in the opening brief are
waived.”); Becton Dickinson & Co. v. C.R. Bard, Inc., 922
F.2d 792, 800 (Fed. Cir. 1990) (holding we have discretion
to consider arguments that are not properly raised in the
opening brief).
Even if this argument is properly preserved, it is mer­
itless. Substantial evidence—including the declarations
submitted by FOX’s expert—supports the Board’s conclu­
sion that a skilled artisan would have been motivated to
combine the asserted prior art because the skilled artisan
would have recognized that the combination of prior art
features would better address chain drop than either fea­
ture in isolation. See, e.g., J.A. 4492-4513, 5219-27, 5762-

App.20a

89, 6099-6106. Therefore, we affirm the Board’s determi­
nation that a skilled artisan would have been motivated to
combine the asserted prior art.
Ill
FOX also raises a SAS-based remand request. In one
of the underlying inter partes review proceedings, IPR
2017-00118, the Board instituted review of only two of the
eight grounds of unpatentability raised by FOX. Three
weeks after the Board’s final written decision, the Supreme
Court issued its decision in SAS Institute v. Iancu, 138 S.
Ct. 1348 (2018). Shortly after this appeal was docketed,
and before any briefs were filed, FOX moved to terminate
the appeal as to IPR2017-00118 on the ground that the
Board failed to follow the requirements set forth in SAS by
failing to institute review of all eight grounds FOX raised.
Motion of Appellant FOX Factory, Inc., for Remand of Ap­
peal No. 2018-2024 (IPR2017-00118) in View of Interven­
ing Authority at 1-2 (Sept. 28, 2018), ECF No. 22
(“Motion”). Although we chose not to terminate the appeal
as to IPR No. 2017-00118, we now remand to the Board to
consider the non-instituted grounds.
SRAM contends that FOX waived its right to a remand
(and to terminate the appeal) pursuant to SAS because
FOX failed to raise its SAS objection before the Board. Ap­
pellee SRAM, LLC’s Opposition to Appellant’s Motion to
Remand at 2 (Oct. 2, 2018), ECF No. 24. This argument,
however, is unavailing because SAS issued after the
Board’s final written decision, and we have not required
filing a request for reconsideration to preserve a SAS-based
remand. See BioDelivery Scis. Int’l, Inc. v. Aquestive Ther­
apeutics, Inc., 898 F.3d 1205, 1208 (Fed. Cir. 2018) (“We
also declined to find that a party waived its right to seek
SAS-based relief due to failure to argue against partial in­
stitution before the PTAB.”).
SRAM also argues that FOX waived its right to a re­
mand because FOX failed to explicitly raise its SAS

App. 21a

objection in its Notice of Appeal. We have found that a pa­
tent challenger can properly preserve an SAS objection by
requesting remand in its opening brief. See Google LLC v.
Ji-Soo Lee, 759 F. App’x 998, 1002 n.2 (Fed. Cir. 2019).
Here, FOX did more than that: it filed a motion to remand
even before its opening brief was due. See Motion. Accord­
ingly, we conclude that FOX did not waive its right to a
remand.
IV
We vacate the Board’s obviousness determinations in
IPR 2017-00118 and IPR 2017-00472 and remand for it to
reevaluate the import of the evidence of secondary consid­
erations with the burden of proving nexus placed on the
correct party. We also remand IPR 2017-00118 for the
Board to consider the non-instituted grounds.
VACATED AND REMANDED
Costs
The parties shall bear their own costs.

App. 22a

Case: 18-2024

Document: 80

Page: 1

Filed; 03/13/2020

Appendix B

NOTE: This order is nonprecedential.

Untteb States Court of Appeals
for tl)t Jfcijcral Circuit
FOX FACTORY, INC.,
Appellant
v.
SRAM, LLC,
Appellee
2018-2024, 2018-2025
Appeals from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in Nos. IPR201700118, IPR2017-00472.
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, Newman, LOURIE, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
HUGHES, and Stoll, Circuit Judges.
Per Curiam.
ORDER
Appellee SRAM, LLC filed a petition for rehearing en
banc. A response to the petition was invited by the court
and filed by Appellant Fox Factory, Inc. The petition was

App. 23a

Case: 18-2024

Document: 80

Page: 2

FiM; 03/13/2020

first referred as a petition for rehearing to the panel that
heard the appeal, and thereafter the petition for rehearing
en banc was referred to the circuit judges who are in regu­
lar active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on March 20, 2020.
For the Court
March 13. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 24a

Appendix C

UNITED STATES PATENT AND TRADEMARK OFFICE

BEFORE THE PATENT TRIAL AND APPEAL BOARD

FOX FACTORY, INC.,
Petitioner,
v.
SRAM, LLC,
Patent Owner.

Case IPR2017-00118
Patent 9,182,027 B2

Before MICHAEL W. KIM, FRANCES L. IPPOLITO, and
KEVIN W. CHERRY, Administrative Patent Judges.
CHERRY, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and37 C.F.R. § 42.73

App. 25a

We issue this Final Written Decision pursuant to 35 U.S.C. § 318(a)
and 37 C.F.R. § 42.73. For the reasons that follow, we determine Petitioner
has not proven by a preponderance of the evidence that claims 7-12 and 2026 of the ’027 patent are unpatentable. See 35 U.S.C. § 316(e).
I. BACKGROUND
A. Related Proceedings
Patent Owner has asserted infringement of the ’027 patent in SRAM,
LLC v. Race Face Performance Products, Case No. 1:15-cv-l 1362-JHL
(N.D. Ill.). Paper 4, 3; Pet. 92.
The ’027 patent is one of a number of related, issued patents and
pending applications. See Paper 4, 1. The ’027 patent is also at issue in the
following post-grant proceedings: (1) FOX Factory, Inc. v. SRAM, LLC,
Case IPR2016-01876 and (2) FOX Factory, Inc. v. SRAM, LLC, Case
IPR2017-00472. Paper 7, 2. The ’027 patent is currently undergoing ex
parte reexamination proceedings under Reexamination Control No.
90/013,715, which was initiated on June 2, 2016. Id. We stayed this
reexamination on April 3, 2017. See Paper 7.
B. The’027 Patent
The ’027 patent relates generally to chainrings, and more particularly
to a solitary chainring for use with a conventional chain in a bicycle
drivetrain system that includes a bicycle crank. Ex. 1001, 1:5-7. Bicycles
and other chain-driven vehicles typically employ one or more chainrings and
set of rear hub-mounted sprockets connected by a chain. Id. at 1:8-10.
According to the ’027 patent, the management of chain and chainring
engagement in bicycles is important, and various mechanisms are used to
maintain the chain on the chainring and the sprockets, including chain

App. 27a

guards, chain tensioners, chain catchers, and derailleur configurations,
among others. Id. at 1:10-13. The ’027 patent explains that managing the
connection between the chain and the chainring is particularly difficult in
geared bicycles, which can experience severe changes in chain tension and
energy motion of the chain, especially when riding over rough terrain. Id. at
1:14-20. Specifically, the ’027 patent asserts that it is directed to a solution
for the problem of chain management, especially for a bicycle that can
successfully and reliably be ridden over challenging and rough terrain. Id. at
1:27-29.
Figure 3 of the ’027 patent illustrates a drive chain and chainring, and
is reproduced below:

I

0 <4

FIG. 3

Figure 3, reproduced above, is an isometric view of a combined drive chain
and chainring, according to the purported invention engaged by a drivetrain.
Id. at 2:21-22. Figure 3 shows chainring 50 and conventional chain 10. Id.
at 3:44—45. Crank or crank arm 48 attaches to chainring 50. Id. at 3:47-49.
Force applied to crank arm 48 (typically, in a downward direction) causes
rotation of chainring 50 in like a like direction (clockwise). Id. at 3:55-57.

App. 28a

The rotation of chainring 50 causes chain 10 to be drawn over and advanced
about chainring 50. Id. at 3:57-59.
As is illustrated in Figure 3, chainring 50 includes a plurality of teeth,
including first group of teeth 58 and second group of teeth 60. Id. at 3:6067. Drive chain 10 includes outer chain links 12 and inner chain links 14.
Id. at 2:63-65. First group of teeth 58 is configured to be received by, and
fitted into, the outer link spaces of drive chain 10, and second group of
teeth 60 is configured to be received by, and fitted into, the inner link spaces.
Id. at 3:66-4:3. Each tooth can have an optional tip portion that protrudes
forwardly from a line drawn where rollers in the chain contact the tooth. Id.
at 5:33—48. The ’027 patent explains that this protruding tip portion
“functions to engage a chain link earlier than a chain lacking the tip portion
and provides better guiding of the chain.” Id. at 5:48-51.
C. Illustrative Claim
Claims 7 and 20, both apparatus claims, are the only independent
claims of the ’027 patent challenged in the Petition. Claims 8-12 each
depend from claim 7. Claim 21-26 each depend from claim 20. Claim 7 is
illustrative of the subject matter in this proceeding and is reproduced below.
7. A bicycle chainring for engagement with a drive chain,
comprising:
a plurality of teeth formed about a periphery of the
chainring,
the plurality of teeth including a first group of
teeth and a second group of teeth,
each of the first group of teeth wider than each of
the second group of teeth and at least some of

App. 29a

the second group of teeth arranged altematingly
and adjacently between the first group of teeth,
wherein each of the plurality of teeth includes a
tooth tip;
wherein a plane bisects the chainring into an outboard
side and an inboard side opposite the outboard side;
and
wherein at least the majority of the tooth tip of at least
one of each of the first and second groups of teeth is
offset from the plane in a direction toward the inboard
side of the chainring.
Id. at 7:32—46. '
D. Instituted Grounds of Unpatentability
We instituted an inter partes review of the ’027 patent on the
following grounds of unpatentability asserted in the Petition. Inst. Dec. 27.
Claims

Basis

7,8,11,12,
20-22,25,
and 26
9, 10, 23, and

§ 103(a)

24

§ 103(a)

References
US 6,273,836 B1 to Thompson (“Thompson”)
(Ex. 1019) and JP S56-442489 to Shimano
(“JP-Shimano”) (Ex. 1006)2 •
Thompson, JP-Shimano, and US 3,375,022 to
Hattan (“Hattan”) (Ex. 1004)

i

The Leahy-Smith America Invents Act (“ALA”), Pub. L. No. 112-29
(2011), revised 35 U.S.C. §§ 102-103, effective March 16, 2013. Because
the ’027 patent has an effective filing date before March 16, 2013, we refer
to the pre-AIA versions of §§ 102 and 103
2 Exhibit 1006 includes both the published Japanese Patent Application
(pages 1-10) and an English translation (pages 11-18). We will refer
exclusively to the English translation.

App.30a

II. ANALYSIS
A.

Claim Construction

We interpret claims in an unexpired patent using the “broadest
reasonable construction in light of the specification of the patent in which
[they] appear[ ].” 37 C.F.R. § 42.100(b). Any special definition for a claim
term must be set forth with reasonable clarity, deliberateness, and precision.
In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). “Under a broadest
reasonable interpretation, words of the claim must be given their plain
meaning, unless such meaning is inconsistent with the specification and
prosecution history.” Trivascular, Inc. v. Samuels, 812 F.3d 1056, 1062
(Fed. Cir. 2016).
Only those terms which are in controversy need be construed, and
only to the extent necessary to resolve the controversy. Vivid Techs., Inc. v.
Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999).
We determine that no terms require express construction for purposes
of this Final Written Decision.
B.

Level of Skill in the Art

Petitioner asserts that a person of ordinary skill in the art, at the time
of the effective filing date of the ’027 patent, “would have a skill level of at
least a bachelor’s degree in mechanical engineering and/or at least three to
five years’ experience in the development and design of chain drive systems
and components thereof.” Pet. 1 n.l (citing Ex. 1023 f 16). Patent Owner
contends that a person of ordinary skill would have a bachelor’s degree in
mechanical engineering and at least one year of design experience with
chainrings or related technologies. PO Resp. 12 n.3 (citing Ex. 2074 125).
Any difference between these two definitions is insignificant to this analysis.

App. 31a

On this record, however, we find Patent Owner’s definition of a person of
ordinary skill in the art to be more persuasive given the well-developed,
relatively simple nature of the art, and apply it for our analysis.
C.

Scope and Content of the Prior Art

The instituted ground alleges that claims 7, 8, 11, 12, 20-22, 25, and
26 of the ’027 patent are unpatentable as obvious over Thompson and JPShimano, and claims 9, 10, 23, and 24 are unpatentable as obvious over the
combination of Thompson, JP-Shimano, and Hattan. Pet. 15-57; Inst.
Dec. 13-25.
1.

Thompson (Ex. 1019)

Thompson, titled “Chain Sprocket with Axial Stiffeners,” describes a
“chain sprocket,” i.e., chainring, with stiffening fins “formed integrally
with” the chainring’s spokes. Ex. 1019, at [54], Abstract. An exemplary
embodiment of Thompson’s chain sprocket is shown in Figure 3, which is
reproduced below.

Figure 3 shows a perspective view of Thompson’s chain sprocket. Id. at
2:16-17. Thompson explains that chain sprocket 10 typically comprises
disc-like base 44 having outer rim 46 and spokes 48 extending radially from
hub 50 to outer rim 46. Id. at 3:1-4. Chain-accepting teeth 52 are formed
along the outer periphery of outer rim 46. Id. at 3:4-5. Stiffening fins 60
are formed integrally with at least some of spokes 48. Figure 4 of
Thompson, which is reproduced below, illustrates the depth of the chainring.

50

58

Tfi^

Kv

60.

TTPVZ
\------ .62

52 ^46

FIG.4
Figure 4 of shows a cross-sectional view taken along line 4—4 of Figure 3.
Id. at 2:18-19. Figure 4 shows that stiffening fins 60 have a much greater
axial dimension than teeth 52 or outer rim 46 of base 44. Id. at 3:36-40.
2.

Hattan (Ex. 1004)

Hattan, titled “Drives for Bicycles,” relates to an improved pedal
actuated drive for bicycles. Ex. 1004, 1:20-21. Hattan explains that a
“major object” of its invention is to “provide improved and simplified means
for preventing the chain from jumping off of the forward oblong sprocket
wheel under any operating conditions.” Id. at 1:64-67. Hattan describes
preferred tooth dimensions for use with a 3/32 inch chain. Id. at 7:52-66. In
particular, Hattan discloses that, for “a standard 3/32 of an inch chain,”
which corresponds to the spacing between the inner links of the chain
(Ex. 1023 f 81), it is “preferred” that the axial thickness of the sprocket teeth

App. 33a

“be between about .070 inch and .090 inch, desirably about .080 inch.”
Ex. 1004, 7:52-66. Based on Hattan’s description of its preferred

I

thicknesses, the filled axial distance defined by the inner link spaces (i.e.,
“axial fill”) for an inner link space of 3/32 (0.09375) inches would be
between 74.6% (dividing 0.070 by 0.09375) and 96% (dividing 0.090 by
0.09375). Ex. 1023 f 81.
3. JP-Shimano (Ex. 1006)
JP-Shimano is a Japanese Utility Model Application, titled “Chain
Gear for a Bicycle,” and describes a chain gear for a bicycle designed to
reduce chain drop. Ex. 1006, 15:49-60, 15:78-86. JP-Shimano discloses a
chainring for a bicycle with alternating wide and narrow teeth. Id. at 15:5560, 15:78-86, 15:108-115, Figs 1-2. JP-Shimano describes a chainring
having “a plurality of teeth provided circumferentially on an outer periphery
of the gear main body.” Id. at 15:64-67. Figure 1 of JP-Shimano, as
annotated by the Petitioner, is reproduced below.
First Groyp

FMS.1

App.34a

Pet. 61. Figure 1, as annotated by Petitioner, shows an embodiment of the
chainring of JP-Shimano. Id. at 16:134-135. Figure 1 shows alternating
wide and narrow teeth (teeth 22 and 23 respectively (labeled first group and
second group by Petitioner)). Id. at 16:99-106. Figure 2 of JP-Shimano, as
annotated by the Petitioner, is reproduced below.
FKS.2

Second Group
First Group

?z A33

-rl:

a*

!"3SC j
^"TV*""/

1

23
21

U--------

23

22

Outer link Space

Inner UnkSpace.

Pet. 62. Figure 2, as annotated by Petitioner, shows teeth 22 and 23
engaging the bicycle chain. Id. JP-Shimano notes that wider teeth 22 may
be wider than or equal to the space between inner link plates 31, and the
thickness of wider teeth 22 is greater than narrower teeth 23, such that wider
teeth 22 engage the chain between outer chain link plates 32.
Id. at 16:99-115. JP-Shimano summarizes its device as:
The present device focuses on the fact that spaces between the
outer link plates in the chain become wider than the spaces
between the inner link plates, and ... is configured to eliminate
dropping of the chain from between the outer link plates, and also
to enhance durability. The present device accomplishes this by
setting one specific tooth as a standard, from among the plurality
of teeth provided circumferentially on the outer periphery of the
gear main body, and by forming the thickness of the evennumbered teeth smaller than the spaces between the outer link
plates of the chain, but greater than other teeth that engage
between the inner link plates, so that the teeth with the greater
thickness engage between the outer link plates.
Ex. 1006, 15:78-86.

App. 35a

D.

Differences Between the Prior Art and the Claimed Invention
1. Claims 7, 8, 11, 12, 20—22, 25, and 26
With respect to independent claim 7, Petitioner contends that

Thompson discloses: (1) “a bicycle chainring for engagement with a drive
train, comprising,” Pet. 24 (citing Ex. 1019, 1:48-67, 2:38-67, 3:1-17;
Ex. 1023 Tf 37); (2) “a plurality of teeth formed about a periphery of the
chainring,” id. at 25-26 (citing Ex. 1019, 1:48-67, 2:38-67, 3:1-17, Fig. 4;
Ex. 1023

39); (3) wherein “each of the plurality of teeth includes a tooth

tip,” id. at 29-30 (citing Ex. 1019, 1:48-67, 2:38-67, 3:1-17; Ex. 1023
43, 44); and (4) “where a plane bisects the chainring into an outboard side
and an inboard side opposite the outboard side,” id. at 30-32 (citing
Ex. 1019, Fig. 4; Ex. 1023 ^ 45-47). Petitioner also submits that JPShimano accounts for (1) “the plurality of teeth including a first group of
teeth and a second group of teeth,” id. at 26-27 (citing Ex. 1006, 15:55-60,
15:78-86, 16:99-117, Figs. 1, 2; Ex. 1023

40); (2) “each of the first group

of teeth is wider than each of the second group of teeth,” id. at 27-28 (citing
Ex. 1006, 15:81—86, 16:99-117, Figs. 1, 2; Ex. 1023 141); and (3) “at least
some of the second group of teeth arranged altematingly and adjacently
between the first group of teeth,” id. at 28-29 (citing Ex. 1006, 16:99-117,
Figs. 1-2; Ex. 1023

42). Petitioner further relies on the combined

teachings of Thompson, as modified in view of JP-Shimano, to account for
“wherein at least the majority of the tooth tip of at least one of each of the
first and second groups of teeth is offset from the plane in a direction toward

App.36a

the inboard side of the chainring. »3 Pet. 32-34 (citing Ex. 1019, Abstract,
1:48-67, 2:38-67, 3:1-17; Ex. 1023

48, 49).

Petitioner also further asserts that Thompson and JP-Shimano account
for the limitations of claims 8, 11, 12, 20-22, 25, and 26. Pet. 34-45.
2. Motivation to Combine
To support its argument that a person of ordinary skill would have
combined the teachings of Thompson and JP-Shimano, Petitioner argues that
a person of ordinary skill in the art “would have known that it is critical to
the operation of a bicycle for a bicycle chain to remain engaged with the
bicycle chainring.” Pet. 22 (citing Ex. 1023

34). Petitioner asserts that

“Thompson and JP-Shimano each teach this motivation for their respective
apparatuses: preventing the chain from detaching from the chainring.” Id.
Petitioner contends that it would have been obvious to a person of ordinary
skill in the art to improve chain retention by combining known methods of
doing so, such as employing both the offset-teeth chainring of Thompson
and the alternating narrow and wide teeth of JP-Shimano, in order to
“improve chain engagement and retention to the maximum extent possible,
particularly for a solitary front chainring such as in Thompson . . . .”
Pet. 22-23 (citing Ex. 1023 f 35). Petitioner notes that “Thompson explains
that its disclosed sprocket (i.e., chainring) is axially reinforced to prevent
deformation of the sprocket, such as flexing or bending, which ‘can cause
chain disengagement from the sprocket.’” Id. at 22 (citing Ex. 1019, 1:3233). Petitioner also submits that “JP-Shimano recognizes that the Targe gap’

3 Patent Owner correctly notes that we erroneously stated in our Institution
Decision (see Inst. Dec. 17) that Petitioner was relying on only Thompson
for this element. PO Resp. 47-48 n.5.

App. 37a

between narrow chainring teeth and the outer link plates can cause the chain
to drop if a chain line is displaced, and solves this problem with its
alternating narrow-wide tooth chainring that ‘is configured to eliminate
dropping of the chain from between the outer link plates, and also to
enhance durability.’” Id. (quoting Ex. 1006, 15-16,11. 73-86, 122-130).
Petitioner asserts that “[s]uch a combination would provide the chain
retention benefits offered by both devices, and would not require modifying
the structure of the Thompson chainring beyond merely configuring its
inboard-offset teeth to alternate between narrow and wide profiles.” Id. at
23 (citing Ex. 1023 ^ 36). Petitioner contends that such a modification
would merely be the combination of familiar elements according to known
methods to do no more than yield predictable results. Id. at 23 (citing KSR
Int’l Co. v. Teleflex Inc., 550 U.S. 398, 416 (2007)).
Patent Owner argues that there is no rationale to modify Thompson in
view of JP-Shimano for two reasons. PO Resp. 46-53. First, Patent Owner
argues that Petitioner’s rationale is improper, because “Thompson already
has structure for solving the problem addressed by JP-Shimano (i.e., chain
drop associated with a deflected chain) and there is no suggestion that
Thompson has any need to control the chain path further.” Id. at 47-48.
Second, Patent Owner contends that the combination of Thompson and JPShimano would have been too complex and expensive. Id. at 52-53.
Petitioner’s rationale for combining Thompson and JP-Shimano is
based on an assumption that chain retention techniques of Thompson and JPShimano are additive, and would “improve chain retention to the maximum
extent possible.” Pet. 22-23; see also Tr. 8:6-9; Ex. 2074 148. The
Petition and Dr. Neptune’s opening Declaration, however, contains no facts

App.38a

or explanation to support this underlying assumption. Ex. 2074

50.

Dr. Sturges testifies that a person of ordinary skill in the art would have
understood that JP-Shimano would not have improved chain retention and
engagement in Thompson, because both are directed to solving the same
kind of problems that result in chain drop—namely, chain line displacement.
Ex. 2074

45-47. Thus, Patent Owner contends that there would have

been no net benefit to combining the two references, and hence, no rationale
to combine Thompson and JP-Shimano. PO Resp. 47-52.
Petitioner responds by arguing that Thompson does not completely
prevent chain drop, even in circumstances due to chain-line displacement,
and identifies various situations that Dr. Neptune contends where Thompson
would not have solved chain drop. Pet. Reply 3; Ex. 1050 ^ 10-12.
Petitioner argues that JP-Shimano would have helped prevent chain drop
caused by chain line displacement in situations when the chain approaches
the chairing from the rear gears at an angle. Ex. 1050

12-14; Ex. 1006,

15:73-75. Petitioner also asserts that JP-Shimano is not limited to solving
only chain drop caused by chain line displacement, but also solves chain
drop caused by worn or broken teeth. Pet. Reply 4. Petitioner now further
contends that a person of ordinary skill would have been motivated to
combine Thompson and JP-Shimano to improve durability, which in turn
would reduce chain drop. Id. at 4 (citing Ex. 1050

15, 16).

We find that Petitioner has shown a sufficient rationale to combine the
teachings of the references. Petitioner has offered evidence that Thompson
would have been improved by adding the wide-narrow teeth of JP-Shimano
in certain situations when the chain approaches the chairing from the rear
gears at an angle. Ex. 1050

12-14; Ex. 1006, 15:73-75. We find this

App. 39a

evidence persuasive and give it significant weight. We do note that we also
give some weight to Patent Owner’s evidence that Thompson and JPShimano do largely overlap in their solutions, and that the benefits of the
combination would be limited. Ex. 2074 ^ 45-50. We find that even
though Patent Owner’s arguments do not amount to a teaching away, they do
slightly weaken the factual basis of Petitioner’s combination. See Polaris
Indus., Inc. v. Arctic Cat, Inc., 882 F.3d 1056, 1069 (Fed. Cir. 2018) (“But
even if a reference is not found to teach away, its statements regarding
preferences are relevant to a finding regarding whether a skilled artisan
would be motivated to combine that reference with another reference.”).
As for Petitioner’s new contention that a person of ordinary skill
would have combined Thompson and JP-Shimano to improve the durability
of teeth in Thompson, we do not find this reason to be as persuasive or
entitled to as much weight as Petitioner’s evidence that JP-Shimano would
have improved Thompson in situations where the chain approached at an
angle discussed above. We decline to give much weight to the durability
theory, because we find that it is a new theory raised for the first time on
reply. Ex. 2129, 96:16-97:5 (Dr. Neptune admitting the theory was not in
his original testimony). A reply is not the place to raise an almost entirely
new motivation to combine. See 37 C.F.R. § 42.23(b).
Patent Owner’s second argument is that the combination of Thompson
and JP-Shimano would not have been obvious due to the additional
complexity and cost that each modification would require. PO Resp. 52
(citing Ex. 2074 ^ 53). Patent Owner submits that Thompson’s chainring,
by itself, has many drawbacks, and that combining Thompson with JPShimano would amplify those drawbacks, outweighing any material gain.

App. 40a

Id. at 52-53 (citing Ex. 2074 ^ 54, 55). Specifically, Patent Owner argues
that the machining required to make JP-Shimano’s thick and thin teeth
would have increased the costs of Thompson’s already expensive chainring.
Id. at 53. Second, Patent Owner argues that the additional material would
have added excessive weight to the chainring. Id. Petitioner argues that
combination need not have yielded the most preferred or desirable
combination to support a rationale to combine. Pet. Reply 5. In addition,
Petitioner offers testimony that the combination would have added only
minimal weight or complexity to Thompson’s chainring. Id. Moreover,
Petitioner argues that, if weight were a concern, there were many known
options to minimize the added weight. Id. at 6.
We are not persuaded that the added cost or weight of modifying
Thompson in view of JP-Shimano would have obviated the rationale to
modify Thompson in view of JP-Shimano. As the Federal Circuit has
explained, “just because better alternatives exist in the prior art does not
mean that an inferior combination is inapt for obviousness purposes.” In re
Mouttet, 686 F.3d 1322, 1334 (Fed. Cir. 2012). Moreover, Petitioner offered
credible evidence that there would be options to minimize the additional
weight. Ex. 1050 20. Having said that, we do assign some, but not
dispositive, countervailing weight to Patent Owner’s proffered
disadvantages of cost and weight. See Polaris, 882 F.3d at 1069.
Given Patent Owner’s evidence of limited benefit and the cost
problems identified above, we decrease the weight of Petitioner’s evidence
of a rationale to combine the teachings slightly. But overall, we find that
Petitioner has shown an adequate rationale to modify Thompson in view of
JP-Shimano.

App. 41a

E.

Objective Indicia of Non-Obviousness

Notwithstanding what the teachings of the prior art would have
suggested to one skilled in the art, objective evidence of non-obviousness
(so called “secondary considerations”) may lead to a conclusion that the
challenged claims would not have been obvious. In re Piasecki, 745 F.2d
1468, 1471-72 (Fed. Cir. 1984). Objective evidence of non-obviousness
“may often be the most probative and cogent evidence in the record” and
“may often establish that an invention appearing to have been obvious in
light of the prior art was not.” Transocean Offshore Deepwater Drilling,
Inc. v. MaerskDrilling USA, Inc., 699 F.3d 1340, 1349 (Fed. Cir. 2012).
Patent Owner puts forth evidence of commercial success, licensing, copying,
praise by others, long-felt, unresolved need, and failure by others. We agree
with Patent Owner that its proffered evidence, with respect to the objective
indicia of non-obviousness, weigh significantly in favor non-obviousness, as
explained below.
1.

Nexus

To be relevant, evidence of non-obviousness must be commensurate
in scope with the claimed invention. In re Kao, 639 F.3d 1057, 1068 (Fed.
Cir. 2011). Thus, to be accorded substantial weight, there must be a nexus
between the merits of the claimed invention and the evidence of secondary
considerations. In re GPACInc., 57 F.3d 1573, 1580 (Fed. Cir. 1995).
Nexus is a legally and factually sufficient connection between the objective
evidence and the claimed invention, such that the objective evidence should
be considered in determining non-obviousness. Demaco Corp. v. F. Von
LangsdorffLicensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988). There is a
“presumption of a nexus” when a product is “coextensive” with a patent

App. 42a

claim. Teva Pharms. USA, Inc. v. Sandoz, Inc., 723 F.3d 1363, 1372 (Fed.
Cir. 2013). The Federal Circuit has held that “if the marketed product
embodies the claimed features, and is coextensive with them, then a nexus is
presumed and the burden shifts to the party asserting obviousness to present
evidence to rebut the presumed nexus.” Brown & Williamson Tobacco
Corp. v. Philip Morris Inc., 229 F.3d 1120, 1130 (Fed. Cir. 2000).
Patent Owner presents evidence that each of the twelve families of XSync chainrings are covered by the challenged claims. See PO Resp. 18 n.4.
In particular, Patent Owner presents the testimony of its expert, supported by
detailed claim charts, and the testimony of Mr. Ritzier and Mr. Wesling,
that“each element of the challenged claims is practiced by each of these
twelve (12) different versions of X-Sync chainrings.” See Ex. 2074 f 63;
see also id.

64 (testimony of Dr. Sturges that all other sized chainrings in

each family of the tested versions practice all the challenged claims); Ex.
2078-2089 (claim charts for all the challenged claims); Ex. 2076
(explaining the families of products Patent Owner sells); Ex. 2073

11
10

(explaining the families of products Patent Owner sells). As such, Patent
Owner argues that it is entitled to a presumption of a nexus.
Petitioner does not dispute that the X-Sync chainrings are covered by
the challenged claims; rather, Petitioner disputes whether the X-Sync
chainring is coextensive with the claims. See Tr. 61:17-20 (“Your Honor,
we don’t dispute that it’s covered by the patent, we dispute whether it's
coextensive.”). Petitioner argues that Patent Owner failed to demonstrate
that the products are coextensive, because the X-Sync chainring includes
unclaimed features, and “the majority of [Patent Owner’s] X-Sync
chainrings are marketed and sold as mere components of cranksets and

App. 43a

drivetrain groupsets.” Pet. Reply 17-18. As an initial matter, Petitioner
argues that “[t]he X-Sync chainring is not coextensive with the claimed
invention because the X-Sync chainring includes ‘hundreds of features’ . . .
not claimed in the ’027 patent, many of which are instead claimed by other
SRAM patents.” Id. at 18. This argument misrepresents the law on two
points. First, Petitioner is incorrect that the existence of unclaimed features
in the commercial product prevents a Patent Owner from being able to claim
a presumption of a nexus. Instead, the law provides that a Patent Owner is
entitled to a presumption of a nexus if it shows that “the asserted objective
evidence is tied to a specific product and that product ‘is the invention
disclosed and claimed in the patent.’” WBIP, 829 F.3d at 1329. The Federal
Circuit has explained that “[tjhis is true even when the product has
additional unclaimed features.” PPC Broadband, Inc. v. Corning Optical
Commc’ns RF, LLC, 815 F.3d 734, 747 (Fed. Cir. 2016).
Unclaimed features do not prevent the presumption of a nexus, but
they may be the basis for rebutting the presumption. Id. To do so, a person
challenging patent validity must show that the commercial success, or other
objective evidence of non-obviousness, was due to “extraneous factors”
including “additional unclaimed features.” Polaris Indus., Inc. v. Arctic Cat,
Inc., 882 F.3d 1056, 1072 (Fed. Cir. 2018). Merely pointing out unclaimed
features in the X-Sync chainring is not enough. Id. (“However, a patent
challenger cannot successfully rebut the presumption with argument alone—
it must present evidence.”).
Second, Petitioner is incorrect that the existence of other patents
necessarily obviates the presumption of a nexus. In this regard, Petitioner
relies on a Therasense, Inc. v. Becton, Dickinson & Co., 593 F.3d 1289,

App.44a

1299 (Fed. Cir. 2010), for the proposition that “a product that embodies
more than one patent is not coextensive with any of them.” Pet. Reply 20.
Petitioner has only identified two patents, both in the same family of
continuations as the ’027 patent.4 Id. (identifying U.S. Patent Nos.
9,291,250 and 9,493,211, both of which are continuations of the ’027
patent). We do not agree that Therasense stands for so broad a proposition
that the existence of continuations in the same patent family obviates a
presumption of a nexus. Indeed, Therasense involves the far more
conventional situation that a nexus may not exist when the merits of the
claimed invention were “readily available in the prior art.” ClassCo, Inc. v.
Apple, Inc., 838 F.3d 1214, 1220 (Fed. Cir. 2016). In Therasense, the court
found that the product was covered by both the claims of a prior art patent
(U.S. Patent 4,545,382) and the asserted patent (U.S. Patent 5,820,551). See
Therasense, 593 F.3d at 1299. The patents related to the ’027 patent have
not been shown to be prior art to the ’027 patent, and so they do not fall into
this situation. We decline to extend the language in Therasense so far from
the conventional situation of prior art patents that it was contemplating, to
include patents that have not been shown to be prior art to the claimed
invention.
Having reviewed Patent Owner’s evidence, we agree with Patent
Owner that it has shown that it is entitled to a presumption of a nexus
between the evidence secondary considerations tied to the X-Sync chainring

4 Petitioner contends that there are “possibly” other patents that cover Patent
Owner’s commercial product (Pet. Reply 22), but does not identify them.
Petitioner’s allegations of other patents are too insubstantial to be entitled to
any weight.

App. 45a

and the invention recited in the challenged claims. In particular, we find that
Patent Owner has shown that the various X-Sync chainrings are covered by
the challenged claims and are coextensive with them. See Ex. 2074

63,

64 (testimony of Dr. Sturges that the products practice the claims);
Ex. 2078-2089 (claim charts); Ex. 2076 f 11 (explaining the families of
products Patent Owner sells); Ex. 2073 f 10 (explaining the families of
products Patent Owner sells). Here, the claims are directed to chainrings, as
well as cranksets and drivetrains that include chainrings. Thus, there is a
presumption of a nexus between the evidence of secondary considerations
tied to the X-Sync chainring, as well as to cranksets and drivetrains that
include the X-Sync chairing, and the challenged claims that recite those
bicycle components. See Polaris Indus., 882 F.3d at 1073 (“[The challenged
claims] broadly cover the entire vehicle, rather than ‘only a component of a
commercially successful machine.’ . . . Moreover, the Board did not point to
any limitation it found missing in the RZR vehicles. On these undisputed
facts, we hold that the Board erred in failing to find that Polaris’s eight RZR
vehicles are the inventions disclosed in [the claims].” (citation omitted)).
Petitioner tries to rebut this presumption of a nexus by attempting to
shift the burden of proof to Patent Owner to prove the objective indicia is
tied to certain claimed features rather than unclaimed features present in the
commercial embodiments. Pet. Reply 24-25. We agree with Patent Owner
that this argument improperly attempts to shift the burden to Patent Owner.
Sur-Reply 8-9. Here, because Patent Owner has shown that it is entitled to a
presumption of a nexus between the X-Sync chainring and the challenged
claims, the burden is on Petitioner to rebut that nexus. Demaco, 851 F.2d at
1392.

App. 46a

With respect to the improved chain retention of the X-Sync chainring,
Petitioner argues that there are numerous unclaimed features, many of which
are touted in advertising materials, but Petitioner asserts that none of the
claimed features are touted. Pet. Reply 31-32. Petitioner argues that “[i]n
light of the unclaimed features touted by [Patent Owner] and the press, and
in the absence of any touting/recognition for the claimed combination,”
Patent Owner cannot establish a nexus between the claimed invention and
the objective indicia. Id. at 32 (citing Ethicon Endo Surgery, Inc. v.
Covidien LP, 812 F.3d 1023, 1035 (Fed. Cir. 2016)). Although Petitioner
points to some evidence touting other features, see id. at 31 (citing
Exs. 1038, 1054, 1055), 40-41 (citing Exs. 2005, 2008, 2027), we find that
this evidence is insufficient to overcome the presumption of a nexus that
Patent Owner has established. Moreover, much of the evidence is clearly
broader than Petitioner acknowledges. In addition to pointing out unclaimed
features, there is also praise pointing generally to the “unique tooth profile,”
Ex. 2006, “tooth profile,” Ex. 2008, Patent Owner’s “adaptation of the
narrow-wide chainring tooth profile,” Ex. 2019, and the “cleverly profiled
chainring,” Ex. 2023.
We find that the evidence shows that, in addition to touting specific
features, the praise is also broadly directed to the X-Sync chainring’s entire
implementation of the narrow/wide tooth concept, including the claimed
features. Weighing the evidence together, we find that Petitioner has failed
to carry its burden of rebutting the presumption of a nexus. At best,
Petitioner has offered conjecture that these unclaimed features could play a
role in improved chain retention, but we find that this is insufficient to rebut
the presumption of a nexus. See Polaris, 882 F.3d at 1072 (explaining that

App. 47a

to rebut presumption of nexus the patent challenger must “present[ ]
evidence to show that the [objective evidence] was due to extraneous factors
other than the claimed invention”).5
Petitioner also argues Patent Owner sells X-Sync chainrings in at least
three different ways—(1) individual chainrings; (2) cranksets including the
X-Sync chainring along with two crank arms and an axel; and (3) nine
different IX6 drivetrain groupsets that include a number of components
including the X-Sync chainring. Pet. Reply 21-22. Petitioner asserts that
the majority of sales data provided by Patent Owner is for cranksets, not
individual chainrings. Id. at 22-24. Petitioner contends that Patent Owner
has not shown that the claimed chainring is coextensive with the
commercially sold cranksets and drivetrains, and, thus, concludes that there
is no presumption of a nexus. Id. at 24. We agree with Petitioner that, to the
extent that the sales of the X-Sync chainring were sales of cranksets and
drivetrains, they are not coextensive with some of the claims. However, as
Patent Owner correctly points out, these commercial products are
coextensive with claims 11 and 25, which recite a bicycle crankset including
a chainring, or claims 12 and 26, which recite a bicycle drivetrain including

5 This case is distinguishable from Ethicon Endo where the evidence
demonstrated that the success was “primarily attributable to a single feature
present in the prior art, varying staple size, rather than the combination of
prior art features.” 812 F.3d at 1034. We find that no such evidence
attributing the success or improved chain retention primarily to one or more
features found in the prior art is present here.
6 «
IX” is a term used to identify mountain bike drivetrains that use a single­
chainring. See Ex. 1046 8-14 (explaining mountain bike drivetrain
market). For example, 1X11 would be a drivetrain with a front single
chainring and a back 11 speed gear cassette. Id.

App. 48a

a chainring. Sur-Reply 7. Thus, while we agree with Petitioner that, to the
extent that Patent Owner presents sales information for cranksets or
drivetrain groupsets alone, that sales information is not coextensive with
claims 7-10 and 20-24, which are directed only to chainrings, the same is
not true for claims 11, 12, 25, and 26. Demaco, 851 F.2d at 1392 (“When
the thing that is commercially successful is not coextensive with the patented
invention—for example, if the patented invention is only a component of a
commercially successful machine or process—the patentee must show prima
facie a legally sufficient relationship between that which is patented and that
which is sold.”).
As we discuss below, the same conclusion applies to evidence that
only praises Patent Owner’s drivetrains, and does not focus on, or mention,
the benefits of the X-Sync chainring. That broader evidence would also not
have a nexus to claims 7-10 and 20-24. Demaco, 851 F.2d at 1392
However, as we stated above, Patent Owner’s expert has shown that
cranksets incorporating the X-Sync chainring include the features recited in
claims 11 and 25, and drivetrains incorporating an X-Sync chainring are
covered by claims 12 and 26. See, e.g., Ex. 2078, 3—4 (claims 11 and 12 for
SRAM’s 004.000 X-Sync chainring), 8-9 (claims 25 and 26 for same
chainring). Because those claims are coextensive with cranksets and
drivetrains, respectively, we find that those claims are still entitled to a
presumption of a nexus for evidence of secondary considerations tied to
cranksets and drivetrains that include the X-Sync chainring, respectively.
Finally, Petitioner argues that Patent Owner’s wide-range rear
cassettes are what drove the demand for and success of Patent Owner’s
drivetrains, not the X-Sync chainring. Pet. Reply 27-32. There is no

App. 49a

dispute that the improved gearing of Patent Owner’s rear cassette enabled
more riders to use single chainring drivetrains. Id. at 28-29 (citing Ex. 1046
8-13; Ex. 1045-A, 48:24-49:17; Ex. 1061, 2). Elowever, Patent Owner
has presented extensive testimony that, whatever the advantages of the rear
cassette, it was the development of the X-Sync chainring that made it
possible. Sur-Reply 10. As Mr. Ritzier explained at his deposition:
Q. ... To what do you attribute the success of X-SYNC
chainring sales?
A. I attribute the success of chainring sales directly to their ability
to hold the chain on without a chain guide or chain management
system. Before X-SYNC bicycles featured additional devices to
control chain management. They featured guides and guards and
rollers. All these things were complex. All of them added
elements of friction or lower performance, and when we
designed X-SYNC, we designed the guiding and guarding into
the chainring, which prevents the chain from falling off and
makes the one-by drivetrain possible. When you look at the
initial success of X-SYNC chainrings, we were blown away, we
were surprised, we were - I’d say critical of the potential
ourselves internally, and then we started to experience a
performance externally through test driving, through validation
with athletes, through the media feedback. We were amazed
with the potential that that product technology had to offer. Since
we released product it’s obviously appealed to a wide number of
both our customers as well as competitors as it's been copied
many, many times over.
* * *

Q. Do you attribute the success of the X-SYNC chainrings to the
sales of assets or rear derailleurs associated with those
chainrings?
A. I think that the success of the chainrings is largely independent
of the success of the cassettes and the other components. We sell
X-SYNC chainrings above and beyond or one-by drivetrains for
mountain. You see one-by drivetrains made by many consumers

App. 50a

at home featuring chainrings that copy our design. I think it all
comes down to the fact that the chainring offers up the
possibility, the real estate and the potential to make a one-by
drivetrain that does not lose its chain.
Ex. 1045-A, 103:3-104:21; see also Ex. 1045-A, 104:22-106:12 (providing
further explanation). We have reviewed Mr. Ritzier’s testimony and find it
well-reasoned, and supported by extensive evidence of praise that the XSync chainring has received. Thus, we give it substantial weight.
Petitioner’s evidence to the contrary is not persuasive. For example,
Petitioner cites Exhibit 1037 for its statement that the rear cassette is the
“heart” of Patent Owner’s XXI drivetrain system (which includes an XSync chainring). Pet. Reply 29. However, this same article specifically
mentions the X-Sync chainring and its “carefully engineered tooth profiles
on the chainring that ensure the chain will engage the sprocket and remain
secure at the wide input and output angles inherent to single-ring drivetrains
as the system is shifted across the cassette.” Ex. 1037, 1. Instead of
undermining Mr. Ritzier’s testimony, we find Petitioner’s article consistent
with Mr. Ritzier’s statement on the importance of the X-Sync chainring to
enabling the use of a IX drivetrain. The same is true of Exhibit 2009, which
is cited by Petitioner for its praise of the rear cassette, but also includes
extensive praise of the X-Sync chainring, and mentions that it reduces
friction in the system, which is consistent with Mr. Ritzier’s testimony.
Ex. 2009, 2. Exhibit 2015, which is also cited by Petitioner for this point,
praises the X-Sync chainring, and notes that one of the challenges of moving
to a single ring setup is that you “[l]ose that front derailleur and you start
losing the chain more often,” and that this is why “just about everyone who
runs a single ring also runs some sort of guide.” Ex. 2015, 3. Exhibit 2015

App.51a

concludes by noting that Patent Owner was also introducing “a special
chainring that retains chains all by its lonesome” with “some oddly-shaped
teeth on that chainring,” and that “being able to run a single-ring setup
without the added friction and weight of a chain guide ... it’d be a
significant improvement.” Id. Thus, again, we find this evidence consistent
with and corroborative of Mr. Ritzier’s testimony. Moreover, given the
corroboration of Mr. Ritzier’s testimony and his detailed explanation, we
give it more weight than the testimony of Petitioner’s witness, Mr. Marriott,
to the contrary.
Petitioner attempts to rebut Mr. Ritzier’s testimony by contending that
Patent Owner’s “Type 2 rear derailleur with Roller Bearing Clutch
technology (known as ‘X-Horizon’ and included in the XXI groupset)
already minimized chain disengagement.” Pet. Reply 28 (citing Ex. 1044,
75:12-77:9). However, the fact that the rear derailleur might help the
system perform better does not outweigh the extensive evidence that the XSync chainring is an essential part of chain retention in Patent Owner’s IX
drivetrain systems. Indeed, the evidence suggests that clutch derailleurs and
larger cassettes had existed for many years, Ex. 1044, 76:6-17, Ex. 1045-A,
104:22-106:12, but, as Petitioner’s evidence notes, IX drivetrain systems
were not readily available before Patent Owner’s introduction of the XXI
drivetrain incorporating the X-Sync chainring, Ex. 1037, 1 (“In fact, the
question most riders will ask after riding [Patent Owner’s] XXI [drivetrain]
will be, ‘Why has it taken so long for the industry to figure this out?”’). The
importance of the X-Sync chainring is also not inconsistent with Patent
Owner’s efforts to market and sell the chainring as part of a drivetrain
system, which merely may suggest an effort to maximize profits. Indeed, it

App.52a

may be rational given Patent Owner’s presented evidence that competitors
were not copying its derailleur, but instead they are copying its chainring.
See Ex. 1045-A, 114:7-115:15; Ex. 2074

75-79; Ex. 2076 Ifif 40^19;

Ex. 2077.
Petitioner also argues that the X-Sync chainring did not entirely
eliminate the need for a chainguide, as evidenced by Patent Owner’s own
statements and advertisements in Exhibit 2007 and Exhibit 1062. Pet.
Reply 29-30. But the ’027 patent only seeks to provide a bicycle that “can
successfully and reliably be ridden over rough and challenging terrain,”
Ex. 1001, 1:28-31, not to eliminate chain drop for all riders under all
circumstances. Petitioner’s evidence is not inconsistent with this objective
and solution. Exhibit 2007 merely leaves it to the rider to determine whether
they are comfortable without a chainguide. Ex. 2007, 2. Exhibit 1062 is a
profile of a professional mountain bike racer whose bike is pictured with a
chainguide. Ex. 1062, 1. Exhibit 1062 provides no explanation about the
chain guide. See id. This evidence is entirely consistent with other evidence
that aggressive riders may still require additional chain management, even
with the X-Sync chainring. Ex. 2019, 3; Ex. 1045-A, 117:2-11.
Thus, considering the evidence in the record as a whole, we find that
Petitioner has not rebutted Patent Owner’s presumption of a nexus with
respect to evidence of secondary considerations tied to the X-Sync chainring
for all of the challenged claims, and to evidence of secondary considerations
tied to a crankset or drivetrain groupset including for the X-Sync chainring
for claims 11, 12, 25, and 26.

App. 53a

2.

Commercial Success

Patent Owner has presented extensive evidence that its X-Sync
chainrings have achieved significant sales volumes, have achieved large
sales growth, have grown to a majority of their chainring sales, and have
allowed them to grow from a small share to a significant share of the single
chainring market. POResp. 17-25.
Petitioner argues that Patent Owner’s data fails to show commercial
success, because it only shows that the X-Sync chainring sales
“cannibalized” its other multi-chainring sales. Pet. Reply 32. Petitioner
asserts that Patent Owner’s sales of X-Sync chainrings have not increased its
market share of the mountain bike chainring market, but instead its market
share has been falling since 2013. Id. at 34. Petitioner contends that “[i]n
the absence of growth in [Patent Owner]’s mountain bike chainring market
since the introduction of the X-Sync, [Patent Owner]’s purported evidence
of commercial success does not require a holding that the claimed invention
is nonobvious.” Id.
We have reviewed Patent Owner’s evidence of sales and market
share, and find that it demonstrates substantial commercial success within
the single chainring market. Ex. 2076 ^[ 16-29. In particular, we find the
large growth in market share and sales volume, and resulting large market
share in the single chainring market, to be indicative of commercial success.
Id. ^ 20-29. We find this evidence compelling and entitled to substantial
weight. We do not agree with Petitioner’s argument that Patent Owner’s
growth in the single-chainring market was primarily due to cannibalization
of its multi-chainring market share, and that Patent Owner’s lack of achieved
growth in the overall chainring market (single- and multi-) indicates that

App. 54a

there was no commercial success. As Patent Owner notes, cannibalization
does not preclude commercial success. See Medtronic, Inc. v. Daig Corp.,
789 F.2d 903, 907 (Fed. Cir. 1986). Moreover, Patent Owner presented
evidence that it has achieved this large market share, in the single-chainring
market, while charging between two and eight times the prices of its
competitors in the single chainring market. Ex. 2076

13 (stating that

Patent Owner’s X-Sync chainrings are sold for more than $90, which is at
least twice as expensive as the Race Face chainrings, and in some cases
eight times more expensive). Patent Owner also noted that this large market
share does not include the sales of its competitors who are licensees. Id.
1fl[ 26-29; see also Tr. 16:12-15 (agreeing that Patent Owner’s drivetrain as
a whole was a commercial success). Thus, we find that Patent Owner has
presented substantial evidence of commercial success.
As we noted above, Petitioner points to evidence that the sales
information presented is primarily directed to sales of X-Sync chainrings as
parts of cranksets and drivetrain groupsets. See Pet. Reply 21-24. We
found above that, for data related to cranksets and groupsets, Patent Owner
has only established a nexus for claims 11, 12, 25, and 26. Thus, we find
that a strong demonstration of a nexus that exists between claims 11, 12, 25,
and 26 and this commercial success information. Accordingly, we find that
commercial success weighs significantly in favor of non-obviousness of
claims 11, 12, 25, and 26.
3.

Industry Praise and Skepticism
a.

Industry Praise

Praise from industry participants, especially competitors, is probative
as to obviousness because such participants “are not likely to praise an

App. 55a

obvious advance over the known art. Thus, if there is evidence of industry
praise of the claimed invention in the record, it weighs in favor of the non­
obviousness of the claimed invention.” Apple Inc. v. Samsung Elecs. Co.,
839 F.3d 1034, 1053 (Fed. Cir. 2016) (en banc).
Patent Owner presents extensive evidence of industry praise and
awards that its X-Sync chainring products have received. PO Resp. 26-37;
Sur-Reply 5-6; Exs. 2076

52-67; 2074

67, 68; 2006, 2-3 (praising

teeth design as “mechanical duct tape”); 2007, 4 (noting lack of chain drop
and suggesting that bike can be trail ridden without a chain guide); 2008, 2
(noting lack of chain retention issues, discussing tooth shape); 2009, 2
(praising chainring); 2010, 1 (noting lack of chain drop); 2011, 1 (praising
chainring); 2012, 2 (praising teeth design), 4 (noting chain retention); 2013,
2 (noting chain retention of X-Sync chainring); 2014, 5 (praising X-Sync
chainring as “unique” and noting it removes the need for a chain guide);
2015, 3 (praising X-Sync chainring for potentially removing the need for a
chain guide); 2016, 1 (noting X-Sync narrow and wide teeth the “was in part
the catalyst” for the change to IX transmissions); 2017, 4 (praising X-Sync
chainring and noting “complicated design” of narrow-wide teeth); 2019, 3-4
(“Innovation of the Year Award” for “SRAM X-Sync Narrow-Wide
Chainring”); 2023 (noting no need for a chain guide).
Petitioner argues that none of the articles cited mentions the “offset”
feature or the combination of the narrow wide teeth and offset features. Pet.
Reply 40. Instead, Petitioner argues that the praise is focused either on the
IX mountain bike drive train alone, or even when it mentions the X-Sync
chainring, it does so only in the context of the entire drive train. Id.
Petitioner also argues that the articles praise unclaimed features such as the

App. 56a

“tall,

5? U

hooked,” and “asymmetric” teeth. Id. at 41. Finally, Petitioner

asserts that some of the articles only praise the narrow/wide teeth, which are
found in the prior art. Id.
We disagree with Petitioner that Patent Owner has failed to establish a
nexus between the praise and the claimed inventions. Instead, as we
discussed in detail above, we find that Patent Owner has established a strong
presumption of a nexus between the claims and the evidence of secondary
considerations tied to the. X-Sync chainring. See supra II.E.l. As we
discussed above, Patent Owner has shown that the X-Sync chainring
embodies the claimed invention and is coextensive with it. Therefore, Patent
Owner is entitled to a presumption of a nexus between the challenged claims
and the X-Sync chainring. To the extent that the articles praise the entire
drivetrain, we found above, in our discussion of commercial success, that
claims 12 and 26 recite a drivetrain and are, thus, coextensive with the
drivetrain and entitled to a presumption of a nexus regardless. Furthermore,
as we explained above, Patent Owner has established that the X-Sync
chainring technology is an essential part of what enabled it to develop the
entire drivetrain, which outweighs the evidence that Petitioner presents to
rebut the nexus, namely, that the evidence of objective indicia of non­
obviousness is tied to the rear cassette.
In any event, we find that Patent Owner has presented ample evidence
of praise that is tied directly to the X-Sync chainring. See Exs. 2006, 2-3
(praising teeth design as “mechanical duct tape”); 2007, 4 (noting lack of
chain drop and suggesting that bike can be trail ridden without a chain
guide); 2008, 2 (noting lack of chain retention issues, discussing tooth
shape); 2009, 2 (praising chainring); 2010, 1 (noting lack of chain drop);

App. 57a

“adaptation of the narrow-wide chainring tooth profile,” as embodied in the
X-Sync, that was “the missing piece in the single-chainring drivetrain
puzzle.” Ex. 2019, 3. Thus, even this article indicates that it is not merely
the narrow-wide profile, but Patent Owner’s implementation of it in the XSync chainring—which we have found embodies and is coextensive with the
claims—that resulted in the innovation. Id. Thus, we are not persuaded by
Petitioner’s arguments that there is no nexus between the praise and the
challenged claims. We find this evidence suggestive of non-obviousness
and entitled to significant weight in our analysis.
b.

Skepticism

Evidence of industry skepticism weighs in favor of non-obviousness.
See United States v. Adams, 383 U.S. 39, 52 (1966). “If industry
participants or skilled artisans are skeptical about whether or how a problem
could be solved or the workability of the claimed solution, it favors non­
obviousness.” WBIP, LLC v. Kohler Co., 829 F.3d 1317, 1335 (Fed. Cir.
2016).
Patent Owner presents evidence of skepticism from various magazine
articles reviewing the X-Sync chainring. PO Resp. 25-32. Petitioner’s
argument against this evidence is the same considered with respect to
industry praise—i.e., that there is no nexus. Pet. Reply 40-41. As we
explained above, Patent Owner is entitled to a presumption of a nexus
between the evidence of secondary considerations tied to the X-Sync
chainring and the claims, and Petitioner has failed to rebut that presumption.
We have reviewed the evidence of skepticism presented by Patent Owner,
and find that Patent Owner has made a significant showing of skepticism
within the industry towards the effectiveness of the X-Sync chainring

App. 59a

regarding chain retention. Exs. 2008, 2011, 2012, 2014, 2015. For instance,
one article noted that “[m]ore than a few editors on site were concerned
about the lack of a chain guide on our test bikes” and that “one editor
insisted that SRAM had embedded high-power magnets into the CNCmachined aluminum chainring (alas, there were none).” Ex. 2008. As
summarized on pages 27 to 31 of the Patent Owner Response, this was not
the only statement of skepticism by industry participants. See PO Resp. 2731. We find this substantial amount of evidence suggestive of non­
obviousness and entitled to significant weight in our analysis. See WBIP,
829F.3dat 1335.
4.

Long-Felt Need

“Evidence of a long felt but unsolved need that is met by the claimed
invention is further evidence of non-obviousness.” Millennium Pharms.,
Inc. v. Sandozlnc,, 862 F.3d 1356, 1369 (Fed. Cir. 2017). “Evidence of
long-felt need is particularly probative of obviousness when it demonstrates
both that a demand existed for the patented invention, and that others tried
but failed to satisfy that demand.” Id.
Patent Owner argues that the problem of maintaining a chain on a
chainring has existed for more than 100 years. PO Resp. 43 (citing
Exs. 2048-2062; Ex. 2074 fflj 15, 80, 81). Patent Owner contends that prior
art attempts.to solve the problem failed to address several issues. Id.
Patent Owner argues that prior art solutions had issues with increasing one
or all of complexity, weight, and drivetrain friction. Id. Patent Owner
asserts that “[t]hese prior art devices have existed for more than 100 years,
but have failed to improve chain retention without the known problems of
increased complexity, weight, and/or drivetrain friction.” Id. at 44. Patent

App. 60a

Ex. 2076 f 50; Ex. 2073 ^ 12. Indeed, Petitioner’s expert, Dr. Neptune,
conceded that there was a long-felt need for “a multi-geared bicycle that
could be reliably ridden over rough terrain without the aid of a chain
retention device external to the chainring.” Ex. 2129, 78:12-17. Although
Petitioner’s witness, Mr. Marriott, testified that there was no long-felt need
regarding chain drop, because chain guides kept the chain on the chainring,
Ex. 1075, 69:24-70:3, he did not address the narrower problem that Patent
Owner articulated, and Dr. Neptune admitted. As for Petitioner’s other
contention—based on other testimony by Mr. Marriott (see Ex. 1046

16)—

that there was no market for IX chainrings, and hence no long-felt need, we
find this belied by Dr. Neptune’s concession, and Mr. Ritzier’s testimony,
that it was not that such systems were not wanted, but that they were not
feasible, in part, due to the problems of increased complexity, weight, and/or
drivetrain friction that were discussed above. See Ex. 1045-A, 103:2104:21. As we discussed above, we find Mr. Ritzler’s testimony persuasive
and give it substantial weight. Thus, we do not find Mr. Marriott’s
testimony persuasive about long-felt need.
We also find that Patent Owner has demonstrated that the X-Sync
chainring met this long-felt need. In particular, Dr. Sturges testified that the
X-Sync chainring met this need. Ex. 2074

80-86. We find this testimony

reasoned and persuasive, and give it substantial weight. Moreover, this
testimony is supported by and consistent with the effusive praise and awards
discussed above with regard to industry praise that further supports this
finding. See, e.g., Exs. 2006, 2008, 2015, 2019. Moreover, the mere fact
that there may be certain conditions when chainguards are still used, see,
e.g., Ex. 1075, 80:23-81:10, does not mean that the X-Sync chainring did

App. 62a

re Cree, Inc., 818 F.3d 694, 703 (Fed. Cir. 2016) (quoting In re Antor Media
Corp., 689 F.3d 1282, 1294 (Fed. Cir. 2012)).
Patent Owner argues that it offers “an open license program where
any competitor may license the X-Sync technology for a reasonable
royalty.” PO Resp. 38. Patent Owner asserts that “[w]ith this program,
[Patent Owner] has already licensed the ’027 patent, as well as the X-Sync
technology to at least eight different companies, some of whom are major
market players.” Id. Specifically, Patent Owner contends that it has entered
into a number of licenses with major bicycle manufacturers and bicycle
component providers. Id. at 38-39 (citing Exs. 2091-2106; Ex. 2076 H 3237; Ex. 2074

72-74).

Petitioner responds that five of the eight licenses (Exs. 2092-2100)
provided by Patent Owner do not refer to the ’027 patent. Pet. Reply 33.
Instead, Petitioner notes that “they are licenses to [Patent Owner’s] German
Utility Model (DE 20 2012 012 533 Ul, “Kettenring”) and corresponding
patents/patent applications with claims differing from those of the ’027
[patent] claims.” Id. Petitioner argues that “the German claims do not recite
the ‘offset’ feature, which is one of the alleged ‘principal features’ of the
’027 patent.” Id. Petitioner argues that because these licenses are not to the
’027 patent and “do not cover the invention claimed in the ’027 patent,
[Patent Owner] does not (and cannot) show nexus between these licenses
and the claimed invention.” Id. Petitioner also asserts that two other
licenses (Exs. 2102 and 2104) “prove nothing about the value of the ’027
[patent] claims” because they cover numerous other continuations and
international patents/applications. Id. at 34. Finally, Petitioner notes that the

App. 64a

final license (Ex. 2106) is irrelevant because it was entered into to settle a
lawsuit. Id.
We determine that these licenses are entitled to some weight in our
obviousness analysis. However, we agree, in part, with Petitioner that some
of the licenses have limited probative value. For instance, we agree with
Petitioner that the license with Wolf Tooth (Ex. 2106) is entitled to less
weight because it was entered into to settle a lawsuit. There is no evidence
suggesting that it was the merit of the ’027 patent, as opposed to the desire
to save litigation costs, that drove the license. See EWP Corp. v. Reliance
Universal Inc., 755 F.2d 898, 907-08 (Fed. Cir. 1985) (explaining that it is
often “cheaper to take licenses than to defend infringement suits, or for other
reasons unrelated to the unobviousness of the licensed subject matter.”). As
for the remaining licenses, while we agree with Petitioner that the fact that
the licenses cover a number of patents affects the weight they should
receive, we do not agree that the fact that the licenses cover more than just
the ’027 patent means that they are entitled to no weight. In particular, we
note that the licenses with both Saris Cycling Group (Ex. 2102) and White
Industries (Ex. 2104) both explicitly mention the ’027 patent, and were not
entered into to settle litigation. Ex. 2076 Tf 37. Thus, we find that they are
entitled to some weight.
Finally, as for the remaining licenses—Chromag Bikes (Ex. 2092),
Accell Group N.V. (a.k.a Winora-Staiger) (Ex. 2094), KCNC International
(Ex. 2096), Quality Bicycle Products, Inc. (Ex. 2098), Cannondale Bicycle
(Ex. 2100), Petitioner is correct that they do not list the ’027 patent, but
cover “the invention(s) described in German Utility Model DE 2012 012 533

App.65a

Ul - ‘Kettenring’7 and any patent applications corresponding to the abovedescribed Utility Model that are issued, filed, or to be filed in any and all
foreign countries and the know-how associated with the inventions defined
by the patent.” See, e.g., Ex. 2092, 1. Patent Owner has offered evidence
that the disclosure of “Kettenring” is commensurate in scope with the ’027
patent. Ex. 2074 If 73. Moreover, there is no dispute that the ’027 patent is
an application “corresponding to [Kettenring]” and is within the scope of
these licenses. Id.\ Ex. 2076 U 11; Ex. 2073 If 10. Petitioner is correct that
these licenses, which cover a number of applications and patents throughout
the world, and entered into before the ’027 patent issued, have limited
probative value into the non-obviousness of the claims of the ’027 patent.
We disagree, however, with Petitioner that these licenses have no probative
value. We find that these licenses do have some value in showing that the
inventions covered by ’027 patent have had some acceptance in the industry,
and thus, these licenses are entitled some weight.
In sum, we conclude that Patent Owner’s evidence of licensing is
entitled to some, but not significant, weight.
6.

Copying

“Copying may indeed be another form of flattering praise for
inventive features.” Crocs, Inc. v. Int’l Trade Comm ’n, 598 F.3d 1294, 1311
(Fed. Cir. 2010). Copying “requires evidence of efforts to replicate a
specific product.” Wyers v. Master Lock Co., 616 F.3d 1231, 1246 (Fed.
Cir. 2010). “This may be demonstrated either through internal documents;
direct evidence such as disassembling a patented prototype, photographing

7 As Patent Owner explains, “Kettenring” is the German word for chainring.
Ex. 2076 H 36.

App.66a

its features, and using the photograph as a blueprint to build a virtually
identical replica; or access to, and substantial similarity to, the patented
product (as opposed to the patent).” Iron Grip Barbell Co. v. USA Sports,
Inc., 392 F.3d 1317, 1325 (Fed. Cir. 2004) (internal citations omitted). “We
note, however, that a showing of copying is only equivocal evidence of non­
obviousness in the absence of more compelling objective indicia of other
secondary considerations.” Ecolochem, Inc. v. S. Cal. Edison Co., 227 F.3d
1361, 1380 (Fed. Cir. 2000); see also In re GPACInc., 57 F.3d 1573, 1580
(Fed. Cir. 1995) (“[M]ore than the mere fact of copying by an accused
infringer is needed to make that action significant to a determination of the
obviousness issue.” (quoting Cable Elec. Prods, v. Genmark, Inc., 770 F.2d
1015, 1028 (Fed. Cir. 1985))).
Patent Owner argues that it is “aware of at least seventeen (.17)
different companies who have copied its patented technology, copying the
features of the Challenged Claims.” PO Resp. 40 (citing Ex. 2076 ^ 40, 41,
46; Ex. 2074 Tf 75-77; Exs. 2031-2047). Patent Owner submits that the
“Race Face chainrings incorporate the patented features of the ’027 [patent]
claims and further details of the X-Sync chainrings, and Race Face had
sufficient access to the X-Sync chainrings.” Id. (citing Ex. 2076

47, 48).

Petitioner responds that “Race Face’s chainring differs substantially
from [Patent Owner’s] X-Sync chainring (the original X-Sync and X-Sync
Eagle).” Pet. Reply 34. Petitioner offers photographs purporting to show
that Race Face’s chainring does not include the “protruding tip portion,” the
“hooked rear flank,” or the “asymmetric teeth” of Patent Owner’s chainring.
Id. at 35-36. Petitioner also argues that “Race Face did not copy the
claimed ‘offset’ feature ..., and thus there was no copying of the claimed

App. 67a

combination.” Id. at 37. Petitioner also asserts that Patent Owner “failed to
show replication of its X-Sync chainring by other competitors.” Id. at 3839.
Patent Owner has put forward some evidence of copying. Patent
Owner bases its allegations of copying on allegations of access to, and
substantial similarity to, the patented product (as opposed to the patent). See
PO Resp. 37. Patent Owner has put forward unrebutted evidence of access,
which Petitioner does not appear to dispute. Ex. 2076 Tflj 47—49. Petitioner
does dispute, however, the “substantial similarity” of the Race Face
chainring and Patent Owner’s X-Sync chainring. Pet. Reply 35-37. With
respect to “substantial similarity,” Patent Owner has provided testimony
from Dr. Sturges that the Race Face Narrow Wide chainring infringes the
challenged claims of the ’027 patent, and an identification of various
features common to the products. Ex. 2074 ^ 77. Patent Owner also offers
the testimony of Mr. Ritzier that there are similarities between Patent
Owner’s and Race Face’s products. Ex. 2076 ^ 39-49. The only evidence
Petitioner offers in response are some photographs of two of Patent Owner’s
chainrings and a Race Face chainring, and the testimony of Mr. Marriott that
he “thinks” Race Face did not copy. Exs. 1036, 1070, 1073; Ex. 1075, 47:816. The photographs purport to illustrate features that are different between
the various products, but Petitioner provides no testimony to support a
finding that these differences are significant. Moreover, although it is
apparent from the photographs and the labels that there are some differences
between the products, the photographs that Petitioner offers are of low
quality and it is difficult to ascertain the significance of those differences.
As for Mr. Marriott’s testimony, the testimony of what he “thinks” is merely

App. 68a

speculation, and while he asserts that there are “dozens” of differences, he
fails to identify any of them with specificity. Ex. 1075, 47:8-16. Asa
result, we give Petitioner’s evidence little to no weight. In comparison,
although Dr. Sturges’s testimony does not go into great detail, we find it
sufficient to establish that some copying by Race Face has taken place.
As for Petitioner’s argument that the Race Face products lack the
claimed “offset,” Pet. Reply 37-38, Petitioner’s evidence supporting this
contention is photographs of Patent Owner’s and Race Face’s products, with
labels added to them purporting to show the lack of the claimed offset, in
that there is an alleged admission by Mr. Ritzier that an “offset” is the spatial
difference between the inboard/outboard side of the wide teeth and the
inboard/outboard edge of the chainring. Id. at 37 n. 5 (citing Ex. 1045-A,
129:17-132:9). However, we reviewed Mr. Ritzler’s testimony and find that
the cited testimony of Mr. Ritzier does not support Petitioner’s contention
that what they have labeled on page 38 of the Reply is necessarily what is
claimed. Mr. Ritzier identifies that as an “offset,” but does not admit that is
what the claim means. Ex. 1045-A, 129:17-132:9. In contrast, Patent
Owner has provided the testimony of Dr. Sturges that the Race Face
chainrings do include the claimed offset. We find this testimony persuasive.
Ex. 2074

75-77. Thus, Petitioner has not shown that the Race Face

products lack the claimed offset.
As for the other competitors that Patent Owner contends copied its
product, we find this evidence entitled to some weight. Petitioner argues
that there is no nexus between this copying and the claimed invention,
because Patent Owner position “[o]n the whole” is that any chainring with
narrow and wide teeth is a copy, but that feature is found in JP-Shimano.

App. 69a

Pet. Reply 38. However, Petitioner provides no evidence to support this
contention. Dr. Sturges testified that the Race Face chainring is
representative of these other products, and has identified a number of
features that he opines are copied from the SRAM X-Sync product, in
addition to the narrow/wide teeth. Ex. 2074

76, 77. Petitioner offers no

evidence to rebut this testimony. Thus, we do not find Petitioner’s
contention that the other products merely copy the features found in JPShimano to be persuasive. As we noted above, the evidence that Patent
Owner offers is not very detailed, so we find that Patent Owner’s evidence
of the 17 other copying products to be entitled to some weight, but not
significant weight.
In sum, we determine that Patent Owner has shown some copying of
its X-Sync chainring product, which is covered by the ’027 patent. We find
this evidence of copying overall is entitled to some weight in our analysis.
F.

Remaining Claims

Petitioner asserts that claims 9, 10, 23, and 24 would have been
obvious over the combination of Thompson, JP-Shimano, and Hattan.
Pet. 45-57. Claims 9 and 10 depend from claim 7 and claims 23, and 24
depend from claim 20. Ex. 1001, 8:51-60, 10:4-22. Petitioner does not rely
on Hattan for any of the elements in claims 7 or 20, and instead relies on its
analysis of the ground of Thompson and JP-Shimano for those elements.
Because we find below that Petitioner has failed to prove that claims 7 and
20 would have been obvious, and Petitioner relies on same reasoning to
account for those claim limitations in its contentions regarding claims 9, 10,
23, and 24, there is no need to reach Patent Owner’s separate arguments, and
we do not address them in this Decision.

App. 70a

G.

Final Conclusion of Obviousness

As we explained above, we find that Petitioner has shown there would
have been a rationale to combine the references. See supra at II.D.2. But
we also find that Patent Owner has made an extremely strong overall
showing of objective indicia of non-obviousness, which includes very strong
showings on industry praise, skepticism, and long felt need, a strong
showing on commercial success for claims 11, 12, 25, and 26, and weak
showings on licensing and copying. “The objective indicia of non­
obviousness play an important role as a guard against the statutorily
proscribed hindsight reasoning in the obviousness analysis.” WBIP, 829
F.3d at 1328. Indeed, the Federal Circuit has held that such evidence “may
often be the most probative and cogent evidence in the record.” Id. (quoting
Stratoflex, Inc. v. Aeroquip Corp., 713 F.2d 1530, 1538 (Fed. Cir. 1983)).
We find this to be such a case where the objective evidence is the most
probative evidence in the record. Petitioner’s rationale to combine rests
mainly on the testimony of its expert, but the copious objective evidence
demonstrates the significance and importance of Patent Owner’s invention.
Weighing all four Graham factors, we find that Petitioner has not shown by
a preponderance of the evidence that claims 7, 8, 11, 12, 20-22, 25, and 26
would have been obvious over the combination of Thompson and JPShimano and claims 9, 10, 23, and 24 would have been obvious over the
combination of Thompson, JP-Shimano, and Hattan.
We note that this is not a case as in Intercontinental Great Brands
LLC v. Kellogg North America Co., 869 F.3d 1336, 1342-47 (Fed. Cir.
2017), where the strong case of obviousness outweighs the objective indicia

App.71a

of non-obviousness. On the contrary, we find that the case of obviousness
here is easily outweighed by the objective evidence of non-obviousness.
III. MOTIONS TO EXCLUDE
A.

Petitioner’s Motion to Exclude

Petitioner moves to exclude SRAM Exhibit 2002 ^ 50-54, 58-63, 66
(11. 1-2), 67, and 68; Exhibit 2074

61, 65-72, 74-79, 80 (11. 1-2), 83

(11. 7-9), 84 and 85; Exhibit 2004 If 17; Exhibit 2076 fflf 8, 19-29, 41-50;
Exhibits 2005-2047; Exhibit 2073, f 12; and Exhibits 2109 and 2110. Pet.
Mot. Exclude 1.
1.
a.

Testimony ofDr. Sturges

Commercial Success, Long-Felt Need,
Failure of Others, & Licensing

Petitioner seeks to exclude Paragraphs 50-52, 59, 60, 64, 67, and 68
of the First Sturges Declaration and Paragraphs 61, 65, 66, 72, 74, 80, and
83-85 of the Second Sturges Declaration under Federal Rules of Evidence
403, 602, and 702, and 37 C.F.R. § 42.65(a). Pet. Mot. Exclude 2-4; Pet.
Mot. Reply 1-2. Petitioner argues that Dr. Sturges has no experience in the
relevant market, and is not qualified to give expert opinions regarding
commercial success, long-felt need, failure by others, and licensing. Pet.
Mot. Exclude 2. Petitioner further asserts that Dr. Sturges lacks the requisite
personal knowledge to give such testimony. Id. at 3.
With respect to Paragraphs 50-52, 59, and 60 of the First Sturges
Declaration and Paragraphs 61, 65, 66, 72, and 74 of the Second Sturges
Declaration, we did not rely on this testimony in reaching our decision. So,
we dismiss this portion of the motion as moot.

App. 72a

As for Paragraphs 64, 67, and 68 of the First Sturges Declaration and
Paragraphs 80 and 83-85 of the Second Sturges Declaration, we agree with
Patent Owner that this testimony is admissible. To begin with, we note that
the portion of 37 C.F.R. § 42.65(a) relied on by Petitioner deals only with
the weight that can be given evidence, not its admissibility. Thus, it is not a
proper basis for a motion to exclude. As for the objections based on the
Federal Rules of Evidence, we do not see how, nor has Petitioner met its
burden of demonstrating, that even if Federal Rule of Evidence 403 applies
to a non-jury trial like these proceedings, Petitioner is prejudiced by this
testimony. Thus, Petitioner’s Rule 403 objection is without merit. As for
the Rule 702 objection, we determine that Dr. Sturges has sufficient
expertise and has provided sufficient analysis to offer opinions regarding
long-felt need. See Ex. 2074

80, 83-85. Long-felt need is viewed from

the perspective of a person of ordinary skill in the art. In re Gershon, 372
F.2d 535, 538 (CCPA 1967). In this case, we did not find that the level of
ordinary skill in the art required special knowledge of marketing in the
bicycle industry, as Petitioner suggests. See supra Section II.B. Dr. Sturges
testified he has reviewed the art and cited to the evidence he relied upon,
including a number of references involving the problem of chain drop. See
Ex. 2074

80, 83-85. As for Rule 602, it is well-established that “an

expert’s opinion need not be based on personal knowledge.” Daubert v.
MerrellDow Pharm., Inc., 509 U.S. 579, 592 (1993). As we explained,
Dr. Sturges testified about the references he reviewed, and explains why he
concludes that there a person of ordinary skill in the art would have
understood that there was a long-felt need in the art at the time of the
invention. Thus, we deny Petitioner’s Motion to Exclude Paragraphs 64, 67,

App. 73a

and 68 of the First Sturges Declaration and Paragraphs 80 and 83-85 of the
Second Sturges Declaration.
b.

Copying

Petitioner seeks to exclude Paragraphs 61-63 of the First Sturges
Declaration and Paragraphs 75-79 of the Second Sturges Declaration under
Federal Rules of Evidence 403 and 702, and 37 C.F.R. § 42.65(a). Pet. Mot.
Exclude 4-5; Pet. Mot. Reply 3-4. Petitioner contends that Dr. Sturges fails
to perform a “product-to-product comparison required to demonstrate the
alleged copying” and focuses on the similarities and ignores “the many
differences between the two products.” Pet. Mot. Exclude 4-5. Petitioner
further argues that Dr. Sturges’s testimony is conclusory, that Dr. Sturges
provides no factual support for his opinion, and offers no explanation of why
or how the particular chainring he relied on is representative. Pet. Mot.
Reply 3-4. Patent Owner responds that Dr. Sturges explained the evidence
he relied upon, and properly relied on the Race Face chainring as
representative of the “copycat chainrings.” PO Opp. 7.
We agree with Patent Owner that Dr. Sturges’s testimony is
admissible. To begin with, as we noted above, the portion of 37 C.F.R.
§ 42.65(a) relied on by Petitioner deals only with the weight that can be
given evidence, not its admissibility. Thus, it is not a proper basis for a
motion to exclude. As for the objections based on the Federal Rules of
Evidence, we do not see how, nor has Petitioner met its burden of
demonstrating, that even if Federal Rule of Evidence 403 applies to a non­
jury trial like these proceedings, how Petitioner is prejudiced by admitting
this testimony. Thus, Petitioner’s Rule 403 objection is without merit. As
for the Rule 702 objection, we determine that Dr. Sturges provides sufficient

App.74a

analysis to support his opinions regarding copying. See Ex. 2074

75-79.

Dr. Sturges cited to the evidence he relied upon, including Patent Owner’s
infringement contentions from the underlying district court litigation and
Mr. Ritzier’s testimony. Petitioner’s arguments go more to the weight that
Dr. Sturges’s testimony should be given, not its admissibility. Thus, we
deny Petitioner’s Motion to Exclude Paragraphs 61-63 of the First Sturges
Declaration and Paragraphs 75-79 of the Second Sturges Declaration.
c.

Professional Approval and Praise

Petitioner seeks to exclude Paragraphs 53, 54, and 58 of the First
Sturges Declaration and Paragraphs 67-71 of the Second Sturges
Declaration under Federal Rules of Evidence 403 and 702, and 37 C.F.R.
§ 42.65(a). Pet. Mot. Exclude 5-6; Pet. Mot. Reply 2-3. Petitioner
contends that Dr. Sturges fails to cite any specific text in the various
magazine articles he relies upon, and does not provide any specific analysis
why the praise is driven by the features of the challenged claims. Pet. Mot.
Exclude 5. Petitioner also argues that “[t]o the extent Dr. Sturges relies on
the magazine articles to demonstrate the alleged benefits of the X-Sync (see,
e.g., Ex. 2074,

67, 68), such testimony should be excluded as hearsay

under [Federal Rule of Evidence] 802.” Id. at 6. Patent Owner argues that
Dr. Sturges did provide a detailed analysis by demonstrating that the X-Sync
chainrings are covered by the patents and provides citations to the evidence
he relied upon. Pat. Opp. 8. Patent Owner further argues that Dr. Sturges is
permitted to rely on hearsay in forming his opinions. Id.
To begin with, as we noted above, the portion of 37 C.F.R. § 42.65(a)
relied on by Petitioner deals only with the weight that can be given evidence,
not its admissibility. Thus, it is not a proper basis for a motion to exclude.

App. 75a

As for the objections based on the Federal Rules of Evidence, we do not see
how, nor has Petitioner met its burden of demonstrating, that even if Federal
Rule of Evidence 403 applies to a non-jurytrial like these proceedings, how
Petitioner is prejudiced by admitting this testimony. Thus, Petitioner’s Rule
403 objection is without merit. As for the Rule 702 objection, we determine
that Dr. Sturges provides sufficient analysis to support his opinions that the
X-Sync chainring has received praise and there is a nexus between the XSync chainring and the ’027 patent. See Ex. 2074 ^ 63, 64 (explaining how
the X-Sync chainring is covered by the patent),

68-71 (citing to Ex. 2076

(testimony of Mr. Ritzier); Exs. 2005-2030). Finally, we agree with Patent
Owner that Petitioner’s hearsay objection is without merit. See Fed. R.
Evid. 703 (explaining experts may rely on hearsay in forming their
opinions). Thus, Petitioner’s Motion to Exclude Paragraphs 53, 54, and 58
of the First Sturges Declaration and Paragraphs 67-71 of the Second Sturges
Declaration is denied.
2.

Testimony ofMr. Ritzier
a.

Commercial Success

Petitioner seeks to exclude Paragraphs 8 and 19-29 of the Declaration
of Ron Ritzier (“Ritzier Declaration”), an employee of Patent Owner,
regarding commercial success. Pet. Mot. Exclude 6-10. Petitioner argues
that Mr. Ritzier’s testimony is vague and conclusory and “provides no
details of his methodologies or application to whatever underlying data he
may have considered.” Id. at 7-8. Petitioner argues that because it has not
been shown that “Mr. Ritzier’s market share calculations are based on
reliable principles or methodologies, or that Mr. Ritzier reliably applied his
chosen methodologies,” Paragraphs 8 and 19-29 of the Ritzier Declaration

App. 76a

should be excluded. Id. at 8; Pet. Mot. Reply 4. Patent Owner responds that
Mr. Ritzier provided sufficient evidence of his methodologies and
experience. PO Opp. 10.
We agree with Patent Owner that Mr. Ritzier has provided sufficient
explanation of his methodologies and principles that he applied in providing
his testimony regarding commercial success. Ex. 2076
Ex. 2121

16-17, 28;

1-9. Mr. Ritzier explained the sources of the data and the way

he reached the conclusions stated in his testimony. We find this testimony
persuasive and give it substantial weight. Id. Accordingly, we deny
Petitioner’s Motion to Exclude Paragraphs 8 and 19-29 of the Ritzier
Declaration.
b. Copying and Long-felt Need
Petitioner seeks to exclude Mr. Ritzier’s testimony regarding copying
and long-felt need (Ex. 2004 If 17; Ex. 2076 ^ 41-50) as “speculative and
unsupported” under Federal Rules of Evidence 702 and 602. Pet. Mot.
Exclude 10-11; Pet. Mot. Reply 5. Patent Owner contends that Mr. Ritzier
is qualified to offer his testimony on copying and long-felt need, and that he
is permitted to testify about his personal observations. PO Opp. 11.
We agree with Patent Owner that Mr. Ritzier’s testimony regarding
copying and long-felt need is admissible. Mr. Ritzier has extensive
experience in the industry and with bicycles generally. See Ex. 2076 fflf 3, 4.
With respect to copying, his testimony is clear that he is testifying based on
his personal knowledge as Patent Owner’s vice president of product
development. See Ex. 2076 ^flf 41^49. As for long-felt need, Mr. Ritzier
explains the basis for his opinion that there was a long-felt need in the
industry. We determine that Petitioner’s arguments go to the weight we

App. 77a

should give Mr. Ritzier’s testimony, not its admissibility. Thus, Petitioner’s
Motion to Exclude Paragraph 17 of Exhibit 2004 and Paragraphs 41-50 of
Exhibit 2076 is denied.
3.

Exhibits 2005—2030

Exhibits 2005-2030 are various articles that Patent Owner contends
are evidence of industry praise of the products that embody the ’027 patent.
See Exs. 2005-2030. Petitioner moves to exclude Exhibits 2005-2030
under Federal Rules of Evidence 401, 403, and 802, as irrelevant, unduly
prejudicial, and hearsay, respectively. Pet. Mot. Exclude 11-12. Patent
Owner responds that Petitioner ignores its nexus showing and that its briefs
point to specific passages that discuss the industry’s recognition of the
claimed features. Pat. Opp. 12. Patent Owner also argues that the articles
are offered for a non-hearsay purpose and are, therefore, admissible.
Id. at 13.
We agree with Patent Owner that Petitioner has failed to show these
exhibits should be excluded as irrelevant. Evidence is relevant if it has any
tendency to make a fact more or less probable than it would be without the
evidence and the fact is of consequence in determining the action. Fed. R.
Evid. 401 (emphasis added). It is well-established that “[ljaudatory
statements by third parties regarding an invention are relevant to the
question of obviousness.” Asetek Danmark A/S v. CMI USA, Inc., NO. 13cv-00457-JST, 2014 WL 12644295, at *1 (N.D. Cal. Nov. 19, 2014)
(collecting cases). Petitioner’s arguments about nexus go more to the weight
this evidence should be given, rather than its admissibility.
As for Petitioner’s arguments that the evidence should be excluded
under Federal Rule of Evidence 403, Petitioner has offered no concrete

App.78a

assertions of prejudice, so we deny this request on that basis alone. Further,
we do not discern any prejudice to Petitioner, under Federal Rule of
Evidence 403, in allowing this exhibit into evidence. In a non-jury trial,
such as before the Board, the risk that a decision by the trier of fact will be
unfairly affected by the admission of improper evidence is far less than in a
jury trial. See E.E.O.C. v. Farmer Bros. Co., 31 F.3d 891, 898 (9th Cir.
1994). As the factfinder, we are able to consider this evidence, in light of
the parties’ arguments, and give it the appropriate weight. See 22 Charles
Alan Wright & Kenneth W. Graham, Jr., Federal Practice and
Procedure § 5213 (1978 & Supp 1999) (“Since the judge must hear the
evidence in ruling on the motion to exclude the evidence under Rule 403,
exclusion of the evidence on grounds of prejudice in a non-jury trial is
described as a ‘useless procedure.’”); see also Schultz v. Butcher, 24 F.3d
626, 632 (4th Cir. 1994)(finding court should not exclude evidence under
Rule 403 in non-jury trial on grounds of unfair prejudice); GulfStates
Utilities Co. v. Ecodyne Corp., 635 F.2d 517, 519 (5th Cir. 1981) (finding
unfair prejudice portion of Rule 403 “has no logical application to [non-jury]
trials”).
As for Petitioner’s hearsay objection, it is without merit because the
articles are not offered for the truth of the matters asserted in them, but to
show that the statements were made. Because the existence of the
statements themselves is relevant, “courts have properly found that articles
showing the receipt of ‘awards and accolades’ are admissible over a hearsay
objection.” Asetek Danmark A/S, 2014 WL 12644295, at *2 (collecting
cases).
Thus, we deny Petitioner’s Motion to Exclude Exhibits 2005-2031.

App. 79a

4.

Exhibits 2031-2047

Exhibits 2031-2047 are company product descriptions or store
webpages showing pictures of various competing products that Patent
Owner contends are copies of its product. See Exs. 2031-2047. Petitioner
moves to exclude Exhibits 2031-2047 under Federal Rule of Evidence 401
as irrelevant. Pet. Mot. Exclude 12-13. Petitioner argues that Patent Owner
“failed to show that each of the chainrings in these exhibits includes every
feature of the allegedly copied X-Sync chainrings, beyond a bare and
unsupported assertion by Dr. Sturges.” Id. Petitioner contends that the only
other evidence cited also has no supporting explanation, so “[a]s a result,
beyond bare assertions, [Patent Owner] presents no evidence that the
chainrings in Exhibits 2031-2047 are copies of the X-Sync chainring. . . .”
Id. at 13. Patent Owner argues that the exhibits are relevant because copying
was extensively discussed by Dr. Sturges and Mr. Ritzier. PO Opp. 13.
We agree with Patent Owner that Exhibits 2031-2047 are relevant and
admissible. Evidence is relevant if it has any tendency to make a fact more
or less probable than it would be without the evidence and the fact is of
consequence in determining the action. Fed. R. Evid. 401 (emphasis added).
Given Dr. Sturges’s testimony that these chainrings are copies of Patent
Owner’s products, this is sufficient to establish that these exhibits are
relevant under the low standard of Rule 401. See United States v.
Whittington, 455 F.3d 736, 739 (6th Cir. 2006) (“[T]he district court
correctly noted that the relevance threshold is very low under Rule 401.”)
(internal quotation marks omitted). Petitioner’s arguments go more to the
weight this evidence should be given, rather than its admissibility. Thus, we
deny Petitioner’s Motion to Exclude Exhibits 2031-2047.

App. 80a

6.

Exhibits 2109 and 2110

Exhibits 2109 and 2110 are videos showing the operation SRAM XSync chainrings. Petitioner moves to exclude them under Federal Rules of
Evidence 401^103, 702, 901, and 37 C.F.R. §§ 42.63 and 42.65. Pet. Mot.
Exclude 13. We did not rely on Exhibits 2109 or 2110, so we dismiss this
portion of Petitioner’s Motion to Exclude as moot.
B.

Patent Owner’s Motion to Exclude

Patent Owner moves to exclude Exhibits 1036-1037, 1039-1042,
1047-1048, 1057-1058, 1061, 1069-1070, and 1073, as well as

9-11 and

13-16 of Exhibit 1046 and 26 of Exhibit 1068. PO Mot. Exclude 17.
Petitioner withdraws Exhibits 1042 and 1057, but otherwise opposes Patent
Owner’s Motion. Pet. Opp. 1. We consider Patent Owner’s Motion below.
1.

Exhibit 1036

Patent Owner seeks to exclude Exhibit 1036 under Federal Rule of
Evidence 901 as not authenticated. PO Mot. Exclude 4. Patent Owner
contends that “[n]o witness has authenticated the collection of photographs
set forth in Exhibit 1036 or the statements contained therein purporting to tie
the photographs to a specific member of a SRAM X-Sync chainring family.”
Id. Patent Owner submits that “[t]o the extent this exhibit was used at Mr.
Wesling’s deposition, he was unable to authenticate the photographs because
of their poor quality and because he did not take the photographs in
question.” Id. Petitioner responds that Mr. Wesling did authenticate the
exhibits in his deposition. Pet. Opp. 4 (citing Ex. 1044, 12:22-13:11, 15:1920:5, 23:4-24:10). Furthermore, Petitioner submits that the photographs in
Exhibit 1035 are identical to those contained in Exhibit 1073, and
authenticated in Exhibits 1069 and 1070. Id. at 4-5. In its Reply, Patent

App. 82a

Owner argues that Mr. Wesling did not authenticate the exhibits. PO Mot.
Reply 2.
Documents are authenticated by evidence “sufficient to support a
finding that the item is what the proponent claims it is.” Fed. R.
Evid. 901(a). Authenticity is, therefore, not an especially high hurdle for a
party to overcome. See United States v. Patterson, 277 F.3d 709, 713 (4th
Cir. 2002); see also United States v. Ceballos, 789 F.3d 607, 617-18 (5th
Cir. 2015) (noting “low” burden for authentication); United States v. Isiwele,
635 F.3d 196, 200 (5th Cir. 2011) (noting flaws in authentication go to
weight not admissibility).
We have reviewed Mr. Wesling’s testimony. Although he was vague
in his testimony regarding the photographs, we find his review of the actual
chainrings and confirmation that the photographs resembled the actual
chainrings to be more than sufficient to meet the low bar for authentication.
Ex. 1044, 12:22—13:11, 15:19—20:5,23:4-24:10. Patent Owner’s arguments
go to the weight that should be given the evidence, not its admissibility.
2.

Exhibits 1037, 1039, 1047, 1048, 1058, and 10618

Exhibits 1037, 1039, 1047, 1048, 1058, and 1061 are printouts and
videos from various non-governmental websites. Patent Owner moves to
exclude these exhibits for lack of authentication under Federal Rule of
Evidence 902. PO Mot. Exclude 5—6. Patent Owner also argues that these
exhibits should be excluded as hearsay. Id. at 6. Petitioner argues that these
web printouts are properly authenticated by the testimony of Ms. Arpita
Bhattacharyya and the cross examination testimony of Mr. Ritzier. Pet.

Exhibit 1057 has been withdrawn. Pet. Opp. 1.

App. 83a

^

Opp. 5-6 (citing Ex. 1068
Ex. 2076

3, 5, 9, 10, 16, 19; Ex. 1045-A, 59:12-21;

53, 56, 57). As for the hearsay objection, Petitioner asserts that

Exhibits 1037 and 1058 include “Opposing Party Statements,” which are
admissible under Rule 801(d)(2), and Petitioner contends that all of these
exhibits are not relied upon for the truth of the matter asserted. Id. at 6-7.
However, Petitioner submits that, to the extent it does rely on the truth of the
matter asserted in the articles, they should be admitted under Federal Rule of
Evidence 806, because they “undermine and are inconsistent with secondary
considerations positions taken by [Patent Owner’s] witnesses and in its
pleadings based upon articles from the same or similar magazines/sources.”
Id. at 8. Petitioner also seeks to have them admitted under the residual
hearsay exception of Federal Rule of Evidence 807, because the sources for
these exhibits have been shown to be reliable. Id. at 9.
With respect to Exhibit 1039, Petitioner did not cite or rely on this
exhibit in any of its papers, so we dismiss this portion of Patent Owner’s
Motion to Exclude as moot. As for the remaining documents, although we
considered them, we did not rely on them in reaching our decision. Thus,
we dismiss this portion of the Motion as moot.
3.

Exhibits 1040 and 10419

Exhibits 1040 and 1041 are email chains between employees of Patent
Owner and persons from other companies. See Exs. 1040, 1041. Patent
Owner moves to exclude these exhibits as not authenticated, under Federal
Rule of Evidence 901, as hearsay, under Federal Rule of Evidence 802, and
as irrelevant, under Federal Rule of Evidence 402. PO Mot. Exclude 6-8.

9 Exhibit 1042 has been withdrawn. Pet. Opp. 1.

App. 84a

With respect to authentication, Petitioner argues that Mr. Ritzier
authenticated these exhibits at his deposition, and that Ms. Bhattacharyya
also authenticated these exhibits in her Declaration. Pet. Opp. 10. As for
the hearsay objection, Petitioner argues that the statements are opposing
party statements exempt from the hearsay rule under Federal Rule of
Evidence 801(d)(2). Id. at 9. Petitioner argues that the exhibits are relevant
to its nexus arguments. Id. at 9-10.
We have no reason to rely on these exhibits. Petitioner relies on these
exhibits to show that Patent Owner has a policy of selling only complete
drivetrain Eagle groupsets. Pet. Opp. 9. However, Mr. Ritzier, Patent
Owner’s witness, confirmed at his deposition that Patent Owner’s policy is
to require OEM customers to purchase complete drivetrain Eagle groupsets.
Ex. 1045-A, 88:12-17. These exhibits are merely cumulative of Mr.
Ritzier’s testimony. Thus, we dismiss this portion of Patent Owner’s
Motion as moot. Patent Owner’s arguments about relevance go more to the
weight that should be accorded the evidence, not its admissibility.
4.

Paragraphs 9—11 and 13—16 ofExhibit 1046

Exhibit 1046 is the Declaration of Adam Marriott. See Ex. 1046.
Mr. Marriott is a senior product manager at RFE Holding (Canada) Corp.,
which is the parent company of Petitioner. Id. ^ 1. Paragraphs 9-11 and
13-16 offer Mr. Marriott’s opinions on whether he believes that the success
of Patent Owner’s product is a result of the rear cassette, and not the
chainring. See id. ^ 9-11, 13-16. Patent Owner seeks to exclude these
opinions for lack of personal knowledge under Federal Rule of Evidence
602, and also seeks to exclude certain other paragraphs under Federal Rules
of Evidence 401, 402, 403, 701, 702, 801, 802, and 805. PO Mot. Exclude

App. 85a

8-10; PO Mot. Reply 4-5. Petitioner responds that Mr. Marriott made these
statements based on his extensive experience in the field of mountain bikes,
and his opinions should be admitted. Pet. Opp. 10-13.
We agree with Petitioner that Mr. Marriott has sufficient experience in
the bicycle industry to offer these opinions on state of the industry and
Patent Owner’s products. Patent Owner’s arguments go more to the weight
we should give this testimony rather than its admissibility. Therefore, we
deny Patent Owner’s Motion to Exclude Paragraphs 9-11 and 13-16 of
Exhibit 1046 (Marriott Declaration).
5.

Paragraph 26 ofExhibit 1068

Exhibit 1068 is the Declaration of Arpita Bhattacharyya, who is one
of Petitioner’s attorneys in this proceeding. In Paragraph 26,
Ms. Bhattacharyya testifies that she reviewed Exhibits 2005-2030 “in
detail,” and that none of the articles in those exhibits mentioned certain
claimed features. Ex. 1068 26. Patent Owner argues that this testimony
should be excluded because it is improper expert testimony. PO Mot.
Exclude 11. Petitioner argues that this is merely fact testimony. Pet.
Opp. 13-14.
Because we can review the articles “in detail” ourselves, there is no
need for us to rely on this testimony. Accordingly, we dismiss this portion
of Patent Owner’s Motion as moot.
6.

Exhibits 1069, 1070, and 1073

Exhibit 1069 is the Declaration of Christopher B. McKinley
(“McKinley Declaration”), one of Petitioner’s attorneys, and, in addition to
certain testimony of Mr. McKinley authenticating certain pictures submitted,
it also contains tables of pictures purporting to compare various features of

App. 86a

the Race Face chainring, SRAM X-Sync chainring, and the SRAM Eagle
chainring. Ex. 1069. The table includes labeling that points out certain
features of the various chainrings. Id. at 3-4. Exhibit 1073 consists solely
of a table of pictures of various SRAM chainrings, labeled by part number,
with close-up pictures of the teeth of the chainring with similar labels as the
McKinley Declaration. See Ex. 1073, 1-6. Exhibit 1070 is the Declaration
of Daniel F. Klodowski (“Klodowski Declaration”), one of Petitioner’s
attorneys. Ex. 1070. The Klodowski Declaration purports to authenticate
the pictures of Exhibit 1073, and asserts that they are representative of the
twelve families of X-Sync chainrings. Id.

3, 4.

Patent Owner seeks to exclude this evidence as irrelevant under
Federal Rules of Evidence 401 and 402. PO Mot. Exclude 11-12.
Petitioner argues that the McKinley and Klodowski Declarations serve to
authenticate the pictures of the various chainrings. Pet. Opp. 14-15.
Petitioner also asserts that Exhibit 1069 is relevant to copying, because it
shows ‘that Race Face’s chainring differs substantially from [Patent
Owner]’s chainrings, i.e., that Race Face’s chainring does not include the
‘protruding tip portion,’ the ‘hooked rear flank,’ or the ‘asymmetric teeth’ of
SRAM’s chainrings.” Id. at 15. As for Exhibit 1073, Petitioner argues that
its relevant to its argument that Patent Owner is not entitled to a presumption
of a nexus, because Petitioner contends that it “demonstrates that X-Sync
chainrings are not coextensive with the claimed invention.” Id. Petitioner
further argues that there has been no demonstration of prejudice. Id.
We agree with Petitioner that these exhibits cross the low bar of
relevance. We agree that they are relevant to the issues of copying and
nexus. Thus, we deny Patent Owner’s Motion to Exclude Exhibits 1069,

App. 87a

1070, and 1073. However, as we explain above, though admissible, these
pictures, without any other substantive analysis or explanation for the labels
or their significance, are entitled to very little weight.
IV. CONCLUSION
For the reasons given, based on the arguments and evidence of record,
Petitioner has not met its burden to prove by a preponderance of the
evidence that claims 7, 8, 11, 12, 20-22, 25, and 26 of the ’027 patent are
unpatentable under 35 U.S.C. § 103(a) over Thompson and JP-Shimano or
that claims 9, 10, 23, and 24 are unpatentable under 35 U.S.C. § 103(a) over
Thompson, JP-Shimano, and Hattan. See 35 U.S.C. § 316(e). We deny-inpart and dismiss-as-moot-in-part Petitioner’s and Patent Owner’s Motions to
Exclude.
IV. ORDER
Accordingly, it is:
ORDERED that claims 7—12 and 20-26 of the ’027 patent have not
been proven unpatentable',
Petitioner’s Motion to Exclude is denied-in-part and dismissed-asmoot-in-part;
Patent Owner’s Motion to Exclude is denied-in-part and dismissed-asmoot-in-part; and
FURTHER ORDERED that, because this is a Final Written Decision,
any party to the proceeding seeking judicial review of this Decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

App.88a

PETITIONER:
Joshua Goldberg
Arpita Bhattacharyya
Daniel Klodowski
Finnegan, Henderson, Farabow, Garrett & Dunner, LLP
joshua.goldberg@finnegan.com
arpita.bhattacharyya@fmnegan.com
daniel .klodowski@finnegan. com
PATENT OWNER:
Michael Hickey
Kirk Damman
Benjamin Siders
LEWIS RICE LLC
mhickey@lewi srice. com
kdamman@lewisrice.com
bsiders@lewisrice.com

App. 89a

Appendix D

UNITED STATES PATENT AND TRADEMARK OFFICE

BEFORE THE PATENT TRIAL AND APPEAL BOARD

FOX FACTORY, INC.,
Petitioner,
v.
SRAM, LLC,
Patent Owner.

Case IPR2017-00472
Patent 9,182,027 B2

Before MICHAEL W. KIM, FRANCES L. IPPOLITO, and
KEVIN W. CHERRY, Administrative Patent Judges.
CHERRY, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

App.90a

Fox Factory, Inc. (“Petitioner”) filed a Petition requesting an inter
partes review of claims 1-6 and 13-19 ofU.S. Patent No. 9,182,027 B2
(Ex. 1001, “the ’027 patent”). Paper 1 (“Petition” or “Pet.”). Pursuant to
35 U.S.C. § 314(a), we determined the Petition showed a reasonable
likelihood that Petitioner would prevail in establishing the unpatentability of
claims 1-6 and 13-19, and instituted an inter partes review of these claims
on certain asserted grounds of unpatentability. Paper 10 (“Inst. Dec.”).
Patent Owner SRAM, LLC (“SRAM” or “Patent Owner”) filed a Patent
Owner Response. Paper 17 (“PO Resp.”). Petitioner filed a Reply to Patent
Owner’s Response. Paper 37 (“Pet. Reply”). Pursuant to our authorization,
Patent Owner also filed a Sur-Reply. Paper 43 (“Sur-Reply”).
Patent Owner filed Observations on Cross Examination. Paper 46
(“Obs.”). Petitioner filed a Response to Patent Owner’s Observations on
Cross Examination. Paper 53 (“Response Obs.”). We have considered fully
both the Observations and Response to Observations in reaching this Final
Written Decision.
Petitioner also filed a Motion to Exclude certain evidence. Paper 50
(“Pet. Mot. Exclude”). Patent Owner filed an Opposition to Petitioner’s
Motion to Exclude. Paper 56 (“PO Opp.”). Petitioner filed a Reply in
support of its Motion to Exclude. Paper 58 (“Pet. Mot. Reply”). Patent
Owner also filed a Motion to Exclude certain evidence. Paper 51 (“PO Mot.
Exclude”). Petitioner filed an Opposition to Patent Owner’s Motion to
Exclude. Paper 55 (“Pet. Opp.”). Patent Owner filed a Reply in support of
its Motion to Exclude. Paper 57 (“PO Mot. Reply”). An oral hearing was
held on January 12, 2018. Paper 63 (“Tr.”).

App. 91a

We issue this Final Written Decision pursuant to 35 U.S.C. § 318(a)
and 37 C.F.R. § 42.73. For the reasons that follow, we determine Petitioner
has not proven by a preponderance of the evidence that claims 1-6 and 1319 of the ’027 patent are unpatentable. See 35 U.S.C. § 316(e).
I. BACKGROUND
A. Related Proceedings
Patent Owner has asserted infringement of the ’027 patent in SRAM,
LLC v. Race Face Performance Products, Case No. 1:15-cv-l 1362-JHL
(N.D. Ill.). Paper 3, 2; Pet. 89.
The ’027 patent is one of a number of related, issued patents and
pending applications. See Paper 3, 2-3. The ’027 patent is also at issue in
the following post-grant proceedings: (1) FOX Factory, Inc. v. SRAM, LLC,
Case IPR2016-01876 and (2) FOX Factory, Inc. v. SRAM, LLC, Case
IPR2017-00118. Paper 3, 2. The ’027 patent is currently undergoing ex
parte reexamination proceedings under Reexamination Control No.
90/013,715, which was initiated on June 2, 2016. Id. We stayed this
reexamination on April 3, 2017. See Paper 7.
B. The’027 Patent
The ’027 patent relates generally to chainrings, and more particularly
to a solitary chainring for use with a conventional chain in a bicycle
drivetrain system that includes a bicycle crank. Ex. 1001, 1:5-7. Bicycles
and other chain-driven vehicles typically employ one or more chainrings and
set of rear hub-mounted sprockets connected by a chain. Id. at 1:8—10.
According to the ’027 patent, the management of chain and chainring
engagement in bicycles is important, and various mechanisms are used to
maintain the chain on the chainring and the sprockets, including chain

App.92a

guards, chain tensioners, chain catchers, and derailleur configurations,
among others. Id. at 1:10-13. The ’027 patent explains that managing the
connection between the chain and the chainring is particularly difficult in
geared bicycles, which can experience severe changes in chain tension and
energy motion of the chain, especially when riding over rough terrain. Id. at
1:14-20. Specifically, the ’027 patent asserts that it is directed to a solution
for the problem of chain management, especially for a bicycle that can
successfully and reliably be ridden over challenging and rough terrain. Id. at
1:27-29.
Figure 3 of the ’027 patent illustrates a drive chain and chainring, and
is reproduced below:

11

FIG. 3

Figure 3, reproduced above, is an isometric view of a combined drive chain
and chainring, according to the purported invention engaged by a drivetrain.
Id. at 2:21-22. Figure 3 shows chainring 50 and conventional chain 10. Id.
at 3:44-45. Crank or crank arm 48 attaches to chainring 50. Id. at 3:47-49.
Force applied to crank arm 48 (typically, in a downward direction) causes
rotation of chainring 50 in like a like direction (clockwise). Id. at 3:55-57.

App. 93a

The rotation of chainring 50 causes chain 10 to be drawn over and advanced
about chainring 50. Id. at 3:57-59.
As is illustrated in Figure 3, chainring 50 includes a plurality of teeth,
including first group of teeth 58 and second group of teeth 60. Id. at 3:6067. Drive chain 10 includes outer chain links 12 and inner chain links 14.
Id. at 2:63-65. First group of teeth 58 is configured to be received by, and
fitted into, the outer link spaces of drive chain 10, and second group of
teeth 60 is configured to be received by, and fitted into, the inner link spaces.
Id. at 3:66-4:3. Each tooth can have an optional tip portion that protrudes
forwardly from a line drawn where rollers in the chain contact the tooth. Id.
at 5:33-48. The ’027 patent explains that this protruding tip portion
“functions to engage a chain link earlier than a chain lacking the tip portion
and provides better guiding of the chain.” Id. at 5:48-51.
C. Illustrative Claim
Claims 1 and 13, both apparatus claims, are the only independent
claims of the ’027 patent challenged in the Petition. Claims 2-6 each
depend from claim 1. Claim 14-19 each depend from claim 13. Claim 1 is
illustrative of the subject matter in this proceeding and is reproduced below.
1. A bicycle chainring for engagement with a drive chain,
comprising:
a plurality of teeth formed about a periphery of the chainring,
the plurality of teeth including a first group of teeth and a second
group of teeth,
each of the first group of teeth wider than each of the second
group of teeth and at least some of the second group of teeth

App. 94a

arranged altematingly and adjacently between the first group
of teeth,
wherein each of the plurality of teeth includes a tooth tip;
wherein a plane bisects the chainring into an outboard side and
an inboard side opposite the outboard side; and
wherein at least the majority of the tooth tip of at least one of
each of the first and second groups of teeth is offset from the
plane in a direction toward the outboard side of the chainring.
Id. at 6:49-63.
D. Instituted Grounds of Unpatentability
We instituted an inter partes review of the ’027 patent on the
following grounds of unpatentability asserted in the Petition. Inst. Dec. 28.
Claims

Basis

1,2, 5, 6, 1315, 18, and
19
3, 4, 16, and
17
1,2, 5,6, 1315, 18, and
19
3, 4, 16, and
17

§ 103(a)

§ 103(a)
§ 103(a)

§ 103(a)

References
US 5,285,701 to Parachinni (“Parachinni”)
(Ex. 1027) and JP S56-42489 to Shimano (“JPShimano”) (Ex. 1006)2____________________
Parachinni, JP-Shimano, and US 3,375,022 to
Hattan (“Hattan”) (Ex. 1004)_______________
Parachinni, JP-Shimano, and US 4,576,587 to
Nagano (“Nagano”) (Ex. 1010)
Parachinni, JP-Shimano, Nagano, and Hattan

The Leahy-Smith America Invents Act (“AIA”), Pub. L. No. 112-29
(2011), revised 35 U.S.C. §§ 102-103, effective March 16, 2013. Because
the ’027 patent has an effective filing date before March 16, 2013, we refer
to the pre-AIA versions of §§ 102 and 103
2 Exhibit 1006 includes both the published Japanese Patent Application
(pages 1-10) and an English translation (pages 11-18). We will refer
exclusively to the English translation.

App. 95a

II. ANALYSIS
A.

Claim Construction

We interpret claims in an unexpired patent using the “broadest
reasonable construction in light of the specification of the patent in which
[they] appear[ ].” 37 C.F.R. § 42.100(b). Any special definition for a claim
term must be set forth with reasonable clarity, deliberateness, and precision.
In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). “Under a broadest
reasonable interpretation, words of the claim must be given their plain
meaning, unless such meaning is inconsistent with the specification and
prosecution history.” Trivascular, Inc. v. Samuels, 812 F.3d 1056, 1062
(Fed. Cir. 2016).
Only those terms which are in controversy need be construed, and
only to the extent necessary to resolve the controversy. Vivid Techs., Inc. v.
Am. Sci. & Eng ’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999).
We determine that no terms require express construction for the
purposes of this Final Written Decision.
B.

Level of Skill in the Art

Petitioner asserts that a person of ordinary skill in the art, at the time
of the effective filing date of the ’027 patent, would have a skill level of “at
least a bachelor’s degree in mechanical engineering and/or at least three to
five years’ experience in the development and design of chain drive systems
and components thereof.” Pet. 1 n.l (citing Ex. 1026 ^ 16). Patent Owner
contends that a person of ordinary skill would have a bachelor’s degree in
mechanical engineering and at least one year of design experience with
chainrings or related technologies. PO Resp. 13 n.3 (citing Ex. 2074

25).

We find that any difference between these two definitions is insignificant to

App. 96a

this analysis. On this record, however, we find Patent Owner’s definition of
a person of ordinary skill in the art to be more persuasive given the welldeveloped, relatively simple nature of the art, and apply it for our analysis.
C.

Scope and Content of the Prior Art

The instituted grounds allege that claims 1, 2, 5, 6, 13-15, 18, and 19
of the ’027 patent are unpatentable as obvious over the combinations of
Parachinni and JP-Shimano and/or Parachinni, JP-Shimano, and Nagano;
and claims 3, 4, 16, and 17 are unpatentable as obvious over the
combinations of Parachinni, JP-Shimano, and Hattan and/or Parachinni, JPShimano, Nagano and Hattan. Pet. 16-89; Inst. Dec. 11-28.
1.

Parachinni (Ex. 1027)

Parachinni, titled “Gearing Mechanism for High Speed Bicycles,”
describes a bicycle with a single front “enlarged crank sprocket” (i.e., front
chainring). Ex. 1027, at [54], Abstract. The large diameter front chainring
provides a relatively high gear ratio for the bicycle, thereby increasing the
bicycle’s potential speed. Id. at 1:10-18, 1:56-58. An exemplary
embodiment of Parachinni’s chain sprocket is shown in a version of Figure 3
of Parachinni annotated by the Petitioner to highlight the chain sprocket,
which is reproduced below.

App.97a

FIG. 3

32
^-'36

34

I L ^8- <
so

4’&B.

3?

as

Pet. 17.
Figure 3, as annotated by Petitioner, shows a fragmented cross
sectional view of Parachinni’s device. Pet. 17. Petitioner has highlighted
the crank sprocket in yellow. Id. Parachinni’s crank sprocket includes
extender portion 26, which extends the crank sprocket outwardly away from
crank hub 22. Ex. 1027, 2:32—54. Crank sprocket 26 also includes integral
stabilizer portion 32, which strengthens and stabilizes crank sprocket 26. Id.
at 2:58-3:5. Both extender portion 26 and stabilizer portion 32 are integral
and continuous parts of the “one piece” crank sprocket. Id. at 2:53-54,
2:58-59, 3:12-16. Parachinni’s crank sprocket includes teeth 36 for
engaging bicycle chain 38. Id. at 3:22-36.

App. 98a

2.

Hattan (Ex. 1004)

Hattan, titled “Drives for Bicycles,” relates to an improved pedal
actuated drive for bicycles. Ex. 1004, 1:20-21. Hattan explains that a
“major object” of its invention is to “provide improved and simplified means
for preventing the chain from jumping off of the forward oblong sprocket
wheel under any operating conditions.” Id. at 1:64—67. Hattan describes
preferred tooth dimensions for use with a 3/32 inch chain. Id. at 7:52-66. In
particular, Hattan discloses that, for “a standard 3/32 of an inch chain,”
which corresponds to the spacing between the inner links of the chain
(Ex. 1026 f 84), it is “preferred” that the axial thickness of the sprocket teeth
“be between about .070 inch and .090 inch, desirably about .080 inch.”
Ex. 1004, 7:52-66. Based on Hattan’s description of its preferred
thicknesses, the filled axial distance defined by the inner link spaces (i.e.,
“axial fill”) for an inner link space of 3/32 (0.09375) inches would be
between 74.6% (dividing 0.070 by 0.09375) and 96% (dividing 0.090 by
0.09375). Ex. 1026 184.
3. JP-Shimano (Ex. 1006)
JP-Shimano is a Japanese Utility Model Application, titled “Chain
Gear for a Bicycle,” and describes a chain gear for a bicycle designed to
reduce chain drop. Ex. 1006, 15:49-60, 15:78-86. JP-Shimano discloses a
chainring for a bicycle with alternating wide and narrow teeth. Id. at 15:5560, 15:78-86, 15:108-115, Figs 1-2. JP-Shimano describes a chainring
having “a plurality of teeth provided circumferentially on an outer periphery
of the gear main body.” Id. at 15:64-67. Figure 1 of JP-Shimano, as
annotated by the Petitioner, is reproduced below.

App. 99a

First Steep
Second; 6 reap

Pet. 61. Figure 1, as annotated by Petitioner, shows an embodiment of the
chainring of JP-Shimano. Id. at 16:134-135. Figure 1 shows alternating
wide and narrow teeth (teeth 22 and 23 respectively (labeled first group and
second group by Petitioner)). Id. at 16:99-106. Figure 2 of JP-Shimano, as
annotated by the Petitioner, is reproduced below.
FIG. 2
Second. Group:
First.Group '

3 / 32 P m
*—7

i.

1

■23

21

22

Outer Link Space'

23
inner link Space

Pet. 62. Figure 2, as annotated by Petitioner, shows teeth 22 and 23
engaging the bicycle chain. Id. JP-Shimano notes that wider teeth 22 may
be wider than or equal to the space between inner link plates 31, and the
thickness of wider teeth 22 is greater than narrower teeth 23, such that wider
teeth 22 engage the chain between outer chain link plates 32.
Id. at 16:99-115. JP-Shimano summarizes its device as:

App. 100a

The present device focuses on the fact that spaces between the
outer link plates in the chain become wider than the spaces
between the inner link plates, and ... is configured to eliminate
dropping of the chain from between the outer link plates, and also
to enhance durability. The present device accomplishes this by
setting one specific tooth as a standard, from among the plurality
of teeth provided circumferentially on the outer periphery of the
gear main body, and by forming the thickness of the evennumbered teeth smaller than the spaces between the outer link
plates of the chain, but greater than other teeth that engage
between the inner link plates, so that the teeth with the greater
thickness engage between the outer link plates.
Ex. 1006, 15:78-86.
4.

Nagano (Ex. 1010)

Nagano, titled “Front Chain Gear for a Bicycle,” relates to a chain
gear for a bicycle and, more particularly, to a bicycle chain gear with a
plurality of asymmetrical teeth about its periphery. Ex. 1010, 1:5-12, 3:4-9.
Nagano explains that its teeth are chamfered in a direction extending along
the thickness of gear body 1. Id. at 3:4-9. This is illustrated in Figure 2 of
Nagano, which is reproduced below.

X ..2d

FIG. 2

2b

r-

2d^

-2c
2

/

A

\N\\

\NSW
\\fv
\,

f

e

....>V

Figure 2 of Nagano is a partially enlarged sectional view of a tooth tip of the
chain gear of Nagano. Id. at 2:60-61. Chamfered teeth 2 vary in length

App. 101a

between 2a and 2b and are chamfered to a lesser extent at one side 2c than
on another side 2d, thereby making the teeth asymmetrical, i.e., the inboard
and outboard sides of the teeth are not mirror images of each other. Id. at
3:27-39,3:6-4:3.
D.

Differences Between the Prior Art and the Claimed Invention
1. Claims 1, 2, 5, 6, 13-15, 18, and 19
With respect to independent claim 1, Petitioner contends that

Parachinni discloses: (1) “[a] bicycle chainring for engagement with a drive
chain,” Pet. 25 (citing Ex. 1027, 1:56—2:11, 3:22-36; Ex. 1026 f 37); (2) “a
plurality of teeth formed about a periphery of the chainring,” id. at 25-27
(citing Ex. 1027, 3:22-36, 2:38-67, Figs. 1-4; Ex. 1026 fl 38-10); (3) “each
of the plurality of teeth includes a tooth tip,” id. at 30-31 (citing Ex. 1027,
3:22-36, Fig. 3; Ex. 1026 1 44); and (4) “wherein a plane bisects the
chainring into an outboard side and an inboard side opposite the outboard
side,” id. at 31-34 (citing Ex. 1027, Fig. 4; Ex. 1026 H 45^18). Petitioner
submits that JP-Shimano accounts for (1) “the plurality of teeth including a
first group of teeth and a second group of teeth,” id. at 27-28 (citing
Ex. 1006, 15:55-60, 15:78-86, 16:99-117, Figs. 1,2; Ex. 1026141);
(2) “each of the first group of teeth being wider than each of the second
group of teeth,” id. at 28-29 (citing Ex. 1006, 15:81-86, 16:99-117, Figs. 1,
2; Ex. 1026 142); and (3) “at least some of the second group of teeth
arranged altematingly and adjacently between the first group of teeth,” id. at
29-30 (citing Ex. 1006, 16:99-117, Figs. 1-2; Ex. 1026 143).
Petitioner further relies on the teachings of Parachinni, as modified in
view of JP-Shimano, to account for “wherein at least the majority of the
tooth tip of at least one of each of the first and second groups of teeth is

App. 102a

offset from the plane in a direction toward the outboard side of the
chainring. ” 3 Pet. 34-35 (citing Ex. 1027, 1:56-2:11, 3:12-36, Figs. 3^1;
Ex. 1026

49, 50).

With respect to its contentions regarding Parachinni, JP-Shimano, and
Nagano, Petitioner relies on its analysis for the ground Parachinni and JPShimano discussed above, and further contends that Nagano also provides
additional disclosure of certain limitations. See Pet. 63-78. For example
with respect to claim 1, Petitioner contends that Nagano provides additional
disclosure of (1) “a plurality of teeth formed about a periphery of the
chainring,” id. at 70 (citing Ex. 1010, Fig. 2; Ex. 1026 ^ 117, 118);
(2) “wherein each of the plurality of teeth includes a tooth tip,” id. at 70-71
(citing Ex. 1010, Fig. 2; Ex. 1026

119, 120); and (3) “wherein at least the

majority of the tooth tip of at least one of each of the first and second groups
of teeth is offset from the plane in a direction toward the outboard side of the
chainring,” id. at 71-73 (citing Ex. 1010, 3:34-39, Fig. 2; Ex. 1026 ^ 121—
125).
Petitioner further asserts that Parachinni and JP-Shimano and/or
Parachinni, JP-Shimano, and Nagano account for the limitations of claims 2,
5, 6, 13-15, 18, and 19. Pet. 35-50, 73-78.
2. Motivation to Combine
To support its argument that a person of ordinary skill would have
combined the teachings of Parachinni and JP-Shimano, Petitioner argues that
a person of ordinary skill in the art “would have known that it is critical to

3 Patent Owner correctly notes that we erroneously stated in our Institution
Decision (see Inst. Dec. 15) that Petitioner was relying on only Parachinni
for this element. PO Resp. 46 n.5.

App. 103a

the operation of a bicycle for the bicycle chain to remain engaged with the
bicycle chainring.” Pet. 22 (citing Ex. 1026

34). Petitioner asserts that

“Parachinni and JP-Shimano each teach this motivation for their respective
apparatuses: preventing the chain from detaching from the chainring.” Id.
at 22-23. Petitioner contends that it would have been obvious to a person of
ordinary skill in the art to improve chain retention by combining known
methods of doing so, such as employing both the offset-teeth chainring of
Parachinni and the alternating narrow and wide teeth of JP-Shimano, in
order to “improve chain retention to the maximum extent possible,
particularly for a solitary front chainring such as in Parachinni. . . .” Pet. 23
(citing Ex. 1026 f 35). Petitioner notes that “Parachinni recognizes that
chain derailment is a problem faced by a large-diameter chainring.” Id. at 23
(citing Ex. 1027, 1:40-50,4:19-29). Petitioner also submits that:
JP-Shimano recognizes that the “large gap” between narrow
chainring teeth and the outer link plates can cause the chain to
drop if a chain line is displaced, and solves this problem with its
alternating narrow-wide tooth chainring that “is configured to
eliminate dropping of the chain from between the outer link
plates, and also to enhance durability.”
Id. (quoting Ex. 1006, 15-16,11. 73-86, 122-130). Petitioner asserts that
“[s]uch a combination would provide the chain retention benefits offered by
both devices, and would not require modifying the structure of the
Parachinni chainring beyond merely configuring its outboard-offset teeth to
alternate between narrow and wide profiles.” Id. at 24 (citing Ex. 1026
136). Petitioner contends that such a modification would merely be the
combination of familiar elements according to known methods that do no
more than yield predictable results. Id. (citing KSR Int 7 Co. v. Teleflex Inc.,
550 U.S. 398,416(2007)).

App. 104a

Patent Owner argues that there is no rationale to modify Parachinni in
view of JP-Shimano. PO Resp. 45-51. Patent Owner contends that
Petitioner’s rationale is improper, because “Parachinni already has structure
for solving the specific chain drop problem addressed by JP-Shimano (i.e.,
chain drop associated with a deflected chain) and there is no suggestion that
Parachinni has any need to control the chain path further.” Id. at 46. Patent
Owner further contends that Parachinni teaches away from any combination
with an additional chain retention method, because “Parachinni states that
its chainring is to be used without a front derailleur or chain guide, because
at least ‘[t]he location of the plane of rotation of [Parachinni’s chainring]
helps prevent chain sprocket chain derailment without the aid of a front
derailleur chain guide.’” PO Resp. 47 (quoting Ex. 1027, 4:36-39).
Petitioner’s rationale for combining Parachinni and JP-Shimano is
based on an assumption that chain retention techniques of Parachinni and JPShimano are additive, and would “improve chain retention to the maximum
extent possible.” Pet. 23; see also Tr. 8:6-9; Ex. 2074

53-55.

Dr. Sturges testifies that a person of ordinary skill in the art would have
understood that JP-Shimano would not have improved chain retention and
engagement in Parachinni, because both are directed to solving the same
kind of problems that result in chain drop—namely, chain line displacement.
Ex. 2074

50-57. Thus, Patent Owner contends that there would have

been no net benefit to combining the two references, and hence, no rationale
to combine Parachinni and JP-Shimano. PO Resp. 49-50.
Petitioner responds by arguing that Parachinni does not completely
prevent chain drop, even in circumstances due to chain-line displacement,
and identifies various situations that Dr. Neptune contends where Parachinni

App.105a

would not have solved chain drop. Pet. Reply 3; Ex. 1051 fflf 10-13.
Petitioner argues that JP-Shimano would have helped prevent chain drop
caused by chain line displacement in situations when the chain approaches
the chainring from the rear gears at an angle. Ex. 1051 ^ 10-13; Ex. 1006,
15:73-75. Petitioner also asserts that JP-Shimano is not limited to solving
only chain drop caused by chain line displacement, but also solves chain
drop caused by worn or broken teeth. Pet. Reply 4-5. Petitioner now
further contends that a person of ordinary skill would have been motivated
to combine Parachinni and JP-Shimano to improve durability, which in turn
would reduce chain drop. Id. (citing Ex. 1051

17).

We find that Petitioner has shown a sufficient rationale to combine the
teachings of the references. Petitioner has offered evidence that Parachinni
would have been improved by adding the wide-narrow teeth of JP-Shimano
in certain situations when the chain approaches the chainring from the rear
gears at an angle. Ex. 1051

10-13; Ex. 1006, 15:73-75. We find this

evidence persuasive and give it significant weight.
We do not agree with Patent Owner that Parachinni teaches away
from the combination. A reference teaches away from a claimed invention if
it “criticize[s], discredits], or otherwise discourage[s]” modifying the
reference to arrive at the claimed invention. In re Fulton, 391F.3dll95,
1201 (Fed. Cir. 2004). There is nothing in Parachinni’s statement that its
invention “helps prevent chain sprocket derailment without the aid of a front
derailleur chain guide” that suggests that the alleged invention could not be
used with a front derailleur chain guide let alone other methods to reduce
chain drop. At best, the statement appears to recognize a potential benefit of

App.106a

the alleged invention, not an admonition forbidding its use with other
techniques. See Ex. 1051 ^ 13.
We do give some weight to Patent Owner’s evidence that Parachinni
and JP-Shimano do largely overlap in their solutions, and that the benefits of
the combination would be less than the sum of its parts. Ex. 2074

50-51.

We do find that even though Patent Owner’s arguments do not amount to a
teaching away, they do slightly weaken the factual basis of Petitioner’s
combination. See Polaris Indus., Inc. v. Arctic Cat, Inc., 882 F.3d 1056,
1069 (Fed. Cir. 2018) (“But even if a reference is not found to teach away,
its statements regarding preferences are relevant to a finding regarding
whether a skilled artisan would be motivated to combine that reference with
another reference.”).
As for Petitioner’s new contention that a person of ordinary skill
would have combined Parachinni and JP-Shimano to improve the durability
of teeth in Parachinni, we do not find this reason to be as persuasive or
entitled to as much weight as Petitioner’s evidence that JP-Shimano would
have improved Parachinni in situations where the chain approached at an
angle discussed above. We decline to give any weight to the durability
theory, because we find that it is a new theory raised for the first time on
reply. Ex. 2129, 96:16-97:5 (Dr. Neptune admitting the theory was not in
his original testimony). A reply is not the place to raise an almost entirely
new motivation to combine. See 37 C.F.R. § 42.23(b).
Given Patent Owner’s evidence of the limited benefit, we decrease the
weight of Petitioner’s evidence of a rationale to combine the teachings
slightly. But overall, we find that Petitioner has shown an adequate rationale
to modify Parachinni in view of JP-Shimano.

App.107a

E.

Objective Indicia of Non-Obviousness

Notwithstanding what the teachings of the prior art would have
suggested to one skilled in the art, objective evidence of non-obviousness
(so called “secondary considerations”) may lead to a conclusion that the
challenged claims would not have been obvious. In re Piasecki, 745 F.2d
1468, 1471-72 (Fed. Cir. 1984). Objective evidence of non-obviousness
“may often be the most probative and cogent evidence in the record” and
“may often establish that an invention appearing to have been obvious in
light of the prior art was not.” Transocean Offshore Deepwater Drilling,
Inc. v. MaerskDrilling USA, Inc., 699 F.3d 1340, 1349 (Fed. Cir. 2012).
Patent Owner puts forth evidence of commercial success, licensing, copying,
praise by others, long-felt, unresolved need, and failure by others. We agree
with Patent Owner that its proffered evidence, with respect to the objective
indicia of non-obviousness, weigh significantly in favor non-obviousness, as
explained below.
1.

Nexus

To be relevant, evidence of non-obviousness must be commensurate
in scope with the claimed invention. In re Kao, 639 F.3d 1057, 1068 (Fed.
Cir. 2011). Thus, to be accorded substantial weight, there must be a nexus
between the merits of the claimed invention and the evidence of secondary
considerations. In re GPACInc., 57 F.3d 1573, 1580 (Fed. Cir. 1995).
Nexus is a legally and factually sufficient connection between the objective
evidence and the claimed invention, such that the objective evidence should
be considered in determining non-obviousness. Demaco Corp. v. F. Von
LangsdorffLicensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988). There is a
“presumption of a nexus” when a product is “coextensive” with a patent

App.108a

claim. Teva Pharms. USA, Inc. v. Sandoz, Inc., 723 F.3d 1363, 1372 (Fed.
Cir. 2013). The Federal Circuit has held that “if the marketed product
embodies the claimed features, and is coextensive with them, then a nexus is
presumed and the burden shifts to the party asserting obviousness to present
evidence to rebut the presumed nexus.” Brown & Williamson Tobacco
Corp. v. Philip Morris Inc., 229 F.3d 1120, 1130 (Fed. Cir. 2000).
Patent Owner presents evidence that one of the thirteen families of XSync chainrings are covered by the challenged claims, and the remaining
twelve families are covered by the remaining claims of the ’027 patent. See
PO Resp. 18 n.4. In particular, Patent Owner presents the testimony of its
expert, supported by detailed claim charts, and the testimony of Mr. Ron
Ritzier and Mr. Kevin Wesling, that “each element of the claims of the ’027
patent is practiced by each of these thirteen (13) different versions of XSync chainrings.” See Ex. 2074 f 61; see also id. f 62 (testimony of Dr.
Sturges that all other sized chainrings in each family of the tested versions
practice all the challenged claims); Ex. 2078-2089 (claim charts for claims
7-12 and 20-26); Ex. 2119 (claim chart for claims 1-6 and 13-19) Ex. 2076
111 (explaining the families of products Patent Owner sells); Ex. 2118

10

(explaining the families of products Patent Owner sells). As such, Patent
Owner argues that it is entitled to a presumption of a nexus.
Petitioner does not dispute Patent Owner’s mapping of the various
claims of the ’027 patent X-Sync chainrings are covered by the challenged
claims. See Tr. 61:17-20 (“Your Honor, we don’t dispute that it’s covered
by the patent, we dispute whether it's coextensive.”). Petitioner raises
several arguments, including that most of the families of the X-Sync

App.109a

chainring are not covered by the challenged claims, and Patent Owner’s
evidence is not coextensive with the claimed invention.
Petitioner asserts that twelve of the thirteen families are not covered
by claims 1-6 and 13-19, and relate to inboard-offset tooth chainrings, not
at issue in this proceeding, so no nexus can exist between the claims 1-6 and
13-19 for those products. Pet. Reply 12-13. Petitioner argues that Patent
Owner attempts to “paper over that deficiency by pointing to the same
inboard-offset secondary considerations evidence it presented in IPR201601876 and IPR2017-00118.” Id. at 13. Petitioner argues that Patent Owner
separately claimed inboard- and outboard-offset chainrings, and
[Patent Owner] has the burden to present evidence of secondary
considerations related to its outboard-offset chainrings and to
prove nexus between the evidence and the challenged claims.
[Patent Owner] has not even attempted to meet those burdens,
and that should be the end of the inquiry.
Id.
We disagree with Petitioner that the same evidence necessarily cannot
support the patentability of both the inboard-offset and outboard-offset
claims of the ’027 patent. Patent Owner has presented evidence, the
Declaration of Kevin Wesling, that although the bicycling industry has
shown a preference for inboard offset chainrings, that the “asymmetric
offsets work the same, regardless of which side the asymmetric offsets are
on, the only difference being to which side the chain will be guided.”
Ex. 2118 Tf 16. Mr. Wesling further testifies that “[t]he preference [for
inboard-offset chainrings] is a function of the current construction of
bicycles and their drivetrains.” Id. Petitioner does not point us to any
contrary evidence. Based on this testimony from Mr. Wesling, we agree
with Patent Owner that evidence related to X-Sync chainrings can be

App. 110a

attributed to both the inboard-offset and outboard-offset embodiments of the
’027 patent. Patent Owner has shown that all thirteen families of the X-Sync
chainring practice either the inboard-offset or outboard offset-claims. See
Ex. 2074161; see also id. f 62 (testimony of Dr. Sturges that all other sized
chainrings in each family of the tested versions practice all the challenged
claims); Ex. 2078-2089 (claim charts for claims 7-12 and 20-26); Ex. 2119
(claim chart for claims challenged in this proceeding) Ex. 2076 f 11
(explaining the families of products Patent Owner sells); Ex. 2118 ^ 10
(explaining the families of products Patent Owner sells). We find that the
evidence supports a finding that the effects and attributes that the evidence
directed to the X-Sync generally are praising are common to both
embodiments and work in the same way. For example, we agree with Patent
Owner that the evidence of industry praise, skepticism, and long-felt need is
directed to all the families of the X-Sync chainring regardless of the offset
direction. Thus, we find that Patent Owner has shown that the X-Sync
chainring generally embodies the alleged inventions of claims 1-6 and 1319.
However, we agree with Petitioner that to the extent that Petitioner
has shown that the evidence is specifically directed to the inboard-offset
products, such as, for example, product sales and copying, that information
does not meet every limitation of claims 1-6 and 13-19, and, thus, is not
entitled to a presumption of nexus. Stated differently, we find that Patent
Owner has failed to show much, if any, nexus between claims 1-6 and 1319 and evidence of commercial success of only the inboard-offset products
or copying of only the inboard-offset products. Thus, for that evidence

App. 111a

1

directed specifically towards the inboard offset chainring, we find that such
evidence is entitled to no weight.
Petitioner further argues that, even assuming the products are covered
by claims 1—6 and 13—19, Patent Owner failed to demonstrate that the
products are coextensive. In particular, Petitioner argues that the evidence is
not coextensive with the claimed invention because the X-Sync chainring
includes unclaimed features, and “the majority of [Patent Owner’s] X-Sync
chainrings are marketed and sold as mere components of cranksets and
drivetrain group sets.” Pet. Reply 17. As an initial matter, Petitioner argues
that “[n]one of the X-Sync chainrings is coextensive with the claimed
invention because all X-Sync chainrings include ‘hundreds of features’ . . .
not claimed in the ’027 patent, many of which are instead claimed by other
SRAM patents.” Id. at 18. This argument misrepresents the law on two
points. First, Petitioner is incorrect that the existence of unclaimed features
in the commercial product prevents a Patent Owner from being able to claim
a presumption of a nexus. Instead, the law provides that a Patent Owner is
entitled to a presumption of a nexus if it shows that “the asserted objective
evidence is tied to a specific product and that product ‘is the invention
disclosed and claimed in the patent.’” WBIP, LLC v. Kohler Co., 829 F.3d
1317, 1329 (Fed. Cir. 2016). The Federal Circuit has explained that “[t]his
is true even when the product has additional unclaimed features.” PPC
Broadband, Inc. v. Corning Optical Commc’ns RF, LLC, 815 F.3d 734, 747
(Fed. Cir. 2016).
Unclaimed features do not prevent the presumption of a nexus, but
they may be the basis for rebutting the presumption. Id. To do so, a person
challenging patent validity must show that the commercial success, or other

App. 112a

objective evidence of non-obviousness, was due to “extraneous factors”
including “additional unclaimed features.” Polaris Indus., Inc. v. Arctic Cat,
Inc., 882 F.3d 1056, 1072 (Fed. Cir. 2018). Merely pointing out unclaimed
features in the X-Sync chainring is not enough. Id. (“However, a patent
challenger cannot successfully rebut the presumption with argument alone—
it must present evidence.”).
Second, Petitioner is incorrect that the existence of other patents
necessarily obviates the presumption of a nexus. In this regard, Petitioner
relies on Therasense, Inc. v. Becton, Dickinson & Co., 593 F.3d 1289, 1299
(Fed. Cir. 2010), for the proposition that “a product that embodies more than
one patent is not coextensive with any of them.” Pet. Reply 21. Petitioner
has only identified two patents, both in the same family of continuations as
the ’027 patent.4 Id. (identifying U.S. Patent Nos. 9,291,250 and 9,493,211,
both of which are continuations of the ’027 patent). We do not agree that
Therasense stands for so broad a proposition that the existence of
continuations in the same patent family obviates a presumption of a nexus.
Indeed, Therasense involves the far more conventional situation that a nexus
may not exist when the merits of the claimed invention were “readily
available in the prior art.” ClassCo, Inc. v. Apple, Inc., 838 F.3d 1214, 1220
(Fed. Cir. 2016). In Therasense, the court found that the product was
covered by both the claims of a prior art patent (U.S. Patent 4,545,382) and
the asserted patent (U.S. Patent 5,820,551). See Therasense, 593 F.3d at
1299. The patents related to the ’027 patent have not been shown to be prior

4 Petitioner contends that there are other patents that cover Patent Owner’s
commercial product (Pet. Reply 21), but does not identify them. Petitioner’s
allegations of other patents are too insubstantial to be entitled to any weight.

App. 113a

art to the ’027 patent, and so they do not fall into this situation. We decline
to extend the language in Therasense so far from the conventional situation
of prior art patents that it was contemplating, to include patents that have not
been shown to be prior art to the claimed invention.
Having reviewed Patent Owner’s evidence, we agree with Patent
Owner that it has shown that it is entitled to a presumption of a nexus
between the evidence secondary considerations tied to the X-Sync chainring
and the invention recited in the challenged claims. In particular, we find that
Patent Owner has shown that the various X-Sync chainrings are covered by
the challenged claims and are coextensive with them. See Ex. 2074 ^[61,
62 (testimony of Dr. Sturges that the products practice the claims);
Ex. 2078-2089, 2119 (claim charts); Ex. 2076
of products Patent Owner sells); Ex. 2118

11 (explaining the families

10 (explaining the families of

products Patent Owner sells). Here, the claims are directed to chainrings, as
well as cranksets and drivetrains that include chainrings. Thus, there is a
presumption of a nexus between the evidence of secondary considerations
tied to the X-Sync chainring, as well as to cranksets and drivetrains that
include the X-Sync chairing, and the challenged claims that recite those
bicycle components. See Polaris Indus., 882 F.3d at 1073 (“[The challenged
claims] broadly cover the entire vehicle, rather than ‘only a component of a
commercially successful machine.’ . . . Moreover, the Board did not point to
any limitation it found missing in the RZR vehicles. On these undisputed
facts, we hold that the Board erred in failing to find that Polaris’s eight RZR
vehicles are the inventions disclosed in [the claims].” (citation omitted)).
Petitioner tries to rebut this presumption of a nexus by attempting to
shift the burden of proof to Patent Owner to prove the objective indicia is

App. 114a

tied to certain claimed features rather than unclaimed features present in the
commercial embodiments. Pet. Reply 24-25. We agree with Patent Owner
that this argument improperly attempts to shift the burden to Patent Owner.
Sur-Reply 8-9. Here, because Patent Owner has shown that it is entitled to a
presumption of a nexus between the X-Sync chainring and the challenged
claims, the burden is on Petitioner to rebut that nexus. Demaco, 851 F.2d at
1392.
With respect to the improved chain retention of the X-Sync chainring,
Petitioner argues that there are numerous unclaimed features, many of which
are touted in advertising materials, but Petitioner asserts that none of the
claimed features are touted. Pet. Reply 31-32. Petitioner argues that “[i]n
light of the unclaimed features touted by [Patent Owner] and the press, and
in the absence of any touting/recognition for the combination,” Patent
Owner cannot establish a nexus between the claimed invention and the
objective indicia. Id. at 32 (citing Ethicon Endo Surgery, Inc. v. Covidien
LP, 812 F.3d 1023, 1035 (Fed. ’Cir. 2016)). Although Petitioner points to
some evidence touting other features, see id. at 31 (citing Exs. 1038, 1054,
1055), 40-41 (citing Exs. 2005, 2008, 2027), we find that this evidence is
insufficient to overcome the presumption of a nexus that Patent Owner has
established. Moreover, much of the evidence i s clearly broader than
Petitioner acknowledges. In addition to pointing out unclaimed features,
there is also praise pointing generally to the “unique tooth profile,”
Ex. 2006, “tooth profile,” Ex. 2008, Patent Owner’s “adaptation of the
narrow-wide chainring tooth profile,” Ex. 2019, and the “cleverly profiled
chainring,” Ex. 2023.

App. 115a

We find that the evidence shows that, in addition to touting specific
features, the praise is also broadly directed to the X-Sync chainring’s entire
implementation of the narrow/wide tooth concept, including the claimed
features. Weighing the evidence together, we find that Petitioner has failed
to carry its burden of rebutting the presumption of a nexus. At best,
Petitioner has offered conjecture that these unclaimed features could play a
role in improved chain retention, but we find that this is insufficient to rebut
the presumption of a nexus. See Polaris, 882 F.3d at 1072 (explaining that
to rebut presumption of nexus the patent challenger must “present[ ]
evidence to show that the [objective evidence] was due to extraneous factors
other than the invention”).5
Petitioner also argues Patent Owner sells X-Sync chainrings in at least
three different ways—(1) individual chainrings; (2) cranksets including the
X-Sync chainring along with two crank arms and an axel; and (3) nine
different IX6 drivetrain group sets that include a number of components
including the X-Sync chainring. Pet. Reply 22. Petitioner asserts that the
majority of sales data provided by Patent Owner is for cranksets, not
individual chainrings. Id. at 23-24. Petitioner contends that Patent Owner

5 This case is distinguishable from Ethicon Endo where the evidence
demonstrated that the success was “primarily attributable to a single feature
present in the prior art, varying staple size, rather than the combination of
prior art features.” Ethicon Endo, 812 F.3d at 1034. We find that no such
evidence attributing the success or improved chain retention primarily to one
or more features found in the prior art is present here.
6 “IX” is a term used to identify mountain bike drivetrains that use a single­
chainring. See Ex. 1046 ^ 8-14 (explaining mountain bike drivetrain
market). For example, 1X11 would be a drivetrain with a front single
chainring and a back 11 speed gear cassette. Id.

App. 116a

has not shown that the claimed chainring is coextensive with the
commercially sold cranksets and drivetrains, and, thus, concludes that there
is no presumption of a nexus. Id. at 24. We agree with Petitioner that, to the
extent that the sales of the X-Sync chainring were sales of cranksets and
drivetrains, they are not coextensive with some of the claims. However, as
Patent Owner correctly points out, these sales of commercial products are
coextensive with claims 5 and 18, which recite a bicycle crankset including a
chainring, or claims 6 and 19, which recite a bicycle drivetrain including a
chainring. Sur-Reply 7. Thus, while we agree with Petitioner that, to the
extent that Patent Owner presents sales information for cranksets or
drivetrain group sets alone, that sales information is not coextensive with
claims 1-4 and 13-17, which are directed only to chainrings, the same is not
true for claims 5, 6, 18, and 19. Demaco, 851 F.2d at 1392 (“When the thing
that is commercially successful is not coextensive with the patented
invention

for example, if the patented invention is only a component of a

commercially successful machine or process—the patentee must show prima
facie a legally sufficient relationship between that which is patented and that
which is sold.”).
As we discuss below, the same conclusion applies to evidence that
only praises Patent Owner’s drivetrains, and does not focus on, or mention,
the benefits of the X-Sync chainring. That broader evidence would also not
have a nexus to claims 1^4 and 13-17. Demaco, 851 F.2d at 1392.
However, as we stated above, Patent Owner’s expert has shown that
cranksets incorporating the X-Sync chainring include the features recited in
claims 5 and 18, and drivetrains incorporating an X-Sync chainring are
covered by claims 6 and 19. See, e.g., Ex. 2119, 4-5 (claims 5 and 6 for

App. 117a

SRAM’s 018.011 X-Sync chainring), 8-9 (claims 18 and 19 for same
chainring). Because those claims are coextensive with cranksets and
drivetrains, respectively, we find that those claims are still entitled to a
presumption of a nexus for evidence of secondary considerations tied to
cranksets and drivetrains that include the X-Sync chainring, respectively.
Finally, Petitioner argues that Patent Owner’s wide-range rear
cassettes are what drove the demand for and success of Patent Owner’s
drivetrains, not the X-Sync chainring. Pet. Reply 26-31. There is no
dispute that the improved gearing of Patent Owner’s rear cassette enabled
more riders to use single chainring drivetrains. Id. at 26-28 (citing Ex. 1046
IffI 8—13; Ex. 1045-A, 48:24—49:17; Ex. 1061, 2). However, Patent Owner
has presented extensive testimony that, whatever the advantages of the rear
cassette, it was the development of the X-Sync chainring that made it
possible. Sur-Reply 10. As Mr. Ritzier explained at his deposition:
Q. ... To what do you attribute the success of X-SYNC
chainring sales?
A. I attribute the success of chainring sales directly to their ability
to hold the chain on without a chain guide or chain management
system. Before X-SYNC bicycles featured additional devices to
control chain management. They featured guides and guards and
rollers. All these things were complex. All of them added
elements of friction or lower performance, and when we
designed X-SYNC, we designed the guiding and guarding into
the chainring, which prevents the chain from falling off and
makes the one-by drivetrain possible. When you look at the
initial success of X-SYNC chainrings, we were blown away, we
were surprised, we were - I’d say critical of the potential
ourselves internally, and then we started to experience a
performance externally through test driving, through validation
with athletes, through the media feedback. We were amazed
with the potential that that product technology had to offer. Since
we released product it’s obviously appealed to a wide number of

App. 118a

both our customers as well as competitors as it's been copied
many, many times over.
* * *

Q. Do you attribute the success of the X-SYNC chainrings to the
sales of assets or rear derailleurs associated with those
chainrings?
A. I think that the success of the chainrings is largely independent
of the success of the cassettes and the other components. We sell
X-SYNC chainrings above and beyond or one-by drivetrains for
mountain. You see one-by drivetrains made by many consumers
at home featuring chainrings that copy our design. I think it all
comes down to the fact that the chainring offers up the
possibility, the real estate and the potential to make a one-by
drivetrain that does not lose its chain.
Ex. 1045-A, 103:3-104:21; see also Ex. 1045-A, 104:22—106:12 (providing
further explanation). We have reviewed Mr. Ritzier’s testimony and find it
well-reasoned, and supported by extensive evidence of praise that the XSync chainring has received. Thus, we give it substantial weight.
Petitioner’s evidence to the contrary is not persuasive. For example,
Petitioner cites Exhibit 2009, which is cited by Petitioner for its praise of the
rear cassette, but also includes extensive praise of the X-Sync chainring, and
mentions that it reduces friction in the system, which is consistent with
Mr. Ritzier’s testimony. Ex. 2009, 2. Exhibit 2015, which is also cited by
Petitioner for this point, praises the X-Sync chainring, and notes that one of
the challenges of moving to a single ring setup is that you “[l]ose that front
derailleur and you start losing the chain more often,” and that this is why
“just about everyone who runs a single ring also runs some sort of guide.”
Ex. 2015, 3. Exhibit 2015 concludes by noting that Patent Owner was also
introducing “a special chainring that retains chains all by its lonesome” with
“some oddly-shaped teeth on that chainring,” and that “being able to run a

App. 119a

single-ring setup without the added friction and weight of a chain
guide ... it’d be a significant improvement.” Id. Thus, again, we find this
evidence consistent with, and corroborative of, Mr. Ritzier’s testimony.
Moreover, given the corroboration of Mr. Ritzier’s testimony and his
detailed explanation, we give it more weight than the testimony of
Petitioner’s witness, Mr. Adam Marriott, to the contrary.
Petitioner attempts to rebut Mr. Ritzier’s testimony by contending that
Patent Owner’s “Type 2 rear derailleur with Roller Bearing Clutch
technology (known as ‘X-Horizon’ and included in the XXI group set)
already minimized chain disengagement.” Pet. Reply 29 (citing Ex. 1044,
75:12-77:9). However, the fact that the rear derailleur might help the
system perform better does not outweigh the extensive evidence that the XSync chainring is an essential part of chain retention in Patent Owner’s IX
drivetrain systems. Indeed, the evidence suggests that clutch derailleurs and
larger cassettes had existed for many years, Ex. 1044, 76:6-17, Ex. 1045-A,
104:22-106:12, but, as Petitioner’s evidence notes, IX drivetrain systems
were not readily available before Patent Owner’s introduction of the XXI
drivetrain incorporating the X-Sync chainring, Ex. 1037, 1 (“In fact, the
question most riders will ask after riding [Patent Owner’s] XXI [drivetrain]
will be, ‘Why has it taken so long for the industry to figure this out?”’). The
importance of the X-Sync chainring is also not inconsistent with Patent
Owner’s efforts to market and sell the chainring as part of a drivetrain
system, which merely may suggest an effort to maximize profits. Indeed, it
may be rational given Patent Owner’s presented evidence that competitors
were not copying its derailleur, but instead they are copying its chainring.

App. 120a

See Ex. 1045-A, 114:7-115:15; Ex. 2074

73-77; Ex. 2076

40-49;

Ex. 2077.
Petitioner also argues that the X-Sync chainring did not entirely
eliminate the need for a chain guide, as evidenced by Patent Owner’s own
statements and advertisements in Exhibit 2007 and Exhibit 1062. Pet.
Reply 29-30. But the ’027 patent only seeks to provide a bicycle that “can
successfully and reliably be ridden over rough and challenging terrain,”
Ex. 1001, 1:28—31, not to eliminate chain drop for all riders under all
circumstances. Petitioner’s cited evidence is not inconsistent with this
objective and solution. Exhibit 2007 merely leaves it to the rider to
determine whether they are comfortable without a chain guide. Ex. 2007, 2.
Exhibit 1062 is a profile of a professional mountain bike racer whose bike is
pictured with a chain guide. Ex. 1062, 1. Exhibit 1062 provides no
explanation about the chain guide. See id. This evidence is entirely
consistent with other evidence that aggressive riders may still require
additional chain management, even with the X-Sync chainring. Ex. 2019, 3;
Ex. 1045-A, 117:2-11.
Thus, considering the evidence in the record as a whole, we find that
Petitioner has not rebutted Patent Owner’s presumption of a nexus with
respect to evidence of secondary considerations tied to the X-Sync chainring
for all of the challenged claims, and to evidence of secondary considerations
tied to a crankset or drivetrain group set including for the X-Sync chainring
for claims 5, 6, 18, and 19.
2.

Commercial Success

Patent Owner has presented extensive evidence that its X-Sync
chainrings have achieved significant sales volumes, have achieved large

App. 121a

sales growth, have grown to a majority of their chainring sales, and have
allowed them to grow from a small share to a significant share of the single
chainring market. PO Resp. 17-25.
Petitioner argues that Patent Owner’s data fails to show commercial
success, because it only shows that the X-Sync chainring sales
“cannibalized” its other multi-chainring sales. Pet. Reply 32. Petitioner
asserts that Patent Owner’s sales of X-Sync chainrings have not increased its
market share of the mountain bike chainring market, but instead its market
share has been falling since 2013. Id. at 33. Petitioner contends that “[i]n
the absence of growth in [Patent Owner] ’s mountain bike chainring market
since the introduction of the X-Sync, [Patent Owner]’s purported evidence
of commercial success for the inboard-offset chainrings does not require a
holding that the challenged outboard-offset claims are nonobvious.” Id.
We have reviewed Patent Owner’s evidence of sales and market
share, and find that it demonstrates substantial commercial success within
the single chainring market for the inboard-offset chainrings. Ex. 2076
1ff[ 16-29. In particular, we find the large growth in market share and sales
volume, and resulting large market share in the single chainring market, to
be indicative of commercial success. Id. ffl[ 20-29. We do not agree with
Petitioner’s argument that Patent Owner’s growth in the single-chainring
market was primarily due to cannibalization of its multi-chainring market
share, and that Patent Owner’s lack of achieved growth in the overall
chainring market (single- and multi-) indicates that there was no commercial
success. As Patent Owner notes, cannibalization does not preclude
commercial success. See Medtronic, Inc. v. Daig Corp., 789 F.2d 903, 907
(Fed. Cir. 1986). Moreover, Patent Owner presented evidence that it has

App.122a

achieved this large market share, in the single-chainring market, while
charging between two and eight times the prices of its competitors in the
single chainring market. Ex. 2076 f 13 (stating that Patent Owner’s X-Sync
chainrings are sold for more than $90, which is at least twice as expensive as
the Race Face chainrings, and in some cases eight times more expensive).
Patent Owner also noted that this large market share does not include the
sales of its competitors who are licensees. Id.

26-29; see also Tr. 16:12—

15 (agreeing that Patent Owner’s drivetrain as a whole was a commercial
success).
However, two things significantly diminishes and eliminates the
weight we give this evidence. As Patent Owner admitted, its sales of the
outboard-offset chainrings are minimal relative to the inboard-offset
products. Ex. 2076

11; PO Resp. 19. Thus, this evidence is directed

primarily at the inboard- offset products. Moreover, as we noted above,
Petitioner points to evidence that the sales information presented is primarily
directed to sales of X-Sync chainrings as parts of cranksets and drivetrain
group sets. See Pet. Reply 21-24. We found above that, for data related to
cranksets and group sets, Patent Owner has only established a nexus for
claims 5, 6, 18, and 19.
Thus, we find that, at best, this commercial success information is
only applicable to claims 5, 6, 18, and 19, and even there, the commercial
success information is primarily directed to inboard-offset products only.
Accordingly, we find that the commercial success of the inboard-offset XSync chainrings is entitled, at best, to very little to no weight in favor of non­
obviousness of claims 5, 6, 18, and 19.

App. 123a

3.

Industry Praise and Skepticism
a.

Industry Praise

Praise from industry participants, especially competitors, is probative
as to obviousness because such participants “are not likely to praise an
obvious advance over the known art. Thus, if there is evidence of industry
praise of the claimed invention in the record, it weighs in favor of the non­
obviousness of the claimed invention.” Apple Inc. v. SamsungElecs. Co.,
839 F.3d 1034, 1053 (Fed. Cir. 2016) (en banc).
Patent Owner presents extensive evidence of industry praise and
awards that its X-Sync chainring products have received. PO Resp. 25-36;
Sur-Reply 5-6; Exs. 2076

52-67; 2074

65-69; 2006, 2-3 (praising

teeth design as “mechanical duct tape”); 2007, 4 (noting lack of chain drop
and suggesting that bike can be trail ridden without a chain guide); 2008, 2
(noting lack of chain retention issues, discussing tooth shape); 2009, 2
(praising chainring); 2010, 1 (noting lack of chain drop); 2011, 1 (praising
chainring); 2012, 2 (praising teeth design), 4 (noting chain retention); 2013,
2 (noting chain retention of X-Sync chainring); 2014, 5 (praising X-Sync
chainring as “unique” and noting it removes the need for a chain guide);
2015, 3 (praising X-Sync chainring for potentially removing the need for a
chain guide); 2016, 1 (noting X-Sync narrow and wide teeth the “was in part
the catalyst” for the change to IX transmissions); 2017, 4 (praising X-Sync
chainring and noting “complicated design” of narrow-wide teeth); 2019, 3^1
(“Innovation of the Year Award” for “SRAM X-Sync Narrow-Wide
Chainring”); 2023 (noting no need for a chain guide).
Petitioner argues that none of the articles cited mentions the “offset”
feature or the combination of the narrow wide teeth and offset features. Pet.

App.124a

Reply 40. Instead, Petitioner argues that the praise is focused either on the
IX mountain bike drive train alone, or even when it mentions the X-Sync
chainring, it does so only in the context of the entire drive train. Id.
Petitioner also argues that the articles praise unclaimed features such as the
“tall,

?? 44

hooked,” and “asymmetric” teeth. Id. at 40-41. Finally, Petitioner

asserts that some of the articles only praise the narrow/wide teeth, which are
found in the prior art. Id. at 41.
We disagree with Petitioner that Patent Owner has failed to establish a
nexus between the praise and the claimed inventions. Instead, as we
discussed in detail above, we find that Patent Owner has established a strong
presumption of a nexus between the claims and the evidence of secondary
considerations tied to the X-Sync chainring. See supra II.E. 1. As we
discussed above, Patent Owner has shown that the X-Sync chainring
embodies the claimed invention and is coextensive with it. Moreover,
Petitioner fails to direct us to where the industry praise is directed only to the
inboard-offset feature. Indeed, our review of these articles indicates that the
praise is focused on the X-Sync chainring generally. Therefore, Patent
Owner is entitled to a presumption of a nexus between the challenged claims
and the X-Sync chainring. To the extent that the articles praise the entire
drivetrain, we found above, in our discussion of commercial success that
claims 6 and 19 recite a drivetrain and are, thus, coextensive with the
drivetrain and entitled to a presumption of a nexus regardless. Furthermore,
as we explained above, Patent Owner has established that the X-Sync
chainring technology is an essential part of what enabled it to develop the
entire drivetrain, which outweighs the evidence that Petitioner presents to

App. 125a

rebut the nexus, namely, that the evidence of objective indicia of non­
obviousness is tied to the rear cassette.
In any event, we find that Patent Owner has presented ample evidence
of praise that is tied directly to the X-Sync chainring. See Exs. 2006, 2-3
(praising teeth design as “mechanical duct tape”); 2007, 4 (noting lack of
chain drop and suggesting that bike can be trail ridden without a chain
guide); 2008, 2 (noting lack of chain retention issues, discussing tooth
shape); 2009, 2 (praising chainring); 2010, 1 (noting lack of chain drop);
2011, 1 (praising chainring); 2012, 2 (praising teeth design), 4 (noting chain
retention); 2013, 2 (noting chain retention of X-Sync chainring); 2014, 5
(praising X-Sync chainring as “unique” and noting it removes the need for a
chain guide); 2015, 3 (praising X-Sync chainring for potentially removing
the need for a chain guide); 2016, 1 (noting X-Sync chainring narrow and
wide teeth the “was in part the catalyst” for the change to IX transmissions);
2017, 4 (praising X-Sync chainring and noting “complicated design” of
narrow-wide teeth); 2019, 3-4 (“Innovation of the Year Award” for “SRAM
X-Sync Narrow-Wide Chainring”); 2023 (noting no need for a chain guide).
Indeed, as the collection of quotes from the articles cited above makes
clear, the praise focuses directly on the ability of the chainring to improve
chain retention without a chain guard. See id. Thus, we do not agree with
Petitioner that the praise is directed to the unclaimed components of the
drivetrain, and not the chainring. To the extent that some articles noted by
Petitioner use words such as the “tall, 99 a hooked,” and “asymmetric” teeth,
we find that those references, without more explanation as to their exact
meaning, do not rebut the presumption of a nexus. Moreover, none of the
articles that include the references to the “tall, 99 U hooked,” and “asymmetric”

App. 126a

teeth purport to attribute all of the benefits of the X-Sync chainring to those
attributes. See, e.g., Ex. 2008, 2. Thus, we do not agree that those
references alone can carry Petitioner’s burden of rebutting the presumption
of nexus that Patent Owner has met.
Finally, we further note that, as we found above, see supra at pp. 2122, the general praise of the X-Sync chainring applies to both the inboardoffset and outboard-offset chainrings. Thus, we do not agree with Petitioner
that this evidence is irrelevant to claims 1-6 and 13-19 because they claim
outboard-offset chainrings.
As for the fact that some of the articles only mention wide narrow
teeth, we do not agree with Petitioner that this establishes that the praise was
only directed to the features found in the prior art. Indeed, Exhibit 2019
makes clear that it is not just wide-narrow teeth, but Patent Owner’s
“adaptation of the narrow-wide chainring tooth profile,” as embodied in the
X-Sync, that was “the missing piece in the single-chainring drivetrain
puzzle.” Ex. 2019, 3. Thus, even this article indicates that it is not merely
the narrow-wide profile, but Patent Owner’s implementation of it in the XSync chainring—which we have found embodies and is coextensive with the
claims—that resulted in the innovation. Id. Thus, we are not persuaded by
Petitioner’s arguments that there is no nexus between the praise and the
challenged claims. We find this evidence indicative of non-obviousness and
entitled to significant weight in our analysis.
b.

Skepticism

Evidence of industry skepticism weighs in favor of non-obviousness.
See United States v. Adams, 383 U.S. 39, 52 (1966). “If industry
participants or skilled artisans are skeptical about whether or how a problem

App.127a

could be solved or the workability of the claimed solution, it favors non­
obviousness.” WBIP, LLCv. Kohler Co., 829 F.3d 1317, 1335 (Fed. Cir.
2016).
Patent Owner presents evidence of skepticism from various magazine
articles reviewing the X-Sync chainring. PO Resp. 25-31. Petitioner’s
argument against this evidence is the same considered with respect to
industry praise—i.e., that there is no nexus. Pet. Reply 40-41. As we
explained above, Patent Owner is entitled to a presumption of a nexus
between the evidence of secondary considerations tied to the X-Sync
chainring and the claims, and Petitioner has failed to rebut that presumption.
We have reviewed the evidence of skepticism presented by Patent Owner,
and find that Patent Owner has made a significant showing of skepticism
within the industry towards the effectiveness of the X-Sync chainring
regarding chain retention. Exs. 2008, 2011, 2012, 2014, 2015. For instance,
one article noted that “[m]ore than a few editors on site were concerned
about the lack of a chain guide on our test bikes” and that “one editor
insisted that SRAM had embedded high-power magnets into the CNCmachined aluminum chainring (alas, there were none).” Ex. 2008. As
summarized on pages 27 to 31 of the Patent Owner Response, this was not
the only statement of skepticism by industry participants. See PO Resp. 2731. We find this substantial amount of evidence indicative of non­
obviousness and entitled to significant weight in our analysis. See WBIP,
829 F.3d at 1335.
4.

Long-Felt Need

“[Existence of a long felt but unsolved need that is met by the
claimed invention is further objective evidence of non-obviousness.”

App. 128a

Millennium Pharms., Inc. v. Sandozlnc., 862 F.3d 1356, 1369 (Fed. Cir.
2017). “Evidence of long-felt need is particularly probative of obviousness
when it demonstrates both that a demand existed for the patented invention,
and that others tried but failed to satisfy that demand.” Id.
Patent Owner argues that the problem of maintaining a chain on a
chainring has existed for more than 100 years. PO Resp. 42 (citing
Exs. 2048-2062; Ex. 2074 ^ 15, 78, 79). Patent Owner contends that prior
art attempts to solve the problem failed to address several issues. Id. Patent
Owner argues that prior art solutions had issues with increasing one or all of
complexity, weight, and drivetrain friction. Id. Patent Owner asserts that
“[t]hese prior art devices have existed for more than 100 years, but have
failed to improve chain retention without the known problems of increased
complexity, weight, and/or drivetrain friction.” Id. at 43. Patent Owner
contends that “[t]he claimed invention addressed the long-felt need for
improved chain retention without the known problems of increased
complexity, weight, and/or drivetrain friction.” Id.
Petitioner argues that because “the market for IX drivetrains was
insignificant before [Patent Owner’s] 2012 introduction of its wide-range
rear cassette that made IX mountain biking available to the masses,” and “in
a multi-chainring system, the front derailleur (which is indispensable)
minimizes chain drop irrespective of the type of chainring,” there was no
persistent need that was recognized by those of ordinary skill in the art to
solve the problem of chain drop without a chain guide in either a single- or
multi-chainring drivetrain. Pet. Reply 39 (citations omitted). Thus, in
essence, Petitioner argues that there was no long-felt need. In addition,
Petitioner argues that, even if we find there was a long-felt need, there is no

App. 129a

nexus to the merits of the claimed invention, because Patent Owner has not
“shown the alleged long-felt need was solved by the claimed combinations
of [narrow/wide] teeth with inboard/outboard offset, and not by the
unclaimed chain-retention features of the X-Sync or by [Patent Owner’s]
Type 2 rear derailleur.” Id.
We find that Patent Owner has shown strong evidence that a long-felt
need existed in the bicycle industry for improved chain retention that did not
increase the known problems of complexity, weight, and/or drivetrain
friction. As Patent Owner’s evidence indisputably shows, skilled artisans in
the bicycle arts have endeavored to address the problem of chain retention
for over 100 years. See Ex. 2074 179 (citing Exs. 2048-2062); Ex. 2076
If ^O; Ex. 2118

12. Patent Owner also presents persuasive evidence that a

significant shortcoming in these prior art solutions was that they each
increased complexity, weight, and/or drivetrain friction. Ex. 2074 | 80;
Ex. 2076 If 50; Ex. 2118 ^ 12. Indeed, Petitioner’s expert, Dr. Neptune,
conceded that there was a long-felt need for “a multi-geared bicycle that
could be reliably ridden over rough terrain without the aid of a chainretaining device external to the chainring.” Ex. 2129, 78:12-17. Although
Petitioner’s witness, Mr. Marriott, testified that there was no long-felt need
regarding chain drop, because chain guides kept the chain on the chainring,
Ex. 1075, 69:24-70:3, he did not address the narrower problem that Patent
Owner articulated, and Dr. Neptune admitted. As for Petitioner’s other
contention—based on other testimony by Mr. Marriott (see Ex. 1046 f 16)—
that there was no market for IX chainrings, and hence no long-felt need , we
find this belied by Dr. Neptune’s concession, and Mr. Ritzler’s testimony,
that it was not that such systems were not wanted, but that they were not

App. 130a

feasible, in part, due to the problems of increased complexity, weight, and/or
drivetrain friction that were discussed above. See Ex. 1045-A, 103:2104:21. As we discussed above, we find Mr. Ritzler’s testimony persuasive
and give it substantial weight. Thus, we do not find Mr. Marriott’s
testimony persuasive about long-felt need.
We also find that Patent Owner has demonstrated that the X-Sync
chainring met this long-felt need. In particular, Dr. Sturges testified that the
X-Sync chainring met this need. Ex. 2074

78-84. We find this testimony

reasoned and persuasive, and give it substantial weight. Moreover, this
testimony is supported by and consistent with the effusive praise and awards
discussed above with regard to industry praise that further supports this
finding. See, e.g., Exs. 2006, 2008, 2015, 2019. Moreover, the mere fact
that there may be certain conditions when chain guards are still used, see,
e.g., Ex. 1075, 80:23-81:10, does not mean that the X-Sync chainring did
not satisfy the long-felt need articulated, id. at 86:9-15 (Mr. Marriott
conceding that X-Sync chainrings do a “good job” of keeping the chain on
the chainring).
As for Petitioner’s contention, discussed above, that there is no nexus
between the evidence of secondary considerations tied to the X-Sync
chainring and the claimed invention, we disagree. As we have found above,
Patent Owner has shown that it is entitled to a presumption of a nexus
between the evidence of secondary considerations tied to the X-Sync
chainring and the challenged claims, and that presumption has not been
rebutted. See supra Section II.E. 1. We also further explained above, with
regard to industry praise, that Petitioner has not rebutted this presumption.
Furthermore, as we explained above relying on the testimony of Mr.

App.131a

Wesling, the fact that there are both inboard-offset and outboard-offset
embodiments, does not change our conclusion. See supra at pp. 21-22.
Thus, we find that the claimed inventions of the ’027 patent met the long-felt
need of improved chain retention, without the known problems of increased
complexity, weight, and/or drivetrain friction. We find that Patent Owner’s
showing of long-felt need is entitled to significant weight in our analysis.
5.

Licensing

Courts “specifically require affirmative evidence of nexus where the
evidence of commercial success presented is a license, because it is often
‘cheaper to take licenses than to defend infringement suits.’” Iron Grip
Barbell Co. v. USA Sports, Inc., 392 F.3d 1317, 1324 (Fed. Cir. 2004)
(quoting EWP Corp. v. Reliance Universal Inc., 755 F.2d 898, 908 (Fed. Cir.
1985)). The Federal Circuit has explained that “[w]hen the specific licenses
are not in the record, it is difficult for the court to determine if ‘the licensing
program was successful either because of the merits of the claimed invention
or because they were entered into as business decisions to avoid litigation,
because of prior business relationships, or for other economic reasons.’” In
re Cree, Inc., 818 F.3d 694, 703 (Fed. Cir. 2016) (quoting In re Antor Media
Corp., 689 F.3d 1282, 1294 (Fed. Cir. 2012)).
Patent Owner argues that it offers “an open license program where
any competitor may license the X-Sync technology for a reasonable
royalty.” PO Resp. 37. Patent Owner asserts that “[w]ith this program,
[Patent Owner] has already licensed the ’027 patent, as well as the X-Sync
technology to at least eight different companies, some of whom are major
market players.” Id. Specifically, Patent Owner contends that it has entered
into a number of licenses with major bicycle manufacturers and bicycle

App.132a

component providers. Id. at 38-39 (citing Exs. 2091-2106; Ex. 2076
37; Ex. 2074

32-

70-72).

Petitioner responds that five of the eight licenses (Exs. 2092-2100)
provided by Patent Owner do not refer to the ’027 patent. Pet. Reply 33.
Instead, Petitioner notes that “they are licenses to [Patent Owner’s] German
Utility Model (DE 20 2012 012 533 Ul, ‘Kettenring’) and corresponding
patents/patent applications with claims differing from those of the ’027
patent.” Id. at 34. Petitioner argues that “the German claims do not recite
any ‘offset’, which is one of the alleged ‘principal features’ of the ’027
[patent] claims.” Id. Petitioner argues that because these licenses are not to
the ’027 patent and “do not cover either of the inventions claimed in the
’027 patent, [Patent Owner] does not (and cannot) show nexus between
these licenses and the claimed invention.” Id. Petitioner also asserts that
two other licenses (Exs. 2102 and 2104) “prove nothing about the value of
the ’027 [patent] claims” because they cover numerous other continuations
and international patents/applications. Id. Finally, Petitioner notes that the
final license (Ex. 2106) is irrelevant because it was entered into to settle a
lawsuit. Id.
We determine that these licenses are entitled to some weight in our
obviousness analysis. However, we agree, in part, with Petitioner that some
of the licenses have limited probative value. For instance, we agree with
Petitioner that the license with Wolf Tooth (Ex. 2106) is entitled to less
weight because it was entered into to settle a lawsuit. There is no evidence
suggesting that it was the merit of the ’027 patent, as opposed to the desire
to save litigation costs, that drove the license. See EWP Corp. v. Reliance
Universal Inc., 755 F.2d 898, 907-08 (Fed. Cir. 1985) (explaining that it is

App. 133a

often “cheaper to take licenses than to defend infringement suits, or for other
reasons unrelated to the unobviousness of the licensed subject matter.”). As
for the remaining licenses, while we agree with Petitioner that the fact that
the licenses cover a number, of patents affects the weight they should
receive, we do not agree that the fact that the licenses cover more than just
the ’027 patent means that they are entitled to no weight. In particular, we
note that the licenses with both Saris Cycling Group (Ex. 2102) and White
Industries (Ex. 2104) both explicitly mention the ’027 patent, and were not
entered into to settle litigation. Ex. 2076 137. Thus, we find that they are
entitled to some weight.
Finally, as for the remaining licenses—Chromag Bikes (Ex. 2092),
Accell Group N.V. (a.k.a Winora-Staiger) (Ex. 2094), KCNC International
(Ex. 2096), Quality Bicycle Products, Inc. (Ex. 2098), Cannondale Bicycle
(Ex. 2100), Petitioner is correct that they do not list the ’027 patent, but
cover “the invention(s) described in German Utility Model DE 2012 012 533
U1 - ‘Kettenring’7 and any patent applications corresponding to the abovedescribed Utility Model that are issued, filed, or to be filed in any and all
foreign countries and the know-how associated with the inventions defined
by the patent.” See, e.g., Ex. 2092, 1. Patent Owner has offered evidence
that the disclosure of “Kettenring” is commensurate in scope with the ’027
patent. Ex. 2074 f 71. Moreover, there is no dispute that the ’027 patent is
an application “corresponding to [Kettenring]” and is within the scope of
these licenses. Id. \ Ex. 2076 ^ 11. Petitioner is correct that these licenses,
which cover a number of applications and patents throughout the world, and

7 As Patent Owner explains, “Kettenring” is the German word for chainring.
Ex. 2076 f 36.

App. 134a

entered into before the ’027 patent issued, have limited probative value into
the non-obviousness of the claims of the ’027 patent. We disagree, however,
with Petitioner that these licenses have no probative value. We find that
these licenses do have some value in showing that the inventions covered by
’027 patent have had some acceptance in the industry, and, thus, these
licenses are entitled some weight.
In sum, we conclude that Patent Owner’s evidence of licensing is
entitled to some, but not significant, weight.
6.

Copying

“Copying may indeed be another form of flattering praise for
inventive features.” Crocs, Inc. v. Int’l Trade Comm ’n, 598 F.3d 1294, 1311
(Fed. Cir. 2010). “[C]opying requires evidence of efforts to replicate a
specific product.” Wyers v. Master Lock Co., 616 F.3d 1231, 1246 (Fed.
Cir. 2010). “This may be demonstrated either through internal documents;
direct evidence such as disassembling a patented prototype, photographing
its features, and using the photograph as a blueprint to build a virtually
identical replica; or access to, and substantial similarity to, the patented
product (as opposed to the patent).” Iron Grip Barbell Co. v. USA Sports,
Inc., 392 F.3d 1317, 1325 (Fed. Cir. 2004) (internal citations omitted). “We
note, however, that a showing of copying is only equivocal evidence of non­
obviousness in the absence of more compelling objective indicia of other
secondary considerations.” Ecolochem, Inc. v. S. Cal. Edison Co., 227 F.3d
1361, 1380 (Fed. Cir. 2000); see also In re GPACInc., 57 F.3d 1573, 1580
(Fed. Cir. 1995) (“[M]ore than the mere fact of copying by an accused
infringer is needed to make that action significant to a determination of the

App. 135a

obviousness issue.” (quoting Cable Elec. Prods, v. Genmark, Inc., 770 F.2d
1015, 1028 (Fed. Cir. 1985))).
Patent Owner argues that it is “aware of at least seventeen (17)
different companies who have copied its patented technology, copying the
features of the claims of the ’027 patent.” PO Resp. 40 (citing Ex. 2076
Iflf 40, 41, 46; Ex. 2074 73-75; Exs. 2031-2047). Patent Owner submits
that the “Race Face chainrings incorporate the patented features of the ’027
[patent] claims and further details of the X-Sync chainrings, and Race Face
had sufficient access to the X-Sync chainrings.” Id. (citing Ex. 2076

47,

48).
Petitioner responds that Patent Owner has failed to show replication of
either the inboard-offset or outboard-offset chainrings “Race Face’s
chainring differs substantially from [Patent Owner’s] X-Sync chainring (the
original X-Sync and X-Sync Eagle).” Pet. Reply 35. Petitioner offers
photographs purporting to show that Race Face’s chainring does not include
the “protruding tip portion,” the “hooked rear flank,” or the “asymmetric
teeth” of Patent Owner’s chainring. Id. at 36—37. Petitioner also argues that
“Race Face did not copy the offset tooth tips feature ..., and thus there was
no copying of the claimed combination. ” Id. at 38. Petitioner also asserts
that Patent Owner “failed to show replication of its X-Sync chainring by
anyone.” Id. at 39. Petitioner also notes that “infringement of the inboardoffset claims, even if true, proves nothing about the patentability of the
challenged outboard-offset claims.” Id. at 35.
Patent Owner has put forward some evidence of copying of its
inboard-offset chainrings. Patent Owner bases its allegations of copying on
allegations of access to, and substantial similarity to, the patented product

App. 136a

(as opposed to the patent). See PO Resp. 39^0. Patent Owner has put
forward unrebutted evidence of access, which Petitioner does not appear to
dispute. Ex. 2076

47-49. Petitioner does dispute, however, the

“substantial similarity” of the Race Face chainring and Patent Owner’s XSync chainring. Pet. Reply 35-37. With respect to “substantial similarity,”
Patent Owner has provided testimony from Dr. Sturges that the Race Face
Narrow Wide chainring infringes the challenged claims of the ’027 patent,
and an identification of various features common to the products. Ex. 2074
If 75. Patent Owner also offers the testimony of Mr. Ritzier that there are
similarities between Patent Owner’s and Race Face’s products. Ex. 2076
1ft 39—49. The only evidence Petitioner offers in response are some
photographs of two of Patent Owner’s chainrings and a Race Face chainring,
and the testimony of Mr. Marriott that he “thinks” Race Face did not copy.
Exs. 1036, 1070, 1073; Ex. 1075,47:8—16. The photographs purport to
illustrate features that are different between the various products, but
Petitioner provides no testimony to support a finding that these differences
are significant. Moreover, although it is apparent from the photographs and
the labels that there are some differences between the products, the
photographs that Petitioner offers are of low quality, and it is difficult to
ascertain the significance of those differences. As for Mr. Marriott’s
testimony, we find that the testimony of what he “thinks” is merely
speculation, in that while he asserts that there are “dozens” of differences, he
fails to identify any of them with specificity. Ex. 1075, 47:8-16. As a
result, we give Petitioner’s evidence little to no weight. In comparison,
although Dr. Sturges’s testimony admittedly also does not go into great
detail, our review of the evidence indicates that his testimony is more

App. 137a

credible, and, thus, we find his testimony sufficient to establish that some
copying by Race Face has taken place.
As for Petitioner’s argument that the Race Face products lack the
claimed “offset,” Pet. Reply 37-38, Petitioner’s evidence supporting this
contention is photographs of Patent Owner’s and Race Face’s products, with
labels added to them purporting to show the lack of the claimed offset, in
that there is an alleged admission by Mr. Ritzier that an “offset” is the spatial
difference between the inboard/outboard side of the wide teeth and the
inboard/outboard edge of the chainring. Id. at 37 n. 5 (citing Ex. 1045-A,
129:17-132:9). However, we reviewed Mr. Ritzler’s testimony and find that
the cited testimony of Mr. Ritzier does not support Petitioner’s contention
that what they have labeled on page 38 of the Reply is commensurate with
what is claimed. While Mr. Ritzier does identify that as an “offset”
generally, he does not admit that is what the claim means by “offset.”
Ex. 1045-A, 129:17-132:9. In contrast, Patent Owner has provided the
testimony of Dr. Sturges that the Race Face chainrings do include the
claimed offset. We find this testimony persuasive. Ex. 2074

73-75.

Thus, Petitioner has not shown that the Race Face products necessarily lack
the claimed offset based on Mr. Ritzler’s testimony.
As for the other competitors that Patent Owner contends copied its
product, we find this evidence entitled to some weight. Petitioner argues
that there is no nexus between this copying and the claimed invention,
because Patent Owner position “[o]n the whole” is that any chainring with
narrow and wide teeth is a copy, but that feature is found in JP-Shimano.
Pet. Reply 38. However, Petitioner provides no evidence to support this
contention. Dr. Sturges testified that the Race Face chainring is

App. 138a

representative of these other products, and has identified a number of
features that he opines are copied from the SRAM X-Sync product, in
addition to the narrow/wide teeth. Ex. 2074

74, 75. Petitioner offers no

evidence to rebut this testimony. Thus, we do not find Petitioner’s
contention that the other products merely copy the features found in JPShimano to be persuasive. As we noted above, the evidence that Patent
Owner offers is not very detailed, so we find that Patent Owner’s evidence
of the 17 other copying products to be entitled to some weight, but not
significant weight.
We do agree with Petitioner, however, that because copying evidence
is limited to the inboard offset chainring, it is entitled to very limited to no
weight with respect to the outboard offset claims. Pet. Reply 35. In sum, we
determine that Patent Owner has shown some copying of its X-Sync
chainring product, which is covered by the ’027 patent. However, although
this evidence shows copying of the related inboard-offset chainring, there is
no evidence of copying outboard-offset chainring. Thus, we find this
evidence of copying overall is entitled to very limited to no weight in our
analysis.
F.

Remaining Claims and Grounds

With respect to the combination of Parachinni, JP-Shimano, and
Nagano, Petitioner argues that it would have been further obvious to modify
the combined chainring of Parachinni and JP-Shimano, discussed above, to
include the asymmetric tooth shape of Nagano “as a matter of a simple
design choice.” Pet. 67 (citing Ex. 1026

113). Petitioner relies on the

same reasoning and rationale for combining Parachinni and JP-Shimano
discussed above, and Petitioner does not contend that Nagano provides any

App.139a

additional reason to modify Parachinni in view of JP-Shimano. Id. at 67-68.
Indeed, the combination is offered only “[i]f the Board determines that
[Petitioner’s] proposed constructions of ‘teeth’ and ‘offset from the plane in
the direction toward the outboard side of the chainring’ are correct, then
[Petitioner contends that] Nagano teaches teeth reading on both claim
terms.” Id. at 68. Because we conclude above that the combination of the
teachings of Parachinni and JP-Shimano would not have been obvious, we
need not separately determine if it would have been further obvious to
modify that combination in view of Nagano, as proposed by Petitioner in the
Parachinni, JP-Shimano and Nagano ground.
Petitioner asserts that claims 3,4, 16, and 17 would have been
obvious over the combinations of Parachinni, JP-Shimano, and Hattan
and/or Parachinni, JP-Shimano, Nagano, and Hattan. Pet. 50-62, 78-88.
Claims 3 and 4 depend from claim 1 and claims 16 and 17 depend from
claim 13. Ex. 1001, 7:1-20, 8:54-67. Petitioner does not rely on Hattan for
any of the elements in claims 1 or 13, and instead relies on its analysis of the
grounds of Parachinni and JP-Shimano and Parachinni, JP-Shimano, and
Nagano for those elements. Because we find below that Petitioner has failed
to prove that claims 1 and 13 would have been obvious, and Petitioner relies
on same reasoning to account for those claim limitations in its contentions
regarding claims 3,4, 16, and 17, there is no need to reach Patent Owner’s
separate arguments, and we do not address them in this Decision.
G.

Final Conclusion of Non-Obviousness

As we explained above, we find that Petitioner has shown there would
have been a rationale to combine the references. See supra at II.D.2. But
we also find that Patent Owner has made an extremely strong overall

App.140a

showing of objective indicia of non-obviousness, which includes very strong
showings on industry praise, skepticism, and long felt need, and a weak
showing on licensing. We find that Patent Owner’s, at best, very weak
showing on commercial success and copying does not weigh significantly in
our analysis. “The objective indicia of non-obviousness play an important
role as a guard against the statutorily proscribed hindsight reasoning in the
obviousness analysis.” WBIP, 829 F.3d at 1328. Indeed, the Federal Circuit
has held that such evidence “may often be the most probative and cogent
evidence in the record.” Id. (quoting Stratoflex, Inc. v. Aeroquip Corp., 713
F.2d 1530, 1538 (Fed. Cir. 1983)). We find this to be such a case where the
objective evidence is the most probative evidence in the record. Petitioner’s
rationale to combine rests mainly on the testimony of its expert, but the
copious objective evidence demonstrates the significance and importance of
Patent Owner’s invention. Weighing all four Graham factors, we find that
Petitioner has not shown by a preponderance of the evidence that claims 1,
2, 5, 6, 13-15, 18, and 19 would have been obvious over the combinations of
Parachinni and JP-Shimano or Parachinni, JP-Shimano, and Nagano, and
claims 3,4, 16, and 17 would have been obvious over the combinations of
Parachinni, JP-Shimano, and Hattan or Parachinni, JP-Shimano, Nagano,
and Hattan.
We note that this is not a case as in Intercontinental Great Brands
LLC v. Kellogg North America Co., 869 F.3d 1336, 1342-47 (Fed. Cir.
2017), where the strong case of obviousness outweighs the objective indicia
of non-obviousness. On the contrary, we find that the case of obviousness
here is easily outweighed by the objective evidence of non-obviousness.

App.141a

III. MOTIONS TO EXCLUDE
A.

Petitioner’s Motion to Exclude

Petitioner moves to exclude SRAM Exhibit 2002
(11. 1-2), 68, and 69; Exhibit 2074

61, 65-72, 74-79, 80 (11. 1-2), 83

(11. 7-9), 84 and 85; Exhibit 2004 ^ 17; Exhibit 2076
Exhibits 2005-2047; Exhibit 2118

51-55, 59-64, 65

8, 13, 19-29, 41-50;

12; and Exhibits 2109 and 2110. Pet.

Mot. Exclude 1.
1.
a.

Testimony ofDr. Sturges

Commercial Success, Long-Felt Need,
Failure of Others, & Licensing

Petitioner seeks to exclude Paragraphs 50-52, 59, 60, 64, 67, and 68
of the First Sturges Declaration and Paragraphs 59, 63, 64, 70, 72, 78, and
81-83 of the Second Sturges Declaration8 under Federal Rules of Evidence
403, 602, and 702, and 37 C.F.R. § 42.65(a). Pet. Mot. Exclude 2^1; Pet.
Mot. Reply 1-2. Petitioner argues that Dr. Sturges has no experience in the
relevant market, and is not qualified to give expert opinions regarding
commercial success, long-felt need, failure by others, and licensing. Pet.
Mot. Exclude 2. Petitioner further asserts that Dr. Sturges lacks the requisite
personal knowledge to give such testimony. Id. at 3.
With respect to Paragraphs 50-52, 59, and 60 of the First Sturges
Declaration and Paragraphs 59, 63, 64, 70, and 72 of the Second Sturges
Declaration, we did not rely on this testimony in reaching our decision. So,
we dismiss this portion of the motion as moot.

8 We agree with Patent Owner that Petitioner’s citations to the Second
Sturges Declaration are inconsistent with the alleged problems Petitioner
identifies in its Motion to Exclude. See PO Opp. 6 n. 1. We rely on the
corrected citations identified by Patent Owner in this discussion.

App.142a

As for Paragraphs 64, 67, and 68 of the First Sturges Declaration and
Paragraphs 78 and 81—83 of the Second Sturges Declaration, we agree with
Patent Owner that this testimony is admissible. To begin with, we note that
the portion of 37 C.F.R. § 42.65(a) relied on by Petitioner deals only with
the weight that can be given evidence, not its admissibility. Thus, it is not a
proper basis for a motion to exclude. As for the objections based on the
Federal Rules of Evidence, we do not see how, nor has Petitioner met its
burden of demonstrating, that even if Federal Rule of Evidence 403 applies
to a non-jury trial like these proceedings, Petitioner is prejudiced by this
testimony. Thus, Petitioner’s Rule 403 objection is without merit. As for
the Rule 702 objection, we determine that Dr. Sturges has sufficient
expertise and has provided sufficient analysis to offer opinions regarding
long-felt need. See Ex. 2074

78, 81-83. Long-felt need is viewed from

the perspective of a person of ordinary skill in the art. In re Gershon, 372
F.2d 535, 538 (CCPA 1967). In this case, we did not find that the level of
ordinary skill in the art required special knowledge of marketing in the
bicycle industry, as Petitioner suggests. See supra Section II.B. Dr. Sturges
testified he has reviewed the art and cited to the evidence he relied upon,
including a number of references involving the problem of chain drop. See
Ex. 2074

78, 81-83. As for Rule 602, it is well-established that an

expert’s opinion need not be based on personal knowledge. See Daubert v.
MerrellDow Pharm., Inc., 509 U.S. 579, 592 (1993). As we explained,
Dr. Sturges testified about the references he reviewed, and explains why he
concludes that there a person of ordinary skill in the art would have
understood that there was a long-felt need in the art at the time of the
invention. Thus, we deny Petitioner’s Motion to Exclude Paragraphs 64, 67

App. 143a

and 68 of the First Sturges Declaration and Paragraphs 78 and 81-83 of the
Second Sturges Declaration.
b.

Copying

Petitioner seeks to exclude Paragraphs 61-63 of the First Sturges
Declaration and Paragraphs 73-77 of the Second Sturges Declaration under
Federal Rules of Evidence 403 and 702, and 37 C.F.R. § 42.65(a). Pet. Mot.
Exclude 4-5; Pet. Mot. Reply 3-4. Petitioner contends that Dr. Sturges fails
to perform a “product-to-product comparison required to demonstrate the
alleged copying” and focuses on the similarities and ignores “the many
differences between the two products.” Pet. Mot. Exclude 4-5. Petitioner
further argues that Dr. Sturges’s testimony is conclusory, that Dr. Sturges
provides no factual support for his opinion, and offers no explanation of why
or how the particular chainring he relied on is representative. Pet. Mot.
Reply 3-4. Patent Owner responds that Dr. Sturges explained the evidence
he relied upon, and properly relied on the Race Face chainring as
representative of the “copycat chainrings.” PO Opp. 7.
We agree with Patent Owner that Dr. Sturges’s testimony is
admissible. To begin with, as we noted above, the portion of 37 C.F.R.
§ 42.65(a) relied on by Petitioner deals only with the weight that can be
given evidence, not its admissibility. Thus, it is not a proper basis for a
motion to exclude. As for the objections based on the Federal Rules of
Evidence, we do not see how, nor has Petitioner met its burden of
demonstrating, that even if Federal Rule of Evidence 403 applies to a non­
jury trial like these proceedings, how Petitioner is prejudiced by admitting
this testimony. Thus, Petitioner’s Rule 403 objection is without merit. As
for the Rule 702 objection, we determine that Dr. Sturges provides sufficient

App. 144a

analysis to support his opinions regarding copying. See Ex. 2074

73-77.

Dr. Sturges cited to the evidence he relied upon, including Patent Owner’s
infringement contentions from the underlying district court litigation and
Mr. Ritzier’s testimony. Petitioner’s arguments go more to the weight that
Dr. Sturges’s testimony should be given, not its admissibility. Thus, we
deny Petitioner’s Motion to Exclude Paragraphs 61-63 of the First Sturges
Declaration and Paragraphs 73-77 of the Second Sturges Declaration.
c.

Professional Approval and Praise

Petitioner seeks to exclude Paragraphs 53, 54, and 58 of the First
Sturges Declaration and Paragraphs 65-69 of the Second Sturges
Declaration under Federal Rules of Evidence 403 and 702, and 37 C.F.R.
§ 42.65(a). Pet. Mot. Exclude 5-6; Pet. Mot. Reply 2-3. Petitioner
contends that Dr. Sturges fails to cite any specific text in the various
magazine articles he relies upon, and does not provide any specific analysis
why the praise is driven by the features of the challenged claims. Pet. Mot.
Exclude 5. Petitioner also argues that “[t]o the extent Dr. Sturges relies on
the magazine articles to demonstrate the alleged benefits of the X-Sync {see,
e.g., Ex. 2074,

67, 68), such testimony should be excluded as hearsay

under [Federal Rule of Evidence] 802.” Id. at 6. Patent Owner argues that
Dr. Sturges did provide a detailed analysis by demonstrating that the X-Sync
chainrings are covered by the patents and provides citations to the evidence
he relied upon. Pat. Opp. 8. Patent Owner further argues that Dr. Sturges is
permitted to rely on hearsay in forming his opinions. Id.
To begin with, as we noted above, the portion of 37 C.F.R. § 42.65(a)
relied on by Petitioner deals only with the weight that can be given evidence,
not its admissibility. Thus, it is not a proper basis for a motion to exclude.

App. 145a

As for the objections based on the Federal Rules of Evidence, we do not see
how, nor has Petitioner met its burden of demonstrating, that even if Federal
Rule of Evidence 403 applies to a non-jury trial like these proceedings, how
Petitioner is prejudiced by admitting this testimony. Thus, Petitioner’s Rule
403 objection is without merit. As for the Rule 702 objection, we determine
that Dr. Sturges provides sufficient analysis to support his opinions that the
X-Sync chainring has received praise and there is a nexus between the XSync chainring and the ’027 patent. See Ex. 2074
the X-Sync chainring is covered by the patent),

61, 62 (explaining how
65-69 (citing to Ex. 2076

(testimony of Mr. Ritzier); Exs. 2005-2030). Finally, we agree with Patent
Owner that Petitioner’s hearsay objection is without merit. See Fed. R.
Evid. 703 (explaining experts may rely on hearsay in forming their
opinions). Thus, Petitioner’s Motion to Exclude Paragraphs 53, 54, and 58
of the First Sturges Declaration and Paragraphs 65-69 of the Second Sturges
Declaration is denied.
2.

Testimony ofMr. Ritzier
a.

Commercial Success

Petitioner seeks to exclude Paragraphs 8 and 19-29 of the Declaration
of Ron Ritzier (“Ritzier Declaration”), an employee of Patent Owner,
regarding commercial success. Pet. Mot. Exclude 6-10. Petitioner argues
that Mr. Ritzier’s testimony is vague and conclusory and “provides no
details of his methodologies or application to whatever underlying data he
may have considered.” Id. at 7-8. Petitioner argues that because it has not
been shown that “Mr. Ritzier’s market share calculations are based on
reliable principles or methodologies, or that Mr. Ritzier reliably applied his
chosen methodologies,” Paragraphs 8 and 19-29 of the Ritzier Declaration

App. 146a

should be excluded. Id. at 8; Pet. Mot. Reply 4. Patent Owner responds that
Mr. Ritzier provided sufficient evidence of his methodologies and
experience. PO Opp. 10.
We agree with Patent Owner that Mr. Ritzier has provided sufficient
explanation of his methodologies and principles that he applied in providing
his testimony regarding commercial success. Ex. 2076

16-17, 28;

Ex. 2121 ^ 1-9. Mr. Ritzier explained the sources of the data and the way
he reached the conclusions stated in his testimony. We find this testimony
credible and give it substantial weight. Id. Accordingly, we deny
Petitioner’s Motion to Exclude Paragraphs 8 and 19-29 of the Ritzier
Declaration.
b. Copying and Long-felt Need
Petitioner seeks to exclude Mr. Ritzier’s testimony regarding copying
and long-felt need (Ex. 2004 Tf 17; Ex. 2076

41-50) as “speculative and

unsupported” under Federal Rules of Evidence 702 and 602. Pet. Mot.
Exclude 10-11; Pet. Mot. Reply 5. Patent Owner contends that Mr. Ritzier
is qualified to offer his testimony on copying and long-felt need, and that he
is permitted to testify about his personal observations. PO Opp. 11.
We agree with Patent Owner that Mr. Ritzier’s testimony regarding
copying and long-felt need is admissible. Mr. Ritzier has extensive
experience in the industry and with bicycles generally. See Ex. 2076

3, 4.

With respect to copying, his testimony is clear that he is testifying based on
his personal knowledge as Patent Owner’s vice president of product
development. See Ex. 2076

41-49. As for long-felt need, Mr. Ritzier

explains the basis for his opinion that there was a long-felt need in the
industry. We determine that Petitioner’s arguments go to the weight we

App.147a

should give Mr. Ritzier’s testimony, not its admissibility. Thus, Petitioner’s
Motion to Exclude Paragraph 17 of Exhibit 2004 and Paragraphs 41-50 of
Exhibit 2076 is denied.
3.

Exhibits 2005—2030

Exhibits 2005-2030 are various articles that Patent Owner contends
are evidence of industry praise of the products that embody the ’027 patent.
See Exs. 2005-2030. Petitioner moves to exclude Exhibits 2005-2030
under Federal Rules of Evidence 401, 403, and 802, as irrelevant, unduly
prejudicial, and hearsay, respectively. Pet. Mot. Exclude 11-12. Patent
Owner responds that Petitioner ignores its nexus showing and that its briefs
point to specific passages that discuss the industry’s recognition of the
claimed features. Pat. Opp. 12. Patent Owner also argues that the articles
are offered for a non-hearsay purpose and are, therefore, admissible.
Id. at 13.
We agree with Patent Owner that Petitioner has failed to show these
exhibits should be excluded as irrelevant. Evidence is relevant if it has any
tendency to make a fact more or less probable than it would be without the
evidence and the fact is of consequence in determining the action. Fed. R.
Evid. 401 (emphasis added). It is well-established that “[ljaudatory
statements by third parties regarding an invention are relevant to the
question of obviousness.” Asetek Danmark A/S v. CMI USA, Inc., NO. 13cv-00457-JST, 2014 WL 12644295, at *2 (N.D. Cal. Nov. 19, 2014)
(collecting cases). Petitioner’s arguments about nexus go more to the weight
this evidence should be given, rather than its admissibility.
As for Petitioner’s arguments that the evidence should be excluded
under Federal Rule of Evidence 403, Petitioner has offered no concrete

App. 148a

assertions of prejudice, so we deny this request on that basis alone. Further,
we do not discern any prejudice to Petitioner, under Federal Rule of
Evidence 403, in allowing this exhibit into evidence. In a non-jury trial,
such as before the Board, the risk that a decision by the trier of fact will be
unfairly affected by the admission of improper evidence is far less than in a
jury trial. See E.E.O.C. v. Farmer Bros. Co., 31 F.3d 891, 898 (9th Cir.
1994). As the factfinder, we are able to consider this evidence, in light of
the parties’ arguments, and give it the appropriate weight. See 22 CHARLES
Alan Wright & Kenneth W. Graham, Jr., Federal Practice and
Procedure § 5213 (1978 & Supp. 1999) (“Since the judge must hear the
evidence in ruling on the motion to exclude the evidence under Rule 403,
exclusion of the evidence on grounds of prejudice in a non-jury trial is
described as a ‘useless procedure.’”); see also Schultz v. Butcher, 24 F.3d
626, 632 (4th Cir. 1994)(finding court should not exclude evidence under
Rule 403 in non-jury trial on grounds of unfair prejudice); GulfStates
Utilities Co. v. Ecodyne Corp., 635 F.2d 517, 519 (5th Cir. 1981) (finding
unfair prejudice portion of Rule 403 “has no logical application to [non-jury]
trials”).
As for Petitioner’s hearsay objection, it is without merit because the
articles are not offered for the truth of the matters asserted in them, but to
show that the statements were made. Because the existence of the
statements themselves is relevant, “courts have properly found that articles
showing the receipt of ‘awards and accolades’ are admissible over a hearsay
objection.” Asetek Danmark A/S, 2014 WL 12644295, at *2 (collecting
cases).
Thus, we deny Petitioner’s Motion to Exclude Exhibits 2005-2031.

App. 149a

4.

Exhibits 2031—2047

Exhibits 2031-2047 are company product descriptions or store
webpages showing pictures of various competing products that Patent
Owner contends are copies of its product. See Exs. 2031-2047. Petitioner
moves to exclude Exhibits 2031-2047 under Federal Rule of Evidence 401
as irrelevant. Pet. Mot. Exclude 12-13. Petitioner argues that Patent Owner
“failed to show that each of the chainrings in these exhibits includes every
feature of the allegedly copied X-Sync chainrings, beyond a bare and
unsupported assertion by Dr. Sturges.” Id. Petitioner contends that the only
other evidence cited also has no supporting explanation, so “[a]s a result,
beyond bare assertions, [Patent Owner] presents no evidence that the
chainrings in Exhibits 2031-2047 are copies of the X-Sync chainring. . . .”
Id. at 13. Patent Owner argues that the exhibits are relevant because copying
was extensively discussed by Dr. Sturges and Mr. Ritzier. PO Opp. 13.
We agree with Patent Owner that Exhibits 2031-2047 are relevant and
admissible. Evidence is relevant if it has any tendency to make a fact more
or less probable than it would be without the evidence and the fact is of
consequence in determining the action. See Fed. R. Evid. 401. Given Dr.
Sturges’s testimony that these chainrings are copies of Patent Owner’s
products, this is sufficient to establish that these exhibits are relevant under
the low standard of Rule 401. See United States v. Whittington, 455 F.3d
736, 739 (6th Cir. 2006) (“[T]he district court correctly noted that the
relevance threshold is very low under Rule 401.”) (internal quotation marks
omitted). Petitioner’s arguments go more to the weight this evidence should
be given, rather than its admissibility. Thus, we deny Petitioner’s Motion to
Exclude Exhibits 2031-2047.

App. 150a

5.

Testimony ofMr. Wesling

Petitioner seeks to exclude Paragraph 12 of Exhibit 2118 (“Wesling
Declaration”) under Federal Rule of Evidence 702 and 37 C.F.R. § 42.65(a).
Pet. Mot. Exclude 13. In that paragraph, Mr. Wesling testifies that there was
a long-felt need for the X-Sync chainring, because existing products did not
provide the solution that the market allegedly desired to prevent chain
disengagement. Ex. 2118 ^ 12. Petitioner argues that he provides no facts
or data to support his assertion, and that this “speculative and conclusory
testimony should be excluded under FRE 702 for failure to provide
sufficient facts or data supporting his opinion.” Pet. Mot. Exclude 13; Pet.
Mot. Reply 5. Patent Owner responds that Mr. Wesling does provide
citations to various patents, and also relies on his over twenty years of
personal experience in the industry in offering this testimony. PO Opp. 14.
We agree with Patent Owner that Mr. Wesling’s testimony is admissible.
Contrary to Petitioner’s arguments, Mr. Wesling does provide citations and
has detailed his extensive experience in this field. See Ex. 2118 ^ 2, 3, 12.
This is sufficient support for the testimony. Moreover, to the extent that the
reasoning provided by Mr. Wesling is insufficient or faulty, Petitioner’s
arguments go more to the weight that should be given the testimony than its
admissibility. See Microfinancial, Inc. v. Premier Holidays Int’l., 385 F.3d
72, 81 (1st Cir. 2004) (“When the factual underpinning of an expert’s
opinion is weak, it is a matter affecting the weight and credibility of the
testimony—a question to be resolved by the [factfinder].”). Thus, we deny
Petitioner’s request to exclude Paragraph 12 of the Wesling Declaration.

App.151a

6.

Exhibits 2109 and 2110

Exhibits 2109 and 2110 are videos showing the operation SRAM XSync chainrings. Petitioner moves to exclude them under Federal Rules of
Evidence 401^103, 702, 901, and 37 C.F.R. §§ 42.63 and 42.65. Pet. Mot.
Exclude 13. We did not rely on Exhibits 2109 or 2110, so we dismiss this
portion of Petitioner’s Motion to Exclude as moot.
B.

Patent Owner’s Motion to Exclude

Patent Owner moves to exclude Exhibits 1036-1037, 1039-1042,
1047-1048, 1057-1058, 1061, 1069-1070, and 1073, as well as

9-11 and

13-16 of Exhibit 1046 and 26 of Exhibit 1068. PO Mot. Exclude 17.
Petitioner withdraws Exhibits 1042 and 1057, but otherwise opposes Patent
Owner’s Motion. Pet. Opp. 1. We consider Patent Owner’s Motion below.
1.

Exhibit 1036

Patent Owner seeks to exclude Exhibit 1036 under Federal Rule of
Evidence 901 as not authenticated. PO Mot. Exclude 4. Patent Owner
contends that “[n]o witness has authenticated the collection of photographs
set forth in Exhibit 1036 or the statements contained therein purporting to tie
the photographs to a specific member of a SRAM X-Sync chainring family.”
Id. Patent Owner submits that “[t]o the extent this exhibit was used at Mr.
Wesling’s deposition, he was unable to authenticate the photographs because
of their poor quality and because he did not take the photographs in
question.” Id. Petitioner responds that Mr. Wesling did authenticate the
exhibits in his deposition. Pet. Opp. 4 (citing Ex. 1044, 12:22-13:11, 15:19—
20:5, 23:4-24:10). Furthermore, Petitioner submits that the photographs in
Exhibit 1035 are identical to those contained in Exhibit 1073, and
authenticated in Exhibits 1069 and 1070. Id. at 4-5. In its Reply, Patent

App.152a

f

Owner argues that Mr. Wesling did not authenticate the exhibits. PO Mot.
Reply 2.
Documents are authenticated by “evidence sufficient to support a
finding that the item is what the proponent claims it is.” Fed. R.
Evid. 901(a). Authenticity is, therefore, not an especially high hurdle for a
party to overcome. See United States v. Patterson, 277 F.3d 709, 713 (4th
Cir. 2002); see also United States v. Ceballos, 789 F.3d 607, 617-18 (5th
Cir. 2015) (noting “low” burden for authentication); United States v. Isiwele,
635 F.3d 196, 200 (5th Cir. 2011) (noting flaws in authentication go to
weight not admissibility).
We have reviewed Mr. Wesling’s testimony. Although he is vague in
his testimony regarding the photographs, we find his review of the actual
chainrings and confirmation that the photographs resembled the actual
chainrings to be more than sufficient to meet the low bar for authentication.
Ex. 1044, 12:22-13:11, 15:19-20:5,23:4—24:10. Patent Owner’s arguments
go to the weight that should be given the evidence, not its admissibility.
2.

Exhibits 1037, 1039, 1047, 1048, 1058, and 10619

Exhibits 1037, 1039, 1047, 1048, 1058, and 1061 are printouts and
videos from various non-governmental websites. Patent Owner moves to
exclude these exhibits for lack of authentication under Federal Rule of
Evidence 902. PO Mot. Exclude 5-6. Patent Owner also argues that these
exhibits should be excluded as hearsay. Id. at 6. Petitioner argues that these
web printouts are properly authenticated by the testimony of Ms. Arpita
Bhattacharyya and the cross examination testimony of Mr. Ron Ritzier. Pet.

9 Exhibit 1057 has been withdrawn. Pet. Opp. 1.

App.153a

Opp. 5-6 (citing Ex. 1068
Ex. 2076

3, 5, 9, 10, 16, 19; Ex. 1045-A, 59:12-21;

53, 56, 57). As for the hearsay objection, Petitioner asserts that

Exhibits 1037 and 1058 include “Opposing Party Statements,” which are
admissible under Rule 801(d)(2), and Petitioner contends that all of these
exhibits are not relied upon for the truth of the matter asserted. Id. at 6-7.
However, Petitioner submits that, to the extent it does rely on the truth of the
matter asserted in the articles, they should be admitted under Federal Rule of
Evidence 806, because they “undermine and are inconsistent with secondary
considerations positions taken by [Patent Owner’s] witnesses and in its
pleadings based upon articles from the same or similar magazines/sources.”
Id. at 8. Petitioner also seeks to have them admitted under the residual
hearsay exception of Federal Rule of Evidence 807, because the sources for
these exhibits have been shown to be reliable. Id. at 9.
With respect to Exhibit 1039, Petitioner did not cite or rely on this
exhibit in any of its papers, so we dismiss this portion of Patent Owner’s
Motion to Exclude as moot. As for the remaining documents, although we
considered them, we did not rely on them in reaching our decision. Thus,
we dismiss this portion of the Motion as moot.
3.

Exhibits 1040 and 104110

Exhibits 1040 and 1041 are email chains between employees of Patent
Owner and persons from other companies. See Exs. 1040,1041. Patent
Owner moves to exclude these exhibits as not authenticated, under Federal
Rule of Evidence 901, as hearsay, under Federal Rule of Evidence 802, and
as irrelevant, under Federal Rule of Evidence 402. PO Mot. Exclude 6-8.

10 Exhibit 1042 has been withdrawn. Pet. Opp. 1.

App. 154a

With respect to authentication, Petitioner argues that Mr. Ritzier
authenticated these exhibits at his deposition, and that Ms. Bhattacharyya
also authenticated these exhibits in her Declaration. Pet. Opp. 10. As for
the hearsay objection, Petitioner argues that the statements are opposing
party statements exempt from the hearsay rule under Federal Rule of
Evidence 801(d)(2). Id. at 9. Petitioner argues that the exhibits are relevant
to its nexus arguments. Id. at 9-10.
We have no reason to rely on these exhibits. Petitioner relies on these
exhibits to show that Patent Owner has a policy of selling only complete
drivetrain Eagle group sets. Pet. Opp. 9. However, Mr. Ritzier, Patent
Owner’s witness, confirmed at his deposition that Patent Owner’s policy is
to require OEM customers to purchase complete drivetrain Eagle group sets.
Ex. 1045-A, 88:12-17. These exhibits are merely cumulative of Mr.
Ritzier’s testimony. Thus, we dismiss this portion of Patent Owner’s
Motion as moot. Patent Owner’s arguments about relevance go more to the
weight that should be accorded the evidence, not its admissibility.
4.

Paragraphs 9-11 and 13-16 ofExhibit 1046

Exhibit 1046 is the Declaration of Adam Marriott. See Ex. 1046.
Mr. Marriott is a senior product manager at RFE Holding (Canada) Corp.,
which is the parent company of Petitioner. Id.\[ 1. Paragraphs 9-11 and
13-16 offer Mr. Marriott’s opinions on whether he believes that the success
of Patent Owner’s product is a result of the rear cassette, and not the
chainring. See id.

9—11, 13-16. Patent Owner seeks to exclude these

opinions for lack of personal knowledge under Federal Rule of Evidence
602, and also seeks to exclude certain other paragraphs under Federal Rules
of Evidence 401, 402, 403, 701, 702, 801, 802, and 805. PO Mot. Exclude

App.155a

8-10; PO Mot. Reply 4-5. Petitioner responds that Mr. Marriott made these
statements based on his extensive experience in the field of mountain bikes,
and his opinions should be admitted. Pet. Opp. 10-13.
We agree with Petitioner that Mr. Marriott has sufficient experience in
the bicycle industry to offer these opinions on state of the industry and
Patent Owner’s products. Patent Owner’s arguments go more to the weight
we should give this testimony rather than its admissibility. Therefore, we
deny Patent Owner’s Motion to Exclude Paragraphs 9-11 and 13-16 of
Exhibit 1046 (Marriott Declaration).
5.

Paragraph 26 ofExhibit 1068

Exhibit 1068 is the Declaration of Arpita Bhattacharyya, who is one
of Petitioner’s attorneys in this proceeding. In Paragraph 26,
Ms. Bhattacharyya testifies that she reviewed Exhibits 2005-2030 “in
detail,” and that none of the articles in those exhibits mentioned certain
claimed features. Ex. 1068 26. Patent Owner argues that this testimony
should be excluded because it is improper expert testimony. PO Mot.
Exclude 11. Petitioner argues that this is merely fact testimony. Pet.
Opp. 13-14.
Because we can review the articles “in detail” ourselves, there is no
need for us to rely on this testimony. Accordingly, we dismiss this portion
of Patent Owner’s Motion as moot.
6.

Exhibits 1069, 1070, and 1073

Exhibit 1069 is the Declaration of Christopher B. McKinley
(“McKinley Declaration”), one of Petitioner’s attorneys, and, in addition to
certain testimony of Mr. McKinley authenticating certain pictures submitted,
it also contains tables of pictures purporting to compare various features of

App. 156a

the Race Face chainring, SRAM X-Sync chainring, and the SRAM Eagle
chainring. Ex. 1069. The table includes labeling that points out certain
features of the various chainrings. Id. at 3-4. Exhibit 1073 consists solely
of a table of pictures of various SRAM chainrings, labeled by part number,
with close-up pictures of the teeth of the chainring with similar labels as the
McKinley Declaration. See Ex. 1073, 1-6. Exhibit 1070 is the Declaration
of Daniel F. Klodowski (“Klodowski Declaration”), one of Petitioner’s
attorneys. Ex. 1070. The Klodowski Declaration purports to authenticate
the pictures of Exhibit 1073, and asserts that they are representative of the
twelve families of X-Sync chainrings. Id.

3, 4.

Patent Owner seeks to exclude this evidence as irrelevant under
Federal Rules of Evidence 401 and 402. PO Mot. Exclude 11-12.
Petitioner argues that the McKinley and Klodowski Declarations serve to
authenticate the pictures of the various chainrings. Pet. Opp. 14-15.
Petitioner also asserts that Exhibit 1069 is relevant to copying, because it
shows ‘that Race Face’s chainring differs substantially from [Patent
Owner]’s chainrings, i.e., that Race Face’s chainring does not include the
‘protruding tip portion,’ the ‘hooked rear flank,’ or the ‘asymmetric teeth’ of
SRAM’s chainrings.” Id. at 15. As for Exhibit 1073, Petitioner argues that
it is relevant to its argument that Patent Owner is not entitled to a
presumption of a nexus, because Petitioner contends that it “demonstrates
that X-Sync chainrings are not coextensive with the claimed invention.” Id.
Petitioner further argues that there has been no demonstration of prejudice.
Id.
We agree with Petitioner that these exhibits cross the low bar of
relevance. We agree that they are relevant to the issues of copying and

App. 157a

nexus. Thus, we deny Patent Owner’s Motion to Exclude Exhibits 1069,
1070, and 1073. However, as we explain above, though admissible, these
pictures, without any other substantive analysis or explanation for the labels
or their significance, are entitled to very little weight.
IV. CONCLUSION
For the reasons given, based on the arguments and evidence of record,
Petitioner has not met its burden to prove, by a preponderance of the
evidence, that claims 1, 2, 5, 6, 13-15, 18, and 19 of the ’027 patent are
unpatentable under 35 U.S.C. § 103(a) over the combinations of Parachinni
and JP-Shimano or Parachinni, JP-Shimano, and Nagano or that claims 3, 4,
16, and 17 are unpatentable under 35 U.S.C. § 103(a) over the combinations
of Parachinni, JP-Shimano, and Hattan or Parachinni, JP-Shimano, and
Hattan. See 35 U.S.C. § 316(e). We deny-in-part and dismiss-as-moot-inpart Petitioner’s and Patent Owner’s Motions to Exclude.
IV. ORDER
Accordingly, it is:
ORDERED that claims 1-6 and 13-19 of the ’027 patent have not
been proven unpatentable;
Petitioner’s Motion to Exclude is denied-in-part and dismissed-asmoot-in-part;
Patent Owner’s Motion to Exclude is denied-in-part and dismissed-asmoot-in-part; and
FURTHER ORDERED that, because this is a Final Written Decision,
any party to the proceeding seeking judicial review of this Decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

App. 158a

ft
PETITIONER:
Joshua Goldberg
Arpita Bhattacharyya
Daniel Klodowski
FINNEGAN, HENDERSON, FARABOW, GARRETT & DUNNER, LLP
j oshua.goldberg@finnegan. com
arpita.bhattacharyya@finnegan.com
daniel.klodowski@fmnegan.com

PATENT OWNER:
Michael Hickey
Kirk Damman
Benjamin Siders
LEWIS RICE LLC
mhickey@lewisrice.com
kdamman@lewisrice.com
bsiders@lewisrice.com

App. 159a

§ 103. Conditions for patentability

vobvious subject matter, 35 USCA § 103 *

..................

i

f

Appendix E

United States Code Annotated
Title 35. Patents (Refs & Annos)
Part II. Patentability of Inventions and Grant of Patents (Refs & Annos)
______Chapter 10. Patentability of Inventions (Refs & Annos)
35 U.S.C.A. § 103
§ 103. Conditions for patentability; non-obvious subject matter
Currentness
A patent for a claimed invention may not be obtained, notwithstanding that the claimed invention is not identically disclosed as
set forth in section 102, if the differences between the claimed invention and the prior art are such that the claimed invention as a
whole would have been obvious before the effective filing date of the claimed invention to a person having ordinary skill in the
art to which the claimed invention pertains. Patentability shall not be negated by the manner in which the invention was made.

CREDIT(S)
(July 19, 1952, c. 950, 66 Stat. 798; Pub.L. 98-622, Title I, § 103, Nov. 8, 1984, 98 Stat. 3384; Pub.L. 104-41, § 1, Nov. 1,
1995, 109 Stat. 351; Pub.L. 106-113, Div. B, § 1000(a)(9) [Title IV, § 4807(a)], Nov. 29, 1999, 113 Stat. 1536, 1501A-591;
Pub.L. 108-453, § 2, Dec. 10, 2004, 118 Stat. 3596; Pub.L. 112-29, §§ 3(c), 20(j)(l), Sept. 16, 2011, 125 Stat. 287, 335.)

35 U.S.C.A. § 103, 35 USCA § 103
Current through P.L. 116-150.
End of Document

© 2020 Thomson Reuters. No claim to original I.J.S. Government Works.

App. 160a
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

